<html>
<title> - ONLINE PLATFORMS AND MARKET POWER, PART 6: EXAMINING THE DOMINANCE OF AMAZON, APPLE, FACEBOOK, AND GOOGLE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                            
            ONLINE PLATFORMS AND MARKET POWER, PART 6:
                     EXAMINING THE DOMINANCE OF 
                  AMAZON, APPLE, FACEBOOK, AND GOOGLE

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ANTITRUST, COMMERCIAL AND 
                           ADMINISTRATIVE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JULY 29, 2020

                               ----------                              

                           Serial No. 116-94

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
        

 ONLINE PLATFORMS AND MARKET POWER, PART 6: EXAMINING THE DOMINANCE OF 
                  AMAZON, APPLE, FACEBOOK, AND GOOGLE
                  
                  
                  
                  


 
             ONLINE PLATFORMS AND MARKET POWER, PART 6:
                     EXAMINING THE DOMINANCE OF 
                  AMAZON, APPLE, FACEBOOK, AND GOOGLE

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ANTITRUST, COMMERCIAL AND 
                           ADMINISTRATIVE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2020

                               __________

                           Serial No. 116-94

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     



        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
        
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-317               WASHINGTON : 2021         
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              JIM JORDAN, Ohio,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               DOUG COLLINS, Georgia
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                  Chris Hixon, Minority Staff Director
                                 ------                                

               SUBCOMMITTEE ON ANTITRUST, COMMERCIAL AND 
                           ADMINISTRATIVE LAW

                DAVID N. CICILLINE, Rhode Island, Chair
                    JOE NEGUSE, Colorado, Vice-Chair
HENRY C. ``HANK'' JOHNSON, Jr.,      F. JAMES SENSENBRENNER, Jr., 
  Georgia                                Wisconsin, Ranking Member
JAMIE RASKIN, Maryland               KEN BUCK, Colorado
PRAMILA JAYAPAL, Washington          MATT GAETZ, Florida
VAL BUTLER DEMINGS, Florida          KELLY ARMSTRONG, North Dakota
MARY GAY SCANLON, Pennsylvania       W. GREGORY STEUBE, Florida
LUCY McBATH, Georgia

                       Slade Bond, Chief Counsel
      Douglas Geho, Minority Chief Counsel for Administrative Law
      
                             C O N T E N T S

                              ----------                              

                              JULY 29, 2020
                           OPENING STATEMENTS

                                                                   Page
The Honorable David Cicilline, Chairman, Subcommittee on 
  Antitrust, Commercial and Administrative Law...................     2
The Honorable James Sensenbrenner, Ranking Member, Subcommittee 
  on Antitrust, Commercial and Administrative Law................     4
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     5
The Honorable Jim Jordan, Ranking Member, Committee on the 
  Judiciary......................................................     7

                                WITNESSES

 Jeff Bezos, Chief Executive Officer, Amazon.com, Inc.
    Oral Testimony...............................................    11
    Prepared Testimony...........................................    13
 Sundar Pichai, Chief Executive Officer, Alphabet Inc.
    Oral Testimony...............................................    21
    Prepared Testimony...........................................    23
 Tim Cook, Chief Executive Officer, Apple Inc.
    Oral Testimony...............................................    27
    Prepared Testimony...........................................    29
 Mark Zuckerberg, Chief Executive Officer, Facebook, Inc.
    Oral Testimony...............................................    33
    Prepared Testimony...........................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Exhibits Used at Hearing.........................................    42
``Police Requests for Google Users' Location Histories Face New 
  Scrutiny,'' a Wall Street Journal article for the record from 
  the Honorable Kelly Armstrong, Member, Subcommittee on 
  Antitrust, Commercial and Administrative Law...................    89
Letter to Apple by Representatives Greg Walden and Cathy McMorris 
  Rodgers from the Honorable Kelly Armstrong, Member, 
  Subcommittee on Antitrust, Commercial and Administrative Law...    95
Letter to Google by Representatives Greg Walden and Cathy 
  McMorris Rodgers from the Honorable Kelly Armstrong, Member, 
  Subcommittee on Antitrust, Commercial and Administrative Law...    98

                                APPENDIX

Statement for the record from Paul Rafelson, Executive Director, 
  Online Merchants Guild.........................................   169
Letter to Mark Zuckerberg from Dr. Arthur C. Evans, Jr., Chief 
  Executive Officer, American Psychological Association..........   212
Statement for the record from the Leadership Conference on Civil 
  and Human Rights...............................................   216
Statement for the record from Richard Stables, Chief Executive 
  Officers, the Kelkoo Group.....................................   223
Statement for the record from Color of Change....................   225
Statement for the record from Caitriona Fitzgerald, Interim 
  Associate Director and Policy Director, Electronic Privacy 
  Information Center.............................................   232
Statement for the record from Christine Bannan, Policy Counsel, 
  New America's Open Technology Institute........................   237
Statement for the record from Michael Beckerman, Vice President 
  and Head of US Public Policy, TikTok...........................   245
Statement for the record from Dr. Ajintha Pathmanathan, ClinIQ...   251
Statement for the record from Michael Kleinman and Charanya 
  Krishnaswami, Amnesty International............................   263
Statement for the record from Margrethe Vestager, Executive Vice-
  President, European Commission.................................   267
Statement for the record from Dirk Van Dongen, President and CEO, 
  National Association of Wholesaler-Distributors................   275
Statement for the record from Jake Ward, President, Connected 
  Commerce Council...............................................   278
Responses to Questions for the Record from Jeff Bezos, Chief 
  Executive Officer, Amazon.com, Inc.............................   280
Responses to Questions for the Record from Sundar Pichai, Chief 
  Executive Officer, Alphabet Inc................................   335
Responses to Questions for the Record from Tim Cook, Chief 
  Executive Officer, Apple Inc...................................   395
Responses to Questions for the Record from Mark Zuckerberg, Chief 
  Executive Officer, Facebook, Inc...............................   421
Documents Referenced by Members at Hearing.......................   437


 ONLINE PLATFORMS AND MARKET POWER, PART 6: EXAMINING THE DOMINANCE OF 
                  AMAZON, APPLE, FACEBOOK, AND GOOGLE

                              ----------                              


                        WEDNESDAY, JULY 29, 2020

                        House of Representatives

                Subcommittee on Antitrust, Commercial, 
                         and Administrative Law

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 1:05 p.m., in 
Room 2141, Rayburn House Office Building, Hon. David Cicilline 
[chairman of the subcommittee] presiding.
    Present: Representatives Cicilline, Nadler, Johnson, 
Raskin, Jayapal, Demings, Scanlon, Neguse, McBath, 
Sensenbrenner, Jordan, Buck, Gaetz, Armstrong, and Steube.
    Staff Present: Phillip Berenbroick, Counsel; Joseph 
Ehrenkrantz, Special Assistant; David Greengrass, Senior 
Counsel; Madeline Strasser, Chief Clerk; Anthony Valdez, Staff 
Assistant; John Williams, Parliamentarian; Amanda Lewis, 
Counsel, ACAL; Joseph Van Wye, Professional Staff Member, ACAL; 
Lina Khan, Counsel, ACAL; Slade Bond, Chief Counsel, ACAL; 
Catherine Larsen, Special Assistant, ACAL; Chris Hixon, 
Minority Staff Director; David Brewer, Minority Deputy Staff 
Director; Tyler Grimm, Minority Chief Counsel for Policy and 
Strategy; Stephen Castor, Minority General Counsel; Katy 
Rother, Minority Deputy General Counsel and Parliamentarian; 
Ella Yates, Minority Director of Member Services and 
Coalitions; Douglas Geho, Minority Chief Counsel for 
Administrative Law; and Kiley Bidelman, Minority Clerk.
    Mr. Cicilline. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We welcome everyone to today's hearing on ``Online 
Platforms and Market Power, Part 6: Examining the Dominance of 
Amazon, Apple, Facebook, and Google.''
    Before we begin, I'd like to remind members that we have 
established an email address and distribution list dedicated to 
circulating exhibits, motions, or other written materials that 
members might want to offer as part of our hearing today. If 
you'd like to submit materials, please send them to the email 
address that has been previously distributed to your offices, 
and we will circulate the materials to members and staff as 
quickly as we can.
    I would also remind all members that guidance from the 
Office of the Attending Physician states that face coverings 
are required for all meetings in an enclosed space, such as 
committee hearings. I expect all members on both sides of the 
aisle to wear a mask except when you are speaking.
    I now recognize myself for an opening statement.
    More than a year ago, this subcommittee launched an 
investigation into digital markets. Our two objectives have 
been to document competition problems in the digital economy 
and to evaluate whether the current antitrust framework is able 
to properly address them.
    In September 2019, the chairmen and ranking members of the 
full committee and the subcommittee issued sweeping, bipartisan 
requests for information to the four firms that will testify at 
today's hearing. Since then, we've received millions of pages 
of evidence from these firms as well as documents and 
submissions from more than 100 market participants. We've also 
conducted hundreds of hours of interviews.
    As part of this investigation, we have held five hearings 
to examine the effects of online market power on innovation and 
entrepreneurship, data privacy, a free and diverse press, and 
independent businesses in the online marketplace. We've held 17 
briefings and roundtables with over 35 experts and stakeholders 
in support of our work.
    This investigation has been bipartisan from the start. It's 
been an honor to work alongside my colleague Congressman Jim 
Sensenbrenner, the subcommittee's ranking member, as well as 
the former ranking member of the full committee, Congressman 
Doug Collins.
    We've worked closely with all members of the subcommittee 
on both sides of the aisle who have taken this work seriously 
and studied these issues carefully. As my colleague Congressman 
Ken Buck recently commented, and I quote, ``This is the most 
bipartisan effort that I've been involved with in 5\1/2\ years 
of Congress,'' end quote.
    The purpose of today's hearing is to examine the dominance 
of Amazon, Apple, Facebook, and Google.
    Amazon runs the largest online marketplace in America, 
capturing 70 percent of all online marketplace sales. It 
operates across a vast array of businesses, from cloud 
computing and movie production to transportation logistics and 
small-business lending. Amazon's market valuation recently hit 
$1.5 trillion, more than that of Walmart, Target, Salesforce, 
IBM, eBay, and Etsy combined.
    Apple is a dominant provider of smartphones, with more than 
100 million iPhone users in the United States alone. In 
addition to hardware, Apple sells services and apps, including 
financial services, media, and games.
    Facebook is the world's largest provider of social 
networking services, with a business model that sells digital 
ads. Despite a litany of privacy scandals and record-breaking 
fines, Facebook continues to enjoy booming profits--$18 billion 
last year alone.
    Lastly, Google is the world's largest online search engine, 
capturing more than 90 percent of searches online. It controls 
key technologies in digital ad markets and enjoys more than a 
billion users across six products, including browsers, 
smartphones, and digital maps.
    Prior to the COVID-19 pandemic, these corporations already 
stood out as titans in our economy. In the wake of COVID-19, 
however, they're likely to emerge stronger and more powerful 
than ever before. As American families shift more of their 
work, shopping, and communication online, these giants stand to 
profit. Locally owned businesses, meanwhile, mom-and-pop stores 
on Main Street, face an economic crisis unlike any in recent 
history. As hard as it is to believe, it's possible that our 
economy will emerge from this crisis even more concentrated and 
consolidated than before.
    These companies serve as critical arteries of commerce and 
communications. Because these companies are so central to our 
modern life, their business practices and decisions have an 
outsized effect on our economy and our democracy. Any single 
action by one of these companies can affect hundreds of 
millions of us in profound and lasting ways.
    Although these four corporations differ in important and 
meaningful ways, we've observed common patterns and competition 
problems over the course of this investigation.
    First, each platform is a bottleneck for a key channel of 
distribution. Whether they control access to information or to 
a marketplace, these platforms have the incentive and ability 
to exploit this power. They can charge exorbitant fees, impose 
oppressive contracts, and extract valuable data from the people 
and businesses that rely on them.
    Second, each platform uses its control over digital 
infrastructure to surveil other companies, their growth, 
business activity, and whether they might pose a competitive 
threat. Each platform has used this data to protect its power 
by either buying, copying, or cutting off access for any actual 
or potential rival.
    Third, these platforms abuse their control over current 
technologies to extend their power. Whether it's through self-
preferencing, predatory pricing, or requiring users to buy 
additional products, the dominant platforms have wielded their 
power in destructive, harmful ways in order to expand.
    At today's hearing, we'll examine how each of these 
companies have used this playbook to achieve and maintain 
dominance and how their power shapes and affects our daily 
lives.
    So why does this matter? Many of the practices used by 
these companies have harmful economic effects. They discourage 
entrepreneurship, destroy jobs, hike costs, and degrade 
quality. Simply put, they have too much power. This power 
staves off new forms of competition, creativity, and 
innovation. And while these dominant firms may still produce 
some new, innovative products, their dominance is killing the 
small businesses, manufacturing, and overall dynamism that are 
the engines of the American economy.
    Several of these firms also harvest and abuse people's data 
to sell ads for everything from new books to dangerous so-
called ``miracle'' cures. When everyday Americans learn how 
much of their data is being mined, they can't run away fast 
enough. But, in many cases, there is no escape from the 
surveillance, because there's no alternative. People are stuck 
with bad options.
    Open markets are predicated on the idea that, if a company 
harms people, consumers, workers, and business partners will 
choose another option. We're here today because that choice is 
no longer possible.
    In closing, I'm confident that addressing the problems we 
see in these markets will lead to a stronger, more vibrant 
economy. Because concentrated economic power also leads to 
concentrated political power, this investigation also goes to 
the heart of whether we, as a people, govern ourselves or 
whether we let ourselves be governed by private monopolies.
    American democracy has always been at war against monopoly 
power. Throughout our history, we've recognized that 
concentrated markets and concentrated political control are 
incompatible with democratic ideals. When the American people 
confronted monopolists in the past, be it the railroads or the 
oil tycoons or AT&T and Microsoft, we took action to ensure no 
private corporation controls our economy or our democracy. We 
face similar challenges today.
    As gatekeepers of the digital economy, these platforms 
enjoy the power to pick winners and losers, to shake down small 
businesses, and enrich themselves while choking off 
competitors. Their ability to dictate terms, call the shots, 
upend entire sectors, and inspire fear represent the powers of 
a private government. Our Founders would not bow before a king, 
nor should we bow before the emperors of the online economy.
    And, with that, I now recognize the ranking member of the 
subcommittee, Mr. Sensenbrenner, for his opening statement.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    I want to thank the CEOs for quickly working with the 
subcommittee to appear today. The memorial service for John 
Lewis on Monday required our attention. However, this hearing 
is vital to our oversight work, and I appreciate your 
flexibility.
    Throughout my long time in Congress, I have prioritized 
oversight as one of our seminal responsibilities. Part of that 
responsibility is to periodically review the effectiveness of 
our laws. And I think it's a good and timely thing that we are 
now turning our attention to technological innovations, which 
brings us to all of your companies.
    Our country stricken by a pandemic becomes a dramatic 
illustration of the extraordinary reliance Americans have on 
technological innovations. In these unexpected and 
unprecedented times, your companies have provided innovations 
so our Nation can meet a myriad of our daily needs: the 
delivery of groceries, virtual visits with doctors, connecting 
socially distant families, or keeping our small and large 
businesses connected. With that responsibility comes an 
increased scrutiny of your dominance in the marketplace.
    I want to reiterate something I've said throughout this 
investigation: Being big is not inherently bad. Quite the 
opposite. In America, you should be rewarded for success.
    We are here to better understand the role your companies 
have in the digital marketplace and, importantly, the effect 
they have on consumers and the public at large. You lead some 
of today's most powerful companies, and my colleagues and I 
have great interest in what your companies do with that 
accumulated power.
    We also know that the tech marketplace is driven by data. 
So it follows that those who control the data in essence 
control the marketplace. There are broader questions 
surrounding data, however: Who owns the data? What 
responsibilities do companies have to share it with their 
customers or their competitors? What is the fair market value 
of that data? Is there anything monopolistic in acquiring this 
data? And what about monetizing it? These are complex issues 
that Congress, regulators, and even your own companies are 
wrestling with in the current technological landscape, and the 
answers to which we owe the American consumers.
    Since the tech investigation began, we have heard rumblings 
from many who are quick to say your successful companies have 
grown too large. Since this hearing was announced, it seems 
that those complaints have gotten even louder. While I find 
these complaints informative, I don't plan on litigating each 
of these complaints today.
    Antitrust law and the consumer welfare standard have served 
this country well for over a century. Those laws have provided 
the framework and creativity to make way for some of our most 
successful and innovative companies. I will be the first to 
highlight that. However, as the business landscape evolves, we 
must ensure that our existing antitrust laws are applied to 
meet the needs of our country and its consumers.
    I share the concern that market dominance in the digital 
space is ripe for abuse, particularly when it comes to free 
speech. As we know, companies like Facebook, Google's YouTube, 
and Twitter have become the public square of today, where 
political debate unfolds in real-time. But reports that 
dissenting views--often conservative views--are targeted or 
censored is seriously troubling. Conservatives are consumers 
too, and they need the protection of the antitrust laws. The 
power to influence debate carries with it remarkable 
responsibilities.
    So let the facts be our guide here. Your companies are 
large. That's not a problem. Your companies are successful. 
That's not a problem either. But I want to leave here today 
with a more complete picture of how your individual companies 
use your size, success, and power and what it means to the 
American consumer.
    And I yield back the balance of my time.
    Mr. Cicilline. I thank the gentleman.
    The chair now recognizes the distinguished chairman of the 
full committee, the gentleman from New York, Mr. Nadler, for 
his opening statement.
    Chairman Nadler. Thank you, Mr. Chairman.
    I want to thank you, Ranking Member Sensenbrenner, and the 
subcommittee members for the tremendous effort that you have 
all put into this subcommittee's investigation. I appreciate 
your calling this hearing today so that we can hear directly 
from the leaders of Amazon, Apple, Facebook, and Google, and I 
look forward to an important dialogue.
    Today, it is effectively impossible to use the internet 
without using, in one way or another, the services of these 
four companies. I have long believed, with Thomas Jefferson and 
Louis Brandeis, that concentration of power in any form, 
especially concentration of economic or political power, is 
dangerous to a democratic society. That is why we must examine 
these and other companies that play a dominant role in our 
economy and in our society and ensure that our antitrust laws 
give enforcers the tools they need to preserve a healthy 
marketplace. These principles have guided this committee's 
year-long investigation into competition in digital markets, 
and they are the lens through which I approach today's hearing.
    The open internet has delivered enormous benefits to 
Americans, including a surge of economic opportunity, massive 
investment, and new pathways for education online. But there's 
growing evidence that a handful of corporations have come to 
capture an outsized share of online commerce communications.
    From providing the dominant search platform, retail 
platform, and online messaging platform, to providing the 
underlying mapping services and cloud computing on which 
hundreds of thousands of other businesses rely, these dominant 
platforms now comprise the essential infrastructure for the 
21st century.
    By virtue of controlling essential infrastructure, these 
companies have the ability to control access to markets. In 
some basic ways, the problem is not unlike what we faced 130 
years ago when railroads transformed American life, both 
enabling farmers and producers to access new markets but also 
creating a key chokehold that the railroad monopolies could 
exploit.
    Railroads notoriously abused this gatekeeper power in a 
variety of ways. They charged tolls, extorting the producers 
reliant on their rails. They discriminated among farmers, 
picking winners and losers across the economy. And by expanding 
into lines of business that competed directly with producers, 
they could use their dominance in transportation to pay for 
their own services.
    These tactics by the railroads spurred fury and despair 
across the country. Congress initiated investigations to 
document these problems and enacted legislative solutions to 
halt and outlaw these anticompetitive practices in the railroad 
industry and other industries dominated by unregulated 
monopolies and trusts.
    Importantly, congressional oversight and legislative 
reforms during this period did not prevent or encumber the 
inexorable arrival of new technology or human progress. 
Instead, Congress recognized that these powerful new 
technologies had reshaped the balance of power in our economy 
and that it was the role of Congress to ensure that the new 
monopolists could not abuse their power.
    Today, the digital economy poses similar challenges. While 
the underlying technology is dramatically different, of course, 
new digital intermediaries have the ability to control access 
to critical markets. If you are an independent merchant, 
developer, or content producer, you are increasingly reliant on 
these powerful intermediaries to access markets and consumers. 
Across the economy, many businesses live in fear of exclusion 
from these platforms, a fact that some companies have shared 
with the committee over the past year during this 
investigation.
    The subcommittee's current review of competition in the 
digital marketplace continues a long tradition in this 
committee of oversight of the antitrust laws and our economy. 
From the days of Chairman Emanuel Celler, the House Judiciary 
Committee and its Antitrust Subcommittee have conducted 
careful, fact-based inquiries into industrial sectors showing 
signs of consolidation and anticompetitive conduct. This has 
continued on a bipartisan basis over the years, from Chairmen 
Brooks and Hyde to Chairmen Sensenbrenner and Conyers and 
others.
    As a 1950 report from the then-named Subcommittee on 
Monopoly Power described our mandate, quote, ``It is the 
province of this subcommittee to investigate factors which tend 
to eliminate competition, strengthen monopolies, injure small 
businesses, or promote undo concentration of economic power, to 
ascertain the facts, and to make recommendations based on those 
findings.''
    Following in this proud tradition, our investigation has 
held hearings with industry and government witnesses, 
consultations with subject matter experts, and the careful and 
at times painstaking review of large volumes of evidence 
provided by industry participants and regulators.
    While ultimately it is the responsibility of the antitrust 
enforcement agencies to enforce the law, Congress has an 
obligation to assess whether existing antitrust laws and 
competition policies and the will to enforce those laws and 
policies are adequate to address the competition issues facing 
our country and to take action if they are found to be lacking.
    Given the dominant role that these four companies play in 
our economy and our society, it is only reasonable that our 
careful examination of the antitrust laws begin with them.
    I appreciate the participation of all of our witnesses 
today. Our investigation would not be complete--indeed, it has 
hardly begun--without hearing directly from the decisionmakers 
of these companies. And I look forward to their testimony and 
to today's discussion.
    I yield back the balance of my time.
    Mr. Cicilline. I thank the gentleman.
    And I now recognize the ranking member of the full 
committee, the gentleman from Ohio, Mr. Jordan, for his opening 
statement.
    Mr. Jordan. Thank you, Mr. Chairman.
    And I also want to thank the ranking member of this 
subcommittee, Mr. Sensenbrenner. I'm not sure how many more 
committee hearings this subcommittee or the full committee are 
going to have this Congress, but I want to thank Jim for his 
great work for the constituents of his district in Wisconsin 
for this many years and for the work he has done for this 
entire committee.
    I'll just cut to the chase: Big Tech's out to get 
conservatives. That's not a suspicion. That's not a hunch. 
That's a fact.
    July 20, 2020, Google removes the homepages of Breitbart 
and The Daily Caller. Just last night, we learned Google has 
censored Breitbart so much traffic had declined 99 percent.
    June 16, 2020, Google threatens to demonetize and ban The 
Federalist.
    April 19, 2020, Google and YouTube announce a policy 
censoring content that conflicts with recommendations of the 
World Health Organization. Now, think about that. The World 
Health Organization, an organization that lied to us, the 
organization that shilled for China, and if you contradict 
something they say--they can say whatever they want. They can 
lie for China. They can shill for China. You say something 
against them, you get censored.
    June 29, 2020, Amazon bans President Trump's account on 
Twitch after he raises concerns about defunding the police.
    June 4, 2020, Amazon bans a book critical of the 
coronavirus lockdowns written by a conservative commentator.
    May 27, 2020, AmazonSmile won't let you give to the Family 
Research Council and the Alliance Defense Fund, but you can 
give to Planned Parenthood.
    Facebook, June 19, 2020, takes down posts from President 
Trump's reelection campaign.
    November 1, 2018, Facebook silences a pro-life 
organization's advertisement.
    May 19, 2016, former Facebook employees admit Facebook 
routinely suppresses conservative views.
    And I haven't even mentioned Twitter, who we actually 
invited, Mr. Chairman. We asked for you guys to invite them as 
one of our witnesses. You guys said no. I haven't even 
mentioned them.
    Two years ago, they shadow banned two members of this 
committee. Four Members of Congress were shadowed banned 2 
years ago. Four-hundred-and-thirty-five in the House, 100 in 
the Senate, 535. Only four--only four--Gaetz, Meadows, Nunes, 
Jordan--only four get shadowed banned.
    And, of course, what did Mr. Dorsey tell us? He said, oh, 
it was just a glitch in our algorithm. Just a glitch. I asked 
him, what did you put in the algorithm, the names ``Gaetz,'' 
``Meadows,'' ``Nunes,'' ``Jordan''? I mean, if I had a nickel 
for every time I heard it was just a glitch, I wouldn't be as 
wealthy as our witnesses but I'd be doing all right. We've 
heard that excuse time and time again.
    May 28, Twitter censors President Trump's tweet on the 
riots in Minneapolis.
    May 29, 2020, Twitter censors the White House for quoting 
the President's comments about the riots in Minneapolis.
    June 23, 2020, Twitter censors the President again for 
saying he'll enforce the rule of law against any autonomous 
zone in Washington, D.C. You can tweet all you want about the 
autonomous zone that happened in Seattle, but the President 
tweets that he's not going to have one in Washington, D.C.--oh, 
oh, oh, nope, you can't do that. You get banned, you get 
censored.
    Dozens of examples--oh, I forgot one. I forgot one. Just 
last week, July 21, July 21, here's what Twitter did. The 
leader of Iran, the Islamic Republic of Iran--this is from the 
largest state sponsor of terrorism. Twitter allows this tweet: 
Quote, ``The Islamic Republic of Iran will never forget the 
martyrdom of Soleimani and will definitely strike a reciprocal 
blow in the United States.''
    So you can threaten the citizens of this great country, the 
leader of the largest state sponsor of terrorism, that's just 
fine. But, oh, the President says he's not going to allow some 
autonomous zone in D.C., and he gets censored.
    Mr. Jordan. All kinds of examples, most of them from this 
year. And that's what's, I think, critical for us all to 
understand: most of them from this year, an election year. And 
that's what concerns me and so many Americans.
    Because we saw what Google did in 2016. We all know about 
the email the day after the election, where top executives at 
Google--email chain where they talked about the silent donation 
Google made to the Clinton campaign. Now, thank goodness, it 
wasn't enough and, in spite of their efforts to help Clinton, 
President Trump won.
    But we're 97 days before an election. And the power, as the 
previous chairman and ranking member have said, the power these 
companies have to impact what happens during an election, what 
American citizens get to see prior to their voting, is pretty 
darn important. That's why this committee hearing's important.
    Look, we all think the free market's great. We think 
competition's great. We love the fact that these are American 
companies. But what's not great is censoring people, censoring 
conservatives, and trying to impact elections. And if it 
doesn't end, there has to be consequences. There has to be 
consequences. That's what I'm concerned about and, I think, 
what so many Americans are concerned about.
    So I look forward to hearing from our witnesses, Mr. 
Chairman.
    And before I yield back, Mr. Chairman, we have a 
colleague--I would ask unanimous consent that Mr. Johnson, the 
ranking member of the Constitution Subcommittee, be allowed to 
participate in today's hearing, which is our customary practice 
for subcommittee hearings.
    Mr. Cicilline. The gentleman makes a unanimous consent 
request----
    Mr. Raskin. Mr. Chairman, I would object.
    Mr. Cicilline. Objection is heard.
    I now have the pleasure of introducing today's witnesses--
--
    Mr. Jordan. Mr. Chairman, why are we not allowing--it is 
customary.
    Mr. Cicilline. Mr. Jordan, there was a unanimous consent 
request. Objection was heard. I now will introduce our 
witnesses.
    It is now my pleasure----
    Mr. Jordan. This has never happened in the history of the 
Judiciary Committee.
    Mr. Cicilline. It is now my pleasure to introduce today's 
witnesses.
    Our first witness is Jeff Bezos, the chief executive 
officer----
    Mr. Jordan. And this is----
    Mr. Cicilline. Mr. Jordan, I have the time.
    Mr. Jordan. But this is the ranking member of the--we're 
talking about people's liberties here, and we've got the 
ranking member----
    Mr. Cicilline. Mr. Jordan, you made a unanimous consent 
request. Objection was heard. Those are our rules.
    Mr. Jordan. The objection was not----
    Mr. Cicilline. It is now my pleasure to introduce today's 
witnesses.
    Mr. Jordan [continuing]. Law professor----
    Mr. Cicilline. Our first witness is Jeff Bezos----
    Mr. Raskin. Put your mask on.
    Mr. Cicilline [continuing]. The chief executive officer of 
Amazon.com. Mr. Bezos founded Amazon in----
    Mr. Jordan. I'm still speaking----
    Mr. Cicilline. Excuse me. I'm going to remind members of 
this committee, unless you are speaking, our rules require you 
to wear a mask, according to the Attending Physician.
    Mr. Jordan. I'm still----
    Mr. Cicilline. No, I'm speaking about another member of 
this committee.
    I'll begin again.
    It is now my pleasure to introduce today's witnesses.
    Our first witness is Jeff Bezos, the chief executive 
officer of Amazon.com. Mr. Bezos founded Amazon in 1994 as an 
online bookstore. Since then, Amazon has grown to be the 
largest online retailer on the internet. Mr. Bezos also 
oversees his company's expansion into areas including cloud 
computing, digital streaming, and artificial intelligence. Mr. 
Bezos received his bachelor's of science from Princeton 
University.
    Our second witness, Sundar Pichai, is the chief executive 
officer of both Alphabet and its subsidiary, Google. Mr. Pichai 
joined Google in 2004 and has helped manage a number of 
successful products, including Google Chrome, Gmail, and the 
Android operating system. Mr. Pichai also oversaw the company's 
popular search products. Prior to his time at Google, Mr. 
Pichai worked in management consulting at McKinsey. Mr. Pichai 
received a degree in metallurgical engineering from the Indian 
Institute of Technology, a master's degree from Stanford 
University, and an MBA from the Wharton School at the 
University of Pennsylvania.
    Our third witness is Tim Cook, the chief executive officer 
of Apple. Mr. Cook joined Apple in 1998 and served as its chief 
operational officer under Steve Jobs. In 2011, Mr. Cook was 
named CEO. While at Apple, he has overseen their expansion into 
new markets through the launch and development of products and 
services like Apple Pay, Apple Watch, iCloud, Apple Card, and 
HomePod. Prior to joining Apple, Mr. Cook served as the 
director of North American fulfillment for IBM. Mr. Cook 
received a bachelor of science from Auburn University and an 
MBA from Duke University's Fuqua School of Business.
    The last witness at today's hearing is Mark Zuckerberg, 
founder, chairman, and CEO of Facebook. Mr. Zuckerberg 
initially launched Facebook in order to help connect college 
students at his school more easily. Since then, the company has 
grown into the world's largest social media platform, with 1.7 
billion global daily active users. Mr. Zuckerberg attended 
Harvard University, leaving in 2005 to focus full-time on 
developing Facebook.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing.
    And now we'll begin by swearing you in. And before I do 
that, I want to also remind you that you are the only ones from 
your respective companies invited to testify today and that, in 
accordance with normal House practice and section G of the 
House remote committee proceeding regulations, your sworn 
testimony must be your own. Please let me know if at any point 
in the hearing you wish to mute yourself so you can confer with 
your counsel.
    So will you please unmute your microphones and raise your 
right hands?
    Do you swear or affirm under penalty of perjury that the 
testimony you're about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Mr. Bezos. Yes.
    Mr. Pichai. I do.
    Mr. Zuckerberg. Yes.
    Mr. Cook. I do.
    Mr. Cicilline. Let the record show the witnesses answered 
in the affirmative.
    Thank you, and you may remain seated.
    Please note that your written statements will be entered 
into the record in their entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes. To help you stay within 
that time, there is a timing light in Webex. When the light 
switches from green to yellow, you have 1 minute to conclude 
your testimony. When the light turns red, it signals your 5 
minutes have expired.
    Mr. Bezos, you may begin.

 TESTIMONY OF JEFF BEZOS, CHIEF EXECUTIVE OFFICER, AMAZON.COM, 
 INC.; SUNDAR PICHAI, CHIEF EXECUTIVE OFFICER, ALPHABET INC.; 
    TIM COOK, CHIEF EXECUTIVE OFFICER, APPLE INC.; AND MARK 
      ZUCKERBERG, CHIEF EXECUTIVE OFFICER, FACEBOOK, INC.

                    TESTIMONY OF JEFF BEZOS

    Mr. Bezos. Thank you, Chairman Cicilline, Ranking Member 
Sensenbrenner, and members of the subcommittee.
    I was born into great wealth, not monetary wealth but, 
instead, the wealth of a loving family, a family that fostered 
my curiosity and encouraged me to dream big.
    My mom, Jackie, had me when she was a 17-year-old high 
school student in Albuquerque. Being pregnant in high school 
was not popular. The school tried to kick her out, but she was 
allowed to finish after my grandfather negotiated terms with 
the principal. She couldn't have a locker, no extracurriculars, 
and couldn't walk across the stage to get her diploma. She 
graduated and was determined to continue her education, so she 
enrolled in night school, bringing me, her infant son, to class 
with her throughout.
    My dad's name is Miguel. He adopted me when I was 4. He was 
16 when he came to the U.S. from Cuba by himself shortly after 
Castro took over. My dad didn't speak English, and he did not 
have an easy path. What he did have was grit and determination. 
He received a scholarship to college in Albuquerque, which is 
where he met my mom.
    Together with my grandparents, these hardworking, 
resourceful, and loving people made me who I am.
    I walked away from a steady job on Wall Street into a 
Seattle garage to found Amazon, fully understanding that it 
might not work. It feels like just yesterday I was driving the 
packages to the post office myself, dreaming that one day we 
might afford a forklift.
    Customer obsession has driven our success, and I take it as 
an article of faith that customers notice when you do the right 
thing. You earn trust slowly, over time, by doing hard things 
well, delivering on time, offering everyday low prices, making 
promises and keeping them, and making principled decisions, 
even when they are unpopular.
    And our approach is working. Eighty percent of Americans 
have a favorable impression of Amazon overall. Who do Americans 
trust more than Amazon to do the right thing? Only their 
doctors and the military.
    The retail market we participate in is extraordinarily 
large and competitive. Amazon accounts for less than 1 percent 
of the $25 trillion global retail market and less than 4 
percent of U.S. retail. There's room in retail for multiple 
winners. We compete against large, established players like 
Target, Costco, Kroger, and, of course, Walmart, a company more 
than twice Amazon's size.
    Twenty years ago, we made the decision to invite other 
sellers to sell in our store, to share the same valuable real 
estate we spent billions to build, market, and maintain. We 
believed that combining the strengths of Amazon's store with 
the vast selection of products offered by third parties would 
be a better experience for customers and that the growing pie 
of revenue and profits would be big enough for all. We were 
betting that it was not a zero-sum game. Fortunately, we were 
right. There are now 1.7 million small and medium-size 
businesses selling on Amazon.
    The trust customers put in us every day has allowed Amazon 
to create more jobs in the United States over the past decade 
than any other company--hundreds of thousands of jobs across 42 
states. Amazon employees make a minimum of $15 an hour, more 
than double the federal minimum wage. And we offer the best 
benefits--benefits that include comprehensive health insurance, 
401(k) retirement, and parental leave, which includes 20 weeks 
of paid maternity leave.
    More than any place on Earth, entrepreneurial companies 
start, grow, and thrive here in the U.S. We nurture 
entrepreneurs and startups with stable rule of law, the finest 
university system in the world, the freedom of democracy, and a 
deeply accepted culture of risk-taking.
    Of course, this great Nation of ours is far from perfect. 
Even as we remember Congressman John Lewis and honor his 
legacy, we're in the middle of a much-needed race reckoning. We 
also face the challenges of climate change and income 
inequality, and we're stumbling through the crisis of a global 
pandemic.
    Still, with all of our faults and problems, the rest of the 
world would love even the tiniest sip of the elixir we have 
here in the U.S. Immigrants like my dad see what a treasure 
this country is. They have perspective and often can see it 
even more clearly than those of us who were lucky enough to be 
born here.
    It is still day one for this country, and even in the face 
of today's humbling challenges, I have never been more 
optimistic about our future.
    I appreciate the opportunity to appear before you today, 
and I'm very happy to take your questions.
    [The statement of Mr. Bezos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
    Mr. Cicilline. Thank you, Mr. Bezos.
    Mr. Pichai, you are now recognized for 5 minutes.

                   TESTIMONY OF SUNDAR PICHAI

    Mr. Pichai. Thank you, Mr. Chairman, Ranking Member 
Sensenbrenner, and members of the subcommittee.
    Before I start, I know this hearing was delayed because of 
the ceremonies to honor the life of your colleague, 
Representative John Lewis. Because of his courage, this world 
is a better place. He'll be deeply missed.
    At its heart, a discussion about competition is a 
discussion about opportunity. This has never been more 
important, as the global pandemic poses dual challenges to our 
health and our economy.
    Expanding access to opportunity through technology is 
personal to me. I didn't have much access to a computer growing 
up in India, so you can imagine my amazement when I arrived in 
the U.S. for graduate school and saw an entire lab of computers 
to use whenever I wanted.
    Accessing the internet for the first time set me on a path 
to bring technology to as many people as possible. It inspired 
me to build Google's first browser, Chrome. I'm proud that, 11 
years later, so many people experience the web through Chrome 
for free.
    Google takes pride in the number of people who choose our 
products. We are even prouder of what they do with them. From 
the 140 million students and teachers using G Suite for 
education to stay connected during the pandemic, to the 5 
million Americans gaining digital skills through Grow with 
Google, to all the people who turn to Google for help, from 
finding the fastest route home to learning how to cook a new 
dish on YouTube.
    Google's work would not be possible without the long 
tradition of American innovation, and we are proud to 
contribute to its future. We employ more than 75,000 people in 
the U.S. across 26 States. The Progressive Policy Institute 
estimated that in 2018 we invested more than $20 billion in the 
U.S., citing us as the largest capital investor in America that 
year and one of the top five for the last 3 years.
    One way we contribute is by building helpful products. 
Research found that free services like Search, Gmail, Maps, and 
Photos provide thousands of dollars a year in value to the 
average American, and many are small businesses using our 
digital tools to grow.
    Stone Dimensions, a family-owned stone company in Pewaukee, 
Wisconsin, uses Google My Business to draw more customers. 
Gil's Appliances, a family-owned appliance store in Bristol, 
Rhode Island, credits Google Analytics with helping them reach 
customers online during the pandemic. Nearly one-third of 
small-business owners say that without digital tools they would 
have had to close all or part of their business during COVID.
    Another way we contribute is by being among the world's 
biggest investors in research and development. At the end of 
2019, our R&D spend had increased tenfold over 10 years, from 
$2.8 billion to $26 billion, and we have invested over $90 
billion the last 5 years. Our engineers are helping America 
remain a global leader in emerging technologies like artificial 
intelligence, self-driving cars, and quantum computing.
    Just as America's technology leadership is not inevitable, 
Google's continued success is not guaranteed. New competitors 
emerge every day, and, today, users have more access to 
information than ever before. Competition drives us to 
innovate, and it also leads to better products, lower prices, 
and more choices for everyone. For example, competition helped 
lower online advertising costs by 40 percent over the last 
decade, with savings passed down to consumers.
    Open platforms like Android also support the innovation of 
others. Using Android, thousands of mobile operators build and 
sell their own devices without paying any licensing fees to us. 
This has enabled billions of consumers to offer cutting-edge 
smartphones, some for less than $50. Whether building tools for 
small businesses or platforms like Android, Google succeeds 
when others succeed.
    Competition also sets higher standards for privacy and 
security. I've always believed that privacy is a universal 
right. And Google is committed to keeping your information 
safe, treating it responsibly, putting you in control. And 
we've long supported the creation of comprehensive Federal 
privacy laws.
    I've never forgotten how access to technology and 
innovation changed the course of my life. Google aims to build 
products that increase access to opportunity for everyone, no 
matter where you live, what you believe, or how much money you 
earn. We are committed to doing this responsibly, in 
partnership with lawmakers, to ensure every American has access 
to the incredible opportunity technology creates.
    Thank you.
    [The statement of Mr. Pichai follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    Mr. Cicilline. Thank you, Mr. Pichai.
    Mr. Cook is now recognized for 5 minutes.

                     TESTIMONY OF TIM COOK

    Mr. Cook. Chairmen Cicilline and Nadler, Ranking Members 
Sensenbrenner and Jordan, members of the subcommittee, thank 
you for the opportunity to offer testimony.
    Before I begin, I want to recognize the life and legacy of 
John Lewis. I join you in mourning not only a hero but someone 
I knew personally, whose example inspires and guides me still. 
Every American owes John Lewis a debt, and I feel fortunate to 
hail from a state and a country that benefited so profoundly 
from his leadership.
    My name is Tim Cook. I've been Apple's CEO since 2011 and a 
proud employee of this uniquely American company since 1998. At 
Apple, we make ourselves a promise and our customers a promise; 
it's a promise that we'll only build things that make us proud. 
As Steve put it, we only make things that we'd recommend to our 
family and friends.
    You can try to define this difference in a lot of ways. You 
can call it the seamless integration of hardware and software. 
You can call it simplicity of design or a great ecosystem. All 
of those things are true. But if you want to put it simply, 
products like iPhone just work. When customers consistently 
give iPhone a 99 percent satisfaction rating, that's the 
message they're sending about the user experience.
    But we also know that customers have a lot of choices and 
that our products face fierce competition. Companies like 
Samsung, LG, Huawei, and Google have built successful 
businesses with different approaches. We're okay with that. Our 
goal is the best, not the most. In fact, we don't have a 
dominant share in any market or in any product category where 
we do business.
    What does motivate us is that timeless drive to build new 
things that we're proud to show our users. We focus 
relentlessly on those innovations, on deepening core principles 
like privacy and security, and on creating new features.
    In 2008, we introduced a new feature of the iPhone called 
the App Store. Launched with 500 apps, which seemed like a lot 
at the time, the App Store provided a safe and trusted way for 
users to get more out of their phone.
    We knew the distribution options for software developers at 
the time didn't work well. Brick-and-mortar stores charged high 
fees and had limited reach. Physical media, like CDs, had to be 
shipped and were hard to update.
    From the beginning, the App Store was a revolutionary 
alternative. App Store developers set prices for their apps and 
never pay for shelf space. We provide every developer with 
cutting-edge tools like compilers, programming languages, and 
more than 150,000 essential software building blocks called 
APIs.
    The App Store guidelines ensure a high-quality, reliable, 
and secure user experience. They are transparent and applied 
equally to every developer.
    For the vast majority of apps, developers keep 100 percent 
of the money they make. The only apps that are subject to a 
commission are those where the developer acquires a customer on 
an Apple device and where the features or services would be 
experienced and consumed on an Apple device.
    In the App Store's more-than-10-year history, we have never 
raised a commission or added a single fee. In fact, we've 
reduced it for subscriptions and exempted additional categories 
of apps.
    I'm here today because scrutiny is reasonable and 
appropriate. We approach this process with respect and 
humility. But we make no concession on the facts. What began as 
500 apps is now more than 1.7 million, only 60 of which are 
Apple software. If Apple is a gatekeeper, what we've done is 
open the gate wider. We want to get every app we can on the 
Store, not keep them off.
    The App Store's economic contributions are significant. The 
ecosystem is responsible for 1.9 million jobs in all 50 states, 
and it facilitated $138 billion in commerce in the U.S. in 2019 
alone.
    I share the committee's belief that competition promotes 
innovation, that it makes space for the next great idea, and 
that it gives consumers more choices. Since Apple was founded, 
these things have defined us. The first Mac brought opportunity 
and possibility into the home. The iPod helped musicians and 
artists to share their creations and be paid fairly for it. 
This legacy does much more than make us proud; it inspires us 
to work tirelessly to make sure tomorrow will be even better 
than today.
    Thank you very much. I look forward to responding to your 
questions.
    [The statement of Mr. Cook follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Mr. Cicilline. Thank you, Mr. Cook.
    Mr. Zuckerberg is now recognized for 5 minutes.

                  TESTIMONY OF MARK ZUCKERBERG

    Mr. Zuckerberg. Thank you.
    Before I begin, I want to add my voice to those honoring 
Congressman John Lewis and his service to our country. America 
has lost a real hero who never stopped fighting for the rights 
of every person.
    Chairman Cicilline, Ranking Member Sensenbrenner, members 
of the subcommittee, thank you for the opportunity to testify.
    The tech industry is an American success story. The 
products we build have changed the world and improved people's 
lives. Our industry is one of the ways that America shares its 
values with the world and one of our greatest economic and 
cultural exports.
    Facebook is part of this story. We started with an idea: to 
give people the power to share and connect. And we've built 
services that billions of people find useful.
    I'm proud that we've given people who've never had a voice 
before the opportunity to be heard and given small businesses 
access to tools that only the largest players used to have.
    Since COVID emerged, I'm proud that people have used our 
services to stay in touch with friends and family who they 
can't be with in person and to keep their small businesses 
running online when physical stores are closed.
    I believe that Facebook and the U.S. tech industry are a 
force for innovation and empowering people, but I recognize 
that there are concerns about the size and power of tech 
companies.
    Our services are about connection, and our business model 
is advertising, and we face intense competition in both. Many 
of our competitors have hundreds of millions or billions of 
users. Some are upstarts, but others are gatekeepers with the 
power to decide if we can even release our apps in their app 
stores to compete with them.
    In many areas, we are behind our competitors. The most 
popular messaging service in the U.S. is iMessage. The fastest 
growing app is TikTok. The most popular app for video is 
YouTube. The fastest growing ads platform is Amazon. The 
largest ads platform is Google. And for every dollar spent on 
advertising in the U.S., less than 10 cents is spent with us.
    We're here to talk about online platforms, but I think the 
true nature of competition is much broader. When Google bought 
YouTube, it could compete against the dominant player in video, 
which was the cable industry. When Amazon bought Whole Foods, 
it could compete against Kroger's and Walmart. When Facebook 
bought WhatsApp, we could compete against telcos who used to 
charge 10 cents a text message but not anymore. Now, people can 
watch video, get groceries delivered, and send private messages 
for free. That's competition.
    New companies are created all the time, all over the world, 
and history shows that if we don't keep innovating, someone 
will replace every company here today. And that change can 
often happen faster than you expect. Of the 10 most valuable 
companies a decade ago, only 3 still make that list today. And 
if you look at where the top technology companies have come 
from, a decade ago, the vast majority were American. Today, 
almost half are Chinese.
    Aside from competition, there are other serious issues 
related to the internet, including questions about elections, 
harmful content, and privacy. And while these are not antitrust 
issues and are not specifically the topic of today's hearing, I 
recognize that we are often at the center of these discussions.
    We build platforms for sharing ideas, and important debates 
play out across our services. I believe that this ultimately 
leads to more progress, but it means we often find ourselves in 
the middle of deep disagreements about social issues and high-
stakes elections.
    I personally don't believe that private companies should be 
making so many decisions about these issues by themselves. And 
that's why, last year, I made the case that there needs to be 
new regulation for the internet.
    Facebook stands for a set of basic principles: giving 
people voice and economic opportunity; keeping people safe; 
upholding democratic traditions like freedom of expression and 
voting; and enabling an open and competitive marketplace. These 
are fundamental values for most of us but not for everyone in 
the world--not for every company we compete with or the 
countries they represent. And as global competition increases, 
there is no guarantee that our values will win out.
    I am proud of the services we build and how they improve 
people's lives. We compete hard. We compete fairly. We try to 
be the best. That's what I was taught matters in this country. 
And when we succeed, it's because we deliver great experiences 
that people love.
    Thank you, and I look forward to answering your questions.
    [The statement of Mr. Zuckerberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Mr. Cicilline. Thank you.
    And I thank the witnesses for your opening statements.
    Before I begin recognizing members for questioning under 
the 5-minute rule, without objection, I'm going to enter into 
the hearing record the documents and exhibits majority members 
will be referencing in their questioning today. These materials 
have been distributed to the witnesses.
    [The information follows:]
      

     MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Cicilline. I will now recognize myself for 5 minutes.
    Mr. Pichai, over 85 percent of all online searches go 
through Google. Every online company in the United States 
depends on Google to reach users. A business may sink or swim 
based on Google's decisions alone.
    Numerous online businesses told us that Google steals their 
content and privileges its own sites in ways that profit Google 
but crush everyone else. Most businesses asked to stay 
anonymous due to fears that Google would retaliate against 
them.
    One entrepreneur, Brian Warner, told us his website was 
thriving until Google stole his content. After Google's 
decision, traffic to his website dropped by 80 percent. He had 
to downsize his business and lay off half his staff. He told 
us, and I quote, ``If someone came to me with an idea for a 
website or a web service today, I'd tell then to run--run as 
far away from the web as possible. Launch a lawn-care business 
or a dog-grooming business, something Google can't take away as 
soon as he or she is thriving.''
    So my first question, Mr. Pichai, is why does Google steal 
content from honest businesses?
    Mr. Pichai. Mr. Chairman, with respect, I disagree with 
that categorization.
    Just last week, I met with many small businesses. In fact, 
today, we support 1.4 million small businesses, supporting over 
$385 billion in economic activity.
    We see many businesses thrive, particularly even during the 
pandemic. An example: Kettle Kings in Texas, which sells 
kettlebells, they've really expanded----
    Mr. Cicilline. Mr. Pichai, I have a limited amount of time, 
so I don't want to interrupt you, but my question is very 
specific.
    We've heard throughout this investigation that Google has 
stolen content to build your own business. These are consistent 
reports. And so your testimony that that doesn't happen is 
really inconsistent with what we've learned during the course 
of the investigation.
    But I'll move on to a new question.
    Mr. Pichai, most Americans believe that when they enter a 
search query that what Google shows are the most relevant 
results. But, increasingly, Google just shows whatever is most 
profitable for Google, be it Google Ads or Google's own sites.
    And so my question, Mr. Pichai: Isn't there a fundamental 
conflict of interest between serving users who want to access 
the best and most relevant information and Google's business 
model, which incentivizes Google to sell ads and keep users on 
Google's own sites?
    Mr. Pichai. We have always focused on providing users the 
most relevant information. And we rely on that trust for users 
to come back to Google every day.
    In fact, the vast majority of queries in Google, we don't 
show ads at all. And we show ads only for a small subset of 
queries where the intent from users is highly commercial. For 
example, they may be looking for something like TV sets or so 
on. So----
    Mr. Cicilline. But, Mr. Pichai, what is the value of the 
part that you do use the Google Ads for? I mean, it's a 
substantial part of your business. What's the actual value? 
$200 billion? $300 billion?
    Mr. Pichai. You know, in terms of revenue, it's around 
$100-plus billion.
    Mr. Cicilline. Okay.
    Mr. Pichai. But----
    Mr. Cicilline. That's a lot of money, Mr. Pichai.
    Let me move on.
    Really, Mr. Pichai, it's Google's business model that is 
the problem. Our documents show that Google evolved from a 
turnstile to the rest of the web to a walled garden that 
increasingly keeps users within its sites.
    Emails show that, over a decade ago, Google started to fear 
competition from certain websites, web pages that could divert 
search traffic and revenue from Google. These documents show 
that Google staff discussed the ``proliferating threat,'' is 
how it was described, that these web pages posed to Google. Any 
traffic lost to other sites was a loss in revenue. One of 
Google's memos observed that certain websites were getting, and 
I quote, ``too much traffic,'' so Google decided to put an end 
to that.
    Mr. Pichai, you've been at Google since 2004. Were you 
involved in these discussions about the threat from vertical 
search?
    Mr. Pichai. Congressman, without knowing the specifics, you 
know, I'm not really clear of the context.
    But, definitely, when we look at vertical searches, it 
validates the competition we see. For example, when users come 
looking to shop online, independent studies show that over 55 
percent of product searches originate with Amazon and over 70 
percent originate with the major e-commerce companies.
    In the few categories which are commercial in nature, we 
see vigorous competition, be it travel, be it real estate. And 
we are working hard for----
    Mr. Cicilline. Well, let me ask very specifically, Mr. 
Pichai: The evidence that we collected shows that Google 
pursued a multipronged attack.
    First, Google began to steal other web pages' content. For 
example, in 2010, Google stole restaurant reviews from Yelp to 
bootstrap its own rival local search business.
    Mr. Pichai, do you know how Google responded when Yelp 
asked you to stop stealing their reviews?
    Well, I'll tell you. Our investigation shows that Google's 
response was to threaten to delist Yelp entirely. In other 
words, the choice Google gave Yelp was: Let us steal your 
content, or effectively disappear from the web.
    Mr. Pichai, isn't that anticompetitive?
    Mr. Pichai. Congressman, you know, when I run the company, 
I am really focused on giving users what they want. We conduct 
ourselves to the highest standard. Happy to engage, understand 
the specifics, and answer your questions further.
    Mr. Cicilline. Thank you.
    And I just have one final series of questions, Mr. Pichai. 
Did Google ever use its surveillance over web traffic to 
identify competitive threats?
    Mr. Pichai. Congressman, just like other businesses, we try 
to understand trends from, you know, data which we can see, and 
we use it to improve our products for our users. But we are 
really focused on improving our products, and that's how----
    Mr. Cicilline. I appreciate that, Mr. Pichai.
    Google's own documents and numerous interviews with 
companies affected by this conduct show that Google did just 
that, which is very disturbing and very anticompetitive.
    In addition to stealing content, Google also began to 
privilege its own sites. An investigative report published just 
yesterday found that 63 percent of web searches that start on 
Google also end somewhere on Google's own websites.
    And, to me, that's evidence that Google is increasingly a 
walled garden which keeps users on Google sites even if Google 
doesn't have the most relevant information. And it's 
economically catastrophic for other companies online.
    And so my time is running out, but, Mr. Pichai, I'll just 
end by saying, the evidence seems very clear to me. As Google 
became the gateway to the internet, it began to abuse its 
power. It used its surveillance over web traffic to identify 
competitive threats and crush them. It has dampened innovation 
and new business growth. And it's dramatically increased the 
price of accessing users on the internet, virtually ensuring 
that any business that wants to be found on the web must pay 
Google a tax.
    And, with that, I recognize the ranking member of the 
subcommittee, Mr. Sensenbrenner, for his first round of 
questions.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I've been in Congress 42 years. That's coming to an end at 
the end of this year. I'm breathing a sigh of relief. But 
during that period of time, during the decade of the 1990s and 
the 2000s, you know, I was involved, as chairman of the Science 
Committee and chairman of this committee, in trying to make the 
net universal, you know, and open it up to everybody.
    And one of the theses that we used is that the net should 
end up becoming basically the debate on issues, not only in our 
country but throughout the world. And in exchange for that, 
this committee and the Congress gave internet service providers 
immunity, so if somebody said something defamatory in what they 
posted, the ISPs could not be a part of a lawsuit for 
defamation.
    Now, after hearing Mr. Jordan give a long line of 
censorship of conservative viewpoints, you know, I am concerned 
that the people who manage the net--and the four of you manage 
a big part of the net--you know, are ending up using this as a 
political screen.
    Conservatives are consumers too. And the way the net was 
put together, in the eyes of Congress, is that everybody should 
be able to speak their mind.
    Mr. Zuckerberg, Mr. Jordan's litany of censorship zeros in 
on Facebook. Exactly what are your standards in, quote, 
``filtering out'' political speech that maybe some people out 
there don't agree with?
    Mr. Zuckerberg. Congressman, thank you for the opportunity 
to address this.
    Our goal is to offer a platform for all ideas. We want to 
give everyone in the world a voice to share their experiences 
and ideas. A lot of that is day-to-day things that happen in 
their lives; some of it is political. And, frankly, I think 
that we've distinguished ourselves as one of the companies that 
defends free expression the most.
    We do have community standards around things that you can 
and cannot say. I think you would likely agree with most of 
them. They ban categories of harm such as promoting terrorist 
propaganda, child exploitation, incitement of violence, some 
more legalistic things like intellectual property violations. 
And they also ban things like hate speech that could lead to 
dehumanizing people and----
    Mr. Sensenbrenner. Now, if I----
    Mr. Zuckerberg [continuing]. Encouraging violence down the 
road.
    Mr. Sensenbrenner [continuing]. May ask a specific question 
of you. It was reported that Donald Trump, Jr., got taken down 
for a period of time because he put something up on the 
efficacy of hydroxychloroquine.
    Now, I wouldn't take it myself, but there still is a debate 
on whether it is effective either in treating or preventing 
COVID-19, and I think that this is a legitimate matter of 
discussion. And it would be up to a patient and their doctor to 
determine whether hydroxychloroquine was the correct 
medication, you know, given the circumstances.
    Now, why did that happen?
    Mr. Zuckerberg. Congressman, well, first, to be clear, I 
think what you might be referring to happened on Twitter. So 
it's hard for me to speak to that. But I can talk to our 
policies about this. We do prohibit content that will lead to 
imminent risk of harm, and stating that there's a proven cure 
for COVID when there is, in fact, none might encourage someone 
to go take something that could have some adverse effect. So we 
do take that down.
    We do not prohibit discussion around trials of drugs or 
people saying that they think that things might work or 
personal experiences with experimental drugs. But if someone is 
going to say that something is proven when, in fact, it is not, 
that could lead people to make the decision----
    Mr. Sensenbrenner. Wouldn't that be up to somebody on the 
other side of the issue to say that this is not proven? And, 
you know, I know as a fact that, you know, for people with 
certain conditions, it's contraindicated, and they shouldn't 
take it on that. But wouldn't that be up to somebody else, you 
know, to say, ``Okay, what somebody posted on this really isn't 
true, and here's what the facts are,'' rather than having 
Twitter or Facebook take it down?
    Mr. Zuckerberg. Congressman, in general I agree with you, 
and we do not want to become the arbiters of truth. I think 
that that would be a bad position for us to be in and not what 
we should be doing.
    But on specific claims, if someone is going to go out and 
say that hydroxychloroquine is proven to cure COVID when, in 
fact, it has not been proven to cure COVID and that statement 
could lead people to take a drug that in some cases some of the 
data suggests that it might be harmful to people, we think that 
we should take that down. That could cause imminent risk of 
harm.
    Mr. Sensenbrenner. Thank you. I yield back.
    Mr. Cicilline. I thank the gentleman.
    I now recognize the distinguished chair of the full 
Judiciary Committee, Mr. Nadler, from New York for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Zuckerberg, I want to thank you for providing this 
information during our investigation. However, the documents 
you provided tell a very disturbing story, and that story is 
that Facebook saw Instagram as a powerful threat that could 
syphon business away from Facebook. And so, rather than compete 
with it, Facebook bought it. This is exactly the type of 
anticompetitive acquisition that the antitrust laws were 
designed to prevent.
    Now, let me explain what I mean. Mr. Zuckerberg, you have 
written that Facebook can likely always just buy any 
competitive startups. In fact, on the day Facebook bought 
Instagram, which you describe as a threat, you wrote, quote, 
``One thing about startups is you can often acquire them,'' 
closed quote. Mr. Zuckerberg, you were referring to companies 
like Instagram in that quote, weren't you?
    Mr. Zuckerberg. Congressman, I don't have the exact 
document in front of me, but I have always been clear that we 
viewed Instagram both as a competitor and as a complement to 
our services. In the growing space around--after smartphones 
started getting big, and they competed with us in the space of 
mobile cameras and mobile photo sharing, but at the time, 
almost no one thought of them as a general social network. And 
people didn't think of them as competing with us in that space.
    And, you know, I think that the acquisition has been wildly 
successful. We were able to, by acquiring them, continue 
investing in it and growing it as a stand-alone brand that now 
reaches many more people than I think either Kevin, the 
cofounder, or I thought would be possible at the time while 
also incorporating some of the technology into making 
Facebook's photos--sharing products better. So, yes.
    Mr. Nadler. Okay. Now, in early 2012, when Facebook 
contemplated acquiring Instagram, a competitive startup, you 
told your CFO that the nascent Instagram could be very 
disruptive to us. And in the weeks leading up to the deal, you 
described Instagram as a threat, saying that, quote, 
``Instagram can meaningfully hurt us without becoming a huge 
business,'' unquote.
    Now, Mr. Zuckerberg, what did you mean when you described 
Instagram as a threat, as disruptive, and when you said that 
Instagram could meaningfully hurt Facebook? Did you mean that 
consumers might switch from Facebook to Instagram?
    Mr. Zuckerberg. Congressman, thanks for the opportunity to 
address this. At the time, there was a small but growing field 
of----
    Mr. Nadler. Did you mean that consumers might switch from 
Facebook to Instagram? That was my question.
    Mr. Zuckerberg. Thanks. Congressman----
    Mr. Nadler. Yes or no? Did you mean that?
    Mr. Zuckerberg. In the space of mobile photos and camera 
apps, which was growing, they were a competitor. I've been 
clear about that.
    Mr. Nadler. Okay. Fine.
    Mr. Zuckerberg. And----
    Mr. Nadler. Fine. In February of that year, in February 
2012, you told Facebook's chief financial officer that you were 
interested in buying Instagram. He asked you whether the 
purpose of the deal was to neutralize a potential competitor or 
to integrate their products with ours in order to improve our 
services.
    You answered that it was a combination of both, saying: 
What we're really buying is time. Even if some new competitors 
springs up, those products won't get much traction since we'll 
already have their mechanics deployed at scale.
    Mr. Zuckerberg, what did you mean when you answered that 
the purpose of the deal was to neutralize a potential 
competitor?
    Mr. Zuckerberg. Congressman, well, those aren't my words, 
but, yes, I've been clear that Instagram was a competitor in 
the space of mobile photo sharing. There were a lot of others 
at the time that competed with apps like VSCO Cam and PicPlease 
and companies like Path.
    It was a subset of the overall space of connecting that we 
exist in. And by having them join us they certainly went from 
being a competitor in the space of being a mobile camera to an 
app that we could help grow and help get more people to be able 
to use and be on our team, and I think that that's been wildly 
successful.
    Mr. Nadler. Reclaiming my time. Well, Mr. Zuckerberg, 
mergers and acquisitions that buy off potential competitive 
threats violate the antitrust laws. In your own words, you 
purchased Instagram to neutralize a competitive threat. If this 
was an illegal merger at the time of the transaction, why 
shouldn't Instagram now be broken off into a separate company?
    Mr. Zuckerberg. Well, Congressman, I think the FTC had all 
of these documents and reviewed this and unanimously voted at 
the time not to challenge the acquisition. I mean, I think with 
hindsight, it probably looks like obvious that Instagram would 
have reached the scale that it has today, but at the time, it 
was far from obvious.
    A lot of the competitors that Instagram competed with in 
mobile sharing, I'm including companies like Path, which were 
hot at the time and had great founders and entrepreneurs 
running them, like Dave Morin and I worked closely with him, I 
mean, I don't even think Path exists today. It was not a 
guarantee that Instagram was going to succeed.
    The acquisition has done wildly well, largely not just 
because of the founders' talent but because we invested heavily 
in building up the infrastructure and promoting it and working 
on security and working on a lot of things around this, and I 
think that this has been an American success story.
    Mr. Nadler. Well, thank you. Mr. Zuckerberg, you're making 
my point.
    In closing, Mr. Chairman, I want to end where I began. 
Facebook, by Mr. Zuckerberg's own admission and by the 
documents we have from the time, saw Instagram as a threat that 
could potentially syphon business away from Facebook. And so, 
rather than compete with it, Facebook bought it. This is 
exactly the type of anticompetitive acquisition that the 
antitrust laws were designed to prevent. This should never have 
happened in the first place. It should never have been 
permitted to happen, and it cannot happen again.
    I yield back.
    Mr. Cicilline. Thank you, Mr. Chairman. I would remind the 
witness that the failures of the FTC in 2012, of course, do not 
alleviate the antitrust challenges that the chairman described.
    And, with that, I'm going to recognize the gentleman from 
Colorado and, again, thank him for co-hosting one of the most 
important hearings we had along with Mr. Neguse in Colorado 
that I think was very critical in this investigation. And 
you're recognized for 5 minutes, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman. And I want to offer my 
appreciation to you for the bipartisan way that you have 
approached the subcommittee's investigation.
    I want to start by saying that capitalism is the greatest 
instrument for freedom this world has ever seen. Capitalism has 
given the United States the freedom and means to defeat the 
Soviet Union, beat back fascism, and put a man on the moon.
    This economic system has lifted millions out of poverty. It 
has made America the freest, most prosperous nation in the 
world. Our witnesses have taken ideas born out of a dorm room, 
a garage, a warehouse and built these dreams into four of the 
biggest power players in the digital global economy. You have 
all enjoyed the freedom to succeed.
    Now, let me be clear: I do not believe big is necessarily 
bad; in fact, big is often a force for good. However, I want to 
address one particularly disturbing issue. Mr. Pichai, in 
October 2018, Google dropped out of the running for a Pentagon 
contract to complete the joint enterprise defense 
infrastructure, or JEDI contract, which was valued at more than 
$10 billion. Google's stated reason for removing itself from 
the bidding process is that the U.S. military's project did not 
align with Google's corporate values and principles.
    This is the same U.S. military that fights for our freedoms 
and stands as a force for good across the globe. These are the 
same soldiers, sailors, and airmen that sacrificed their lives 
to ensure you have the freedom to build your company and set 
your corporate policies without fear of government 
interference, unlike in Communist China.
    I also find it very interesting that only months after 
making this decision to withdraw from the JEDI contract, Marine 
General Joseph Dunford, the Chairman of the U.S. Joint Chiefs 
of Staff, warned the Senate Armed Forces Committee that the 
Chinese military was directly benefiting from Google's work.
    It made me wonder, what values Google and Communist Red 
China had in common? I asked myself, self, is it that the 
Chinese Communist Party imprisons Uighur Muslims in 
concentration camps like is shown on the chart behind me? Could 
it be that China forces slaves to work in sweatshops? Maybe 
they align on the design to suppress free speech in Hong Kong.
    Did Google agree with CCP's decision to lie to the world 
about the COVID-19 pandemic? Then I thought about Google's 
dragonfly experiment. I wondered if perhaps you agreed with the 
Chinese Government's use of technology platforms to spy on its 
own people and enforce draconian security laws. Maybe it's that 
your company is aligned with the Chinese Communist Party's 
corporate espionage policies where the strategy is to steal 
whatever can't be produced domestically.
    These values that allow Google to work with the Chinese 
military but not the U.S. military help explain why Google 
wouldn't think twice about blatantly stealing a competitor's 
product, right down to the watermark, without any hint of 
attribution.
    Mr. Pichai, during our field hearing in my home state of 
Colorado, I heard a story that sounded so brazen and contrary 
to free market principles that I thought it must have been 
straight from the Chinese Communist Party's corporate espionage 
playbook.
    Google took advantage of a company that relied on your 
search engine to build its brand and compete. Google 
misappropriated lyrics from Genius Media Group's website and 
published those lyrics on Google's own platform. However, 
Genius caught Google in the act, quite literally red-handed.
    When Genius suspected this corporate theft was occurring, 
the company incorporated a digital watermark in its lyrics that 
spelled out ``red-handed'' in Morse code. Google's lyric boxes 
contained the watermark showing that your company stole what 
you couldn't or didn't want to produce yourself.
    After Google executives stated that they were investigating 
this problematic behavior, Genius created another experiment to 
determine the scope of the misappropriation. It turns out that, 
out of 271 songs where the watermark was applied, 43 percent 
showed clear evidence of matching. Your company, which 
advertises itself as a doorway to freedom, took advantage of 
this small company, all but extinguishing Genius' freedom to 
compete.
    Google is supposed to connect people to information. Your 
corporate values once stood for freedom, a platform that let 
capitalism flourish and helped bring countless people across 
the globe out of poverty.
    My question to you, Mr. Pichai, do you think that Google 
could get away with following China's corporate espionage 
playbook if you didn't have a monopolistic advantage in the 
market?
    Mr. Pichai. Congressman, I want to be able to address the 
important concerns you raised. First of all, we are proud to 
support the U.S. Government. We recently signed a big project 
with the Department of Defense where we are bringing our world-
class zero trust-based cybersecurity approach to help protect 
our networks from cybersecurity attacks.
    We have projects underway with the Navy, with the 
Department of Veterans Affairs. Happy to follow up and explain 
more. We have a very limited presence in China. We don't offer 
any of our services, Search, Maps, Gmail, YouTube, et cetera, 
in China.
    And with respect to music, we license content fair, in 
fact, we license content from other companies, and so this is a 
dispute between Genius and the other companies in terms of 
where the source of the content is. But, again, happy to engage 
and explain what we do here further.
    Mr. Buck. Thank you. I yield back, Mr. Chairman.
    Mr. Cicilline. I thank the gentleman.
    I now recognize the gentleman from Georgia, Mr. Johnson, 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Cook, with over 100 million iPhone users in the United 
States alone, and with Apple's ownership of the App Store 
giving Apple the ability to control which apps are allowed to 
be marketed to Apple users, you wield immense power over small 
businesses to grow and prosper.
    Apple is the sole decisionmaker as to whether an app is 
made available to app users through Apple's App Store. Isn't 
that correct?
    Mr. Cook. Sir, the App Store--thank you for the questions. 
The App Store is a feature of the iPhone much like the camera 
is and the chip is, and so what the----
    Mr. Johnson. Yeah. My point is--and I'm sorry to interrupt, 
but I want to get to the point. The point is that Apple is the 
sole decisionmaker as to whether an app is made available to 
app users through the Apple store. Isn't that correct?
    Mr. Cook. If it's a native app, yes, sir. If it's a web 
app, no.
    Mr. Johnson. All right. Okay. Thank you. Thank you. And 
throughout our investigation, we've heard concerns that rules 
governing the App Store review process are not available to the 
app developers. The rules are made up as you go. They are 
arbitrarily interpreted and enforced and are subject to change 
whenever Apple sees fit to change them. And developers have no 
choice but to go along with the changes or, more, they must 
leave the App Store. That is an enormous amount of power.
    Also, the rules get changed to benefit Apple at the expense 
of app developers, and the App Store is said to also 
discriminate between app developers with similar apps on the 
Apple platform and also against small app developers versus 
large app developers. So, Mr. Cook, does Apple not treat all 
app developers equally?
    Mr. Cook. Sir, we treat every developer the same. We have 
open and transparent rules. It's a rigorous process. Because we 
care so deeply about privacy and security and quality, we do 
look at every app before it goes on. But those apps--those 
rules apply evenly to everyone. And as you can tell by going 
from----
    Mr. Johnson. Some developers are favored over others 
though. Isn't that correct?
    Mr. Cook. That is not correct. And as you can tell from 
going from just 500----
    Mr. Johnson. Sir, I'll give you example. Baidu has two App 
Store employees assigned to help it navigate the App Store 
bureaucracy. Is that true?
    Mr. Cook. I don't know about that, sir.
    Mr. Johnson. Well, you don't have other app developers who 
have that same access to Apple personnel, do you?
    Mr. Cook. We do a lot of things with developers including 
looking at their beta test apps regardless of whether they're 
small or large.
    Mr. Johnson. Okay. Well, let me ask you this question: 
Apple has negotiated exceptions to its typical 30 percent 
commission for some apps like Amazon Prime. Is that--is a 
reduced commission such as the one that Amazon Prime gets 
available to other app developers?
    Mr. Cook. It's available to anyone meeting the conditions, 
yes.
    Mr. Johnson. Okay. Well, let me ask you this: Apple 
requires all app developers to use Apple's payment processing 
system if those developers want to sell their goods or services 
to Apple users through Apple's App Store. Isn't that correct?
    Mr. Cook. That is correct because it's----
    Mr. Johnson. And by processing payments for apps that you 
allow into the App Store, you collect their customer data and 
you use that data to inform Apple as to whether Apple should--
whether or not it would be profitable for Apple to launch a 
competing app. Isn't that correct?
    Mr. Cook. Sir, 84 percent of the apps are charged nothing. 
The remaining 16 percent either pay 15 or 30 depending upon the 
specifics. If it's in the second year of a subscription, as an 
example, it only pays 15 percent. If you look back at history--
--
    Mr. Johnson. Well, what's to stop Apple from increasing its 
commission to 50 percent?
    Mr. Cook. Sir, we have never increased commissions in the 
store since the first day it operated in 2008.
    Mr. Johnson. There's nothing to stop you from doing so, is 
there?
    Mr. Cook. No, sir, I disagree strongly with that. There's a 
competition for developers just like there's a competition for 
customers, and so the competition for developers, they write 
their apps for Android or Windows or Xbox or PlayStation.
    So we have fierce competition at the developer side and the 
customer side, which is essentially--it's so competitive I 
would describe it as a street fight for market share in the 
smart phone business.
    Mr. Johnson. Has Apple ever retaliated against or 
disadvantaged a developer who went public about their 
frustrations with the App Store?
    Mr. Cook. Sir, we don't--we do not retaliate or bully 
people. It's strongly against our company culture.
    Mr. Cicilline. The time of the gentleman has expired.
    The chair now recognizes the gentleman from Florida, Mr. 
Gaetz.
    Mr. Gaetz. Mr. Zuckerberg in his written testimony made the 
claim that Facebook is an American company with American 
values. Do any of the rest of you take a different view, that 
is to say that your companies don't embrace American values? 
It's great to see that none of you do.
    Mr. Pichai, I'm worried about Google's market power, how it 
concentrates that power, and then ultimately how it wields it. 
Project Maven was a collaboration between Google and the 
Department of Defense that Google pulled out of, citing ethical 
concerns, and you made the decision to pull out of that joint 
venture following receipt of a letter from thousands of your 
employees saying that Google should not be in the business of 
war.
    My question, Mr. Pichai is, did you weigh the input from 
your employees when making the decision to abandon that project 
with the United States military?
    Mr. Pichai. Congressman, thanks for your concern. As I said 
earlier, we are deeply committed to supporting the military and 
the U.S. Government. We have undertaken several projects since 
then. We do take our employees' input into account, but it's 
one input. We make decisions based on a variety of factors. As 
a company, we were new in the cloud space at that time. Since 
then we have----
    Mr. Gaetz. Thank you. That is a sufficient answer, that you 
did take their feedback into account. And, in fact, some of 
your Googlers have recently sent you a letter where they've 
asked you to exit other partnerships as a consequence of 
ethical concerns.
    They've asked you to stop doing business with American law 
enforcement, saying that police broadly uphold white supremacy 
and that Google should not be engaged in any services to 
police. And as you well know, you provide some of the most 
basic services to police, like email, but you also provide 
services that help keep our cops safe when they're doing their 
job.
    And so my question is here, in front of Congress and the 
American people, will you take the pledge that Google will not 
adopt the bigoted antipolice policy that is requested in the 
most recent letter?
    Mr. Pichai. Congressman, we have a long track record of 
working with law enforcement when it is supported by due 
process and the law. We push back against over broad requests. 
We are transparent about the requests we get. But we have a 
long history of following the law and cooperating with law 
enforcement.
    Mr. Gaetz. I understand the history. I'm asking about the 
future. To the law enforcement that are watching today, can 
they rest assured that, under your leadership, Google will not 
adopt these bigoted antipolice policies?
    Mr. Pichai. Congressman, we have committed to continuing to 
work with law enforcement in a way that's consistent with law 
and due processes in the U.S.
    Mr. Gaetz. Well, I greatly appreciate that, and I know that 
will be very comforting to the police who utilize your 
services.
    You mentioned earlier in the discussion about China that 
your engagement in China was very limited. But yet Google has 
an AI China center. The Chinese Academy of Sciences has 
published a paper that enhanced the targeting capabilities of 
China's J-20 fighter aircraft.
    You collaborate with Chinese universities that take 
millions upon millions of dollars from the Chinese military. As 
a matter of fact, one of your Googlers, Fei-Fei Li, while under 
your employ, was cited in Chinese state media saying, ``China 
is like a sleeping giant; when she wakes, she will tremble the 
world.''
    The former Secretary of Defense, Mr. Shanahan, said that 
the lines have been blurred in China between commercial and 
military application. And as Mr. Buck cited, General Dunford 
says that your company is directly aiding the Chinese military. 
And Peter Thiel, who actually serves on Mr. Zuckerberg's board 
at Facebook, said that Google's activities with China are 
treasonous. He accused you of treason.
    So why would an American company with American values so 
directly aid the Chinese military but have ethical concerns 
about working alongside the U.S. military on Project Maven? And 
I understand your point about cybersecurity and those things, 
but Project Maven was a specific way to ensure that our troops 
are safe on the battlefield. And if you have no problem making 
the J-20 Chinese fighter more effective in its targeting, why 
wouldn't you want to make America as effective?
    Mr. Pichai. Congressman, with respect, we are not working 
with the Chinese military. It's absolutely false. I had a 
chance to meet with General Dunford personally. We have 
clarified what we do in China compared to our peers. It's very, 
very limited in nature. Our AI work in China is limited to a 
handful of people working on open-source projects. I'm happy to 
share and engage with your office to explain our work in China 
further.
    Mr. Gaetz. Gosh, I mean, when the Chairman of the Joint 
Chiefs of Staff says that an American company is directly 
aiding China, when you have an AI center, when you're working 
with universities, and when your employees are talking about 
China trembling the world, it seems to really call into 
question your commitment to our country and our values.
    I see my time is expired. I hope we have an additional 
round, Mr. Chairman.
    Mr. Cicilline. I thank the gentleman.
    I now recognize the gentleman from Maryland, Mr. Raskin, 
for 5 minutes.
    Mr. Raskin. Thank you, Mr. Chairman.
    Mr. Zuckerberg, as you know, the proliferation of fake 
Facebook accounts was a key tool in the strategy of Russian 
interference in the American election in 2016. American law 
enforcement, the Senate, the House, have all found that 
Vladimir Putin engaged in a sweeping and systematic campaign to 
undermine American democracy in 2016 and to work for a victory 
for Donald Trump.
    In his remarkable book ``Mind'' blank--and I'm being polite 
here--``Cambridge Analytica and the Plot to Break America,'' 
whistleblower Christopher Wylie, who worked for several years 
at Cambridge Analytica recounts how the Russian assault on 
America in Cambridge Analytica's research depended on Facebook, 
quote: ``When Cambridge Analytica launched in the summer of 
2014, Steve Bannon's goal was to change politics by changing 
culture. Facebook's data, algorithms, and narratives were his 
key weapons. The Cambridge Analytica team used these tools to 
identify people who exhibited the three traits in what they 
called the dark triad: narcissism, Machiavellianism, and 
psychopathy.
    They then proceeded to bombard and activate these people, a 
small percentage of the American public, but still millions of 
people with increasingly dark and manipulative messages from 
fake Facebook pages, both to get them to vote for Trump but, 
more importantly, to activate them as racist and white 
nationalists.''
    And they go on to describe--he goes on to describe the 
remarkable success of this campaign, both electorally but also 
politically in the country in terms of sowing the terrible 
racial and ethnic divisions that you see in America today. So 
they waged a mass campaign of psychological warfare to polarize 
America around race and religion and to activate racists and 
anti-Semites. And it worked splendidly for them, but it didn't 
work so well for America.
    So, Mr. Zuckerberg, which parts of this narrative have you 
addressed or are you planning to address, or do you just see 
that essentially as the cost of being a forum in a marketplace 
for ideas? Is there nothing that can be done about the use of 
Facebook to engender social division in America?
    Mr. Zuckerberg. Congressman, thank you.
    Since 2016, there have been a lot of steps that we've taken 
to protect the integrity of elections. We've hired, I think 
it's more than 30,000 people to work on safety and security. 
We've built up AI systems to be able to find harmful content, 
including being able to find more than 50 different networks of 
coordinated and authentic behavior, basically nation-states 
trying to interfere in elections around the globe, not just----
    Mr. Raskin. Let me just pause you there for a second 
because I'm interested in that. The Stop Hate for Profit 
campaign is a coalition that includes the Color of Change, the 
Anti-Defamation League and other civil rights groups, and 
they're targeting Facebook right now for a boycott because of 
the rapid spread of hate messages online, the presence of 
boogaloo and other right-wing extremist groups trying to 
infiltrate and disrupt Black Lives Matter protests and the fact 
that alt-right racist and anti-Semitic content flourishes on 
Facebook. So they're asking you to remove these pages and 
essentially to join the movement for civil rights by not 
allowing that kind of content. Their boycotters include a lot 
of big companies, including Patagonia, Levi's, McDonalds, VW, 
Heineken, and so on. But you seem not to be that moved by their 
campaign, and I just wonder what you think about what they're 
asking you to do?
    Mr. Zuckerberg. Congressman, thanks. We're very focused on 
fighting against election interference, and we're also very 
focused on fighting against hate speech. And our commitment to 
those issues in fighting them go back years before this recent 
movement.
    Since 2016, the defenses that the company has built up to 
help secure elections, not just in the U.S. but around the 
world, I think are some of the most advanced that any company 
or government has in the world now. We routinely now 
collaborate with law enforcement and intelligence agencies and 
are able to sometimes identify threats coming from other 
countries before governments are even able to.
    In terms of fighting hate, we've built really sophisticated 
systems. Our goal is to identify it before anyone even sees it 
on the platform. And we've built AI systems, and as I 
mentioned, have tens of thousands of people working on safety 
and security with the goal of getting this stuff down so that 
way--before people even see it.
    And, right now, we're able to proactively identify 89 
percent of the hate speech that we take down before I think 
it's even reported by other people. So I want to do better than 
89 percent. I'd like to get that to 99 percent. But we have a 
massive investment here. We invest in billions of dollars----
    Mr. Raskin. Because my time is almost out, can you just 
address the proliferation of fake accounts? I understand 
annually you get 6.5 billion fake accounts produced there, but 
in some sense, you have a profit motive that's linked to that 
because that's what's reported to your investors, the number of 
accounts. Are you working zealously to try to ferret out these 
fake accounts that are used to spread hate and disinformation?
    Mr. Cicilline. The gentleman's time has expired, but the 
witness may answer the question.
    Mr. Zuckerberg. Congressman, absolutely. We work hard on 
this. We take down billions of fake accounts a year. A lot of 
that is just people trying to set up accounts to scam people 
for commercial reasons. A very small percent of that are 
nation-states trying to interfere in elections, but we are very 
focused on trying to find those.
    Having fake and harmful content on our platform does not 
help our business. It hurts our business. People do not want to 
see that stuff, and they use our services less when they do. So 
we are aligned with people in order to take that down, and we 
invest billions of dollars a year in doing so.
    Mr. Raskin. I yield back. Thank you.
    Mr. Cicilline. The committee will stand in recess for 10 
minutes while we fix a technical feed with one of our 
witnesses.
    [Recess.]
    Mr. Cicilline. The committee will come back to order.
    I now recognize the gentleman from North Dakota, Mr. 
Armstrong, for 5 minutes.
    Mr. Armstrong. Google has received criticism about bias 
against conservatives and content moderation. There were 
threats of demonetizing the Federalist and numerous other 
complaints of viewpoint suppression. As a result, a significant 
portion of the American public has lost trust in your company.
    A lack of public confidence in a product usually means 
there is economic harm to the company, but that just isn't the 
case with Google. So I think it's a legitimate question as to 
whether Google's market power insulates it from loss of revenue 
normally associated with offending half the people who use your 
product. I also think it's a legitimate question to ask if 
other attempts to regulate your industries have worked.
    So, Mr. Pichai, Google has restricted advertising analytics 
or the portability of user data related to advertising due to 
compliance with the General Data Protection Regulation. 
Specifically, in 2018, Google restricted the ability to export 
the Double ID, a cookie-based identifier that compiles 
individual user data and creates profiles through Google data 
transfer. Is that correct?
    Mr. Pichai. Congressman, I'm not familiar with the 
specifics of the particular issue, but happy to follow up more 
once I understand it better.
    Mr. Armstrong. So you're not particularly familiar with how 
you're complying with GDPR?
    Mr. Pichai. Congressman, we have long been working to 
comply with GDPR. We think it's an important regulation, and, 
you know, we have--we are in full compliance, to the extent of 
my knowledge. I just meant not aware of the specific issue with 
the identifier you mentioned there, but happy to understand it 
better and follow up.
    Mr. Armstrong. All right. So, in order to comply with GDPR, 
Google must retain control over more user data and restrict the 
ability to combine this user data with other platforms to 
conduct cross-platform analysis. It seems as if that ultimately 
limits the ability of advertisers to make comparisons between 
Google-based campaigns and non-Google-based campaigns. Would 
you agree with that?
    Mr. Pichai. In all these ecosystems, we are balancing 
between users, advertisers, and publishers. We deeply care 
about the privacy and security of our users, and so, when we 
serve these ecosystems, we have to take that into account. We 
have to comply with important laws and regulations in every 
country we operate in. And so that's the delicate balance we 
are constantly striking, but we are focused on our users and 
trying to do the best we can.
    Mr. Armstrong. And I just want to be perfectly clear, I 
personally believe that just the market power consolidation is 
significant, but I also want to be clear that when we're moving 
forward to regulate this, that we aren't actually squeezing out 
competition in our quest to do something, because I've said 
that before in this hearing and I'll say it again: Usually in 
our quest to regulate big companies, we end up hurting small 
companies more.
    And I'm a strong privacy advocate, but the consequences of 
GDPR have been to further entrench large established actors 
like Google, leading to regulatory capture that exasperates 
competition concerns. And Google's digital ad market share has 
increased since the implementation of GDPR. Do you know that to 
be correct?
    Mr. Pichai. Congressman, to just give you a sense of the 
robust competition we see, ad prices have fallen down by 40 
percent in the past 10 years. And, in fact, in the U.S., 
advertising as a share of GDP has come down from 1.4 percent in 
1992, less than 1 percent today.
    So we see robust competition in the marketplace. And as I 
said earlier, you know, we have to comply with regulation, we 
have to interpret it strictly, and we have to balance the 
ecosystem. But our utmost care is ensuring privacy and security 
of our users as we serve these markets.
    Mr. Armstrong. And I'm glad you mentioned privacy, because 
I would be remiss if I didn't deal with this issue, because it 
is so relevant. And I think, generally speaking, outside of the 
political issues and the biases with all of this, and this is 
for essentially all four of our witnesses, I think one of our 
bigger concerns when we talk about data and value--and that 
data having value, and privacy, which is where people really 
get concerned with how the digital age is moving forward.
    And there are news reports that law enforcement has made 
increasing use of what are called geo-fence warrants, and these 
geo-fence warrants allow authorities to compel technology 
companies to disclose location records for any device in a 
certain area at a particular time. Court filings suggest that 
Google received about 1,500-percent increase in geo-fence 
requests from 2017 to 2018 and a 500-percent increase from 2018 
to 2019.
    Unless--and so the Fourth Amendment requires probable cause 
and specificity, and that's not what these are. These warrants 
are essentially for any person in an area at a particular time, 
and geo-fence warrants require neither. So, unless a company by 
particularized information and identifying a subject, geo-
warrants are essentially general warrants.
    I believe that location information should be considered as 
a contents of the Electronic Communications Act under the 
historic Communications Act. Do you agree?
    Mr. Pichai. You know, happy to understand more. We deeply 
care about--this is why we issue transparency reports because 
we think it's an important area for Congress to have oversight. 
And we recently made a change by which we automatically delete 
location activity after a certain period of time by default for 
our users. So we are happy to engage with your office, 
Congressman, and engage more.
    Mr. Armstrong. And I'm using you because these are going on 
in Virginia and New York, I think, right now, but, I mean, this 
equates for everything. I think people would be terrified to 
know that law enforcement could grab general warrants and get 
everybody's information anyway. So it requires Congress to act, 
and it requires everybody that is a witness in this hearing to 
be willing to work too because it is the single most important 
issue I think we are going to----
    Mr. Cicilline. The time of the gentleman is expired, but I 
believe he has a unanimous consent request.
    Mr. Armstrong. I do. I have a unanimous consent request for 
Wall Street Journal article, ``Police Requests for Google 
Users' Location Histories Face New Scrutiny.''
    Mr. Cicilline. Without objection.
      

  MR. ARMSTRONG FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Armstrong. And then I have two letters, the letters are 
from Congressman Walden and Congresswoman McMorris Rodgers. The 
first letter is to Mr. Cook of Apple. The second letter is to 
Mr. Pichai of Google.
    Mr. Cicilline. Without objection, both may be entered into 
the record.
    [The information follows:]
      

  MR. ARMSTRONG FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Cicilline. I now recognize the gentlelady from 
Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    And thank you all for being with us.
    Mr. Bezos, in July 2019, your employee Nate Sutton told me 
under oath in this committee that Amazon does not, quote, ``use 
any specific seller data when creating its own private brand 
product.'' So let me ask you, Mr. Bezos, does Amazon ever 
access and use third-party seller data when making business 
decisions? And just a yes or no will suffice, sir.
    Mr. Bezos. Thank you for the question. I know it's an 
important topic, and I also want to thank you for representing 
us. I can't answer that question yes or no. What I can tell you 
is we have a policy against using seller-specific data to aid 
our private label business, but I can't guarantee you that that 
policy has never been violated.
    Ms. Jayapal. Mr. Bezos, you're probably aware that an April 
2020 report in The Wall Street Journal revealed that your 
company does access data on third-party sellers both by 
reviewing data on popular individual sellers and products and 
by creating tiny product categories that allowed your company 
to categorically access detailed seller information in a 
supposedly aggregate category. Do you deny that report?
    Mr. Bezos. I'm familiar with The Wall Street Journal 
article that you're talking about, and we continue to look into 
that very carefully. I'm not yet satisfied that we've gotten to 
the bottom of it, and we're going to keep looking at it. It's 
not as easy to do as you would think because some of the 
sources in the article are anonymous, but we continue to look 
into it.
    Ms. Jayapal. I'll take that as you're not denying that; 
you're looking into it. I will tell you, a former Amazon 
employee in third-party sales and recruitment told this 
committee, quote, ``There's a rule, but there's nobody 
enforcing or spot checking. They just say, don't help yourself 
to the data. It's a candy shop. Everyone can have access to 
anything they want.''
    Do category managers have access to nonpublic data about 
third-party products and businesses?
    Mr. Bezos. Here's what I can tell you. We do have certain 
safeguards in place. We train people on the policy. We expect 
people to follow that policy the same way we would any other. 
It's a voluntary policy. As far as I'm aware, no other retailer 
lists their----
    Ms. Jayapal. So there's no----
    Mr. Bezos [continuing]. User data at all. And then I think 
we have----
    Ms. Jayapal. So there's no actual enforcement of that 
policy?
    Mr. Bezos. Oh, no, I was going to say----
    Ms. Jayapal. So it's voluntary, and there's no actual 
enforcement, so maybe that answers my----
    Mr. Bezos. Sorry. No, I think I may have misspoke. I'm 
trying to say that Amazon's--the fact that we have such a 
policy is voluntary. I think no other retailer even has such a 
policy.
    Ms. Jayapal. Well, that's----
    Mr. Bezos. Our enforcement of that policy, we would treat 
that like any internal policy, and if we found that someone 
violated it, we would take action against them. I recognize 
this----
    Ms. Jayapal. Well, there's numerous reports and the 
committee has conducted interviews with former employees who 
confirm that there are employees who do have access to that 
data and are using it. And so my next question was going to be, 
if you thought you were actually enforcing these rules, do you 
think that it's working?
    And, again, I would just say that there's credible 
reporting that's documented breaches of these rules that you 
have put into place. And the committee has interviewed 
employees that typically--say that these breaches typically 
occur.
    Let's talk about aggregate data for a minute. Your rules do 
allow for you to access combined data on a product when there 
are only one or two sellers in the marketplace, correct?
    Mr. Bezos. Yes, aggregate data is allowed under our 
policies; that is correct.
    Ms. Jayapal. Okay. And interviews with former employees 
have made it clear that that aggregate data essentially allows 
access to highly detailed data in those product categories. 
There's the example of Fortem, a small business that had no 
direct competitors except for Amazon Warehouse Deals, a resale 
clearance account that only sold 17 units.
    An Amazon employee accessed a detailed sales report on 
Fortem's product with information on how much the company spent 
on advertising per unit and the cost to ship each trunk. And 
then Amazon launched its own competing products in October 
2019.
    That's a major loophole. And I go back to the general 
counsel's statement to this committee very clearly that there 
was no access to this data, that Amazon does not use that data 
for its own benefit. And I'm now hearing you say, well, you're 
not so sure that that's going on.
    And the issue that we're concerned with here is very 
simple. You have access to data that far exceeds the sellers on 
your platforms with whom you compete. You can track consumer 
habits, interests, even what consumers clicked on but then 
didn't buy.
    You have access to the entirety of sellers' pricing and 
inventory information, past, present, and future, and you 
dictate the participation of third-party sellers on your 
platform. So you can set the rules of the game for your 
competitors but not actually follow those same rules for 
yourself. Do you think that's fair to the mom-and-pop third-
party businesses who are trying to sell on your platform?
    Mr. Bezos. I appreciate that question, and I like it a lot 
because I really wanted a chance to address that. I'm very 
proud of what we have done for third-party sellers on this 
platform. We started our third-party platform 20 years ago, and 
we had zero sellers on it.
    Ms. Jayapal. The question I'm asking----
    Mr. Bezos [continuing]. eBay I'm sorry. Go ahead.
    Ms. Jayapal. I'm so sorry. My time is expiring. And the 
question I wanted to ask you is that you have access to data 
that your competitors do not have. So you might allow third-
party sellers onto your platform, but if you're continuously 
monitoring the data to make sure that they're never going to 
get big enough that they can compete with you, that is actually 
the concern that the committee has.
    And, you know, I think your company started in my district. 
I want to thank you for that. I want to thank you for the work 
that you've done and say that the whole goal of this 
committee's work is to make sure that there are more Amazons, 
that there are more Apples, that there are more companies that 
get to innovate and small businesses that get to thrive, and 
that is what we're trying to get at. That is why we need to 
regulate these marketplaces so that no company has a platform 
so dominant that it is essentially a monopoly.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cicilline. The time of the gentlelady has expired.
    I just want to remind the witnesses, we appreciate the 
gratitude for the questions and your description of them as 
good questions, but we'll just assume that they're good 
questions and you're happy to answer them so we can make sure 
we're making good use of your time.
    And, with that, I recognize the gentleman from Florida, Mr. 
Steube.
    Mr. Steube. Thank you, Mr. Chairman.
    Mr. Pichai, I would like to start with you, and I'm just 
going to illustrate my question with a factual incident that 
actually occurred to me. Several months ago my wife called and 
said, ``Hey, there's a good article on The Gateway Pundit that 
you should read.''
    So out of curiosity--I was up here in Washington. Out of 
curiosity, I Googled Gateway Pundit. And it didn't show up on 
the first page, and it didn't show up on the second page. There 
was a bunch of different blogging sites about how there were 
disagreements with what was on The Gateway Pundit.
    But I actually had to type in GatewayPundit.com to get to 
it. Interestingly, Google didn't allow me to get to the actual 
website. That was a couple months ago. Before this hearing was 
set to be heard, before this hearing was noticed, before you 
knew that you would be appearing before us today and that this 
is an issue that obviously conservatives and Republicans have 
had.
    Last week, after this was noticed, this hearing was 
noticed, I did the exact same thing here in the Capitol. And 
wouldn't you know it, I Googled Gateway Pundit, and that was 
the very first website that came up.
    Now, this isn't from a constituent in my district. This 
isn't from somebody telling me, this isn't a news report. I 
actually physically did this on my laptop here in the Capitol 
several months ago and then today. So, clearly, something had 
happened between not being notified that you were going to be 
appearing before our committee and then, last week, knowing 
that you would be appearing before our committee and suddenly 
conservative websites are now at the top of the bar when you 
search for them.
    So was there anything done at Google between a couple of 
months ago and last week or the week before you appearing today 
that has changed your approach to silencing conservative 
websites?
    Mr. Pichai. Congressman, we approach our work with a deep 
sense of responsibility without--in a nonpartisan way. We want 
to serve all our users, no matter where they are. In fact, it's 
in our long-term business incentive to do so. And I believe on 
our platforms, including YouTube, there are more conservative 
voices than ever before, and we believe in freedom of 
expression.
    On the specific issue, you know, I will have to look into 
it. You know, I obviously wasn't aware of it. We do--it could 
be a number of reasons. We constantly get reports from both 
sides of the aisle----
    Mr. Steube. So, if you're going to look into it for me, is 
there--can I expect a response from you say in the next 2 weeks 
as to why that occurred?
    Mr. Pichai. Congressman, we'll do our best to follow up, 
and I'll engage with your office to respond on that
    Mr. Steube. Okay. We'll follow up on that. I've got a 
similar question. So I've been in elected politics for almost 
10 years, and when I was in the Florida Senate and the State 
Senate, I never had a problem with my campaign emails being 
marked as spam or going to junk folders or anything along those 
lines. And we had 30,000, 40,000, 50,000 people on our email 
list.
    And suddenly I get elected to Congress and I'm now up here 
in Washington, D.C., and my parents who have a Gmail account 
aren't getting my campaign emails. My supporters, just last 
week, one of my supporters called me and said, ``Hey, I just 
want you to know this, that my Gmail account suddenly is taking 
your campaign emails that I've received for almost 10 years and 
suddenly they're going to spam and junk folders.'' This appears 
to only be happening to conservative Republicans.
    I don't see anything in the news or anything in the press 
or other Members on the other side of the aisle talking about 
their campaign emails getting thrown into junk folders in 
Gmail. So my question is, is why is this only happening to 
Republicans? And it's a fact it's happening, because I can have 
my supporters testify that they've received my emails for 8 
years, 8, 9 years, and suddenly this last year all of their 
Gmail--my campaign emails in their Gmail are going to their 
spam folder. So, if you could give me some clarification on 
that, I would appreciate it.
    Mr. Pichai. In Gmail, we are focused on what users want, 
and users have indicated they want us to organize their 
personal emails, emails they receive from friends and family, 
separately. And so all we have done is we have a tabbed 
organization, and, you know, the primary tab has emails from 
friends and family and the secondary tab has other 
notifications and so on. These things are applied----
    Mr. Steube. Okay. Well, it was my father who is not 
receiving now my campaign emails, so clearly that familial 
thing that you're talking about didn't apply to my emails.
    Mr. Pichai. Our systems probably are not able to understand 
that your campaign--I mean that it's your father. Obviously, we 
don't have that context there. We just apply it neutrally 
across, you know, all organizations and, you know----
    Mr. Steube. Well, what assurances can you give me that 
there's--my time is short. One last question. What assurances 
can you give me that any bias amongst your employees isn't 
influencing your spam folder algorithms?
    Mr. Pichai. Congressman, there's nothing in the algorithm 
which has anything to do with political ideology, and, you 
know, we do get complaints across the aisle. For example, the 
World Socialist Review complained in January of this year that, 
you know, their site wasn't found in Google Search results.
    And so we get complaints. We look into it, but, you know, 
we approach our work in a nonpartisan way, and it's in our 
long-term incentive to serve users across the country. And 
today that's why we invest in our raters in 49 States across 
the U.S. so that we can capture all viewpoints.
    Mr. Cicilline. Thank you. The gentleman's time is expired.
    I now recognize the gentlelady from Florida, Mrs. Demings, 
for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And let me just say just for the record: I'm a Democrat 
from Florida, and I've had--heard complaints about my emails 
going into spam as well. And I'm sure other Democratic Members 
have had the same experiences, unfortunately.
    Mr. Pichai, in 2007 Google purchased DoubleClick, the 
leading provider of certain advertising tools. Is that correct?
    Mr. Pichai. That is correct, Congresswoman.
    Mrs. Demings. When Google proposed the merger alarm bells 
were raised about the access to data Google would have, 
specifically the ability to connect users' personal identity 
with their browsing activity. Google, however, committed to 
Congress and to the antitrust enforcers that the deal would not 
reduce user privacy.
    Google's chief legal adviser testified before the Senate 
Antitrust Subcommittee that Google wouldn't be able to merge 
this data even if it wanted to, given contractual restrictions. 
But in June of 2016, Google went ahead and merged its data 
anyway, effectively destroying anonymity on the internet.
    Mr. Pichai, you became CEO of Google in 2015. Is that 
correct?
    Mr. Pichai. That's right.
    Mrs. Demings. Okay. And this change was made in 2016. Is 
that correct?
    Mr. Pichai. That's my understanding.
    Mrs. Demings. Okay. Thank you for that. Did you sign off on 
this decision to combine the sets of data with--that Google had 
told Congress would be kept separate?
    Mr. Pichai. Congresswoman, any changes we made, you know, 
we complied----
    Mrs. Demings. Mr. Pichai, with all due respect, please, did 
you sign off on the decision or not?
    Mr. Pichai. I review at a high level all important 
decisions we make. We deeply care about privacy and security of 
our users, and we----
    NEW LINE: [continuing]. And we provide user consent for----
    Mrs. Demings. So you signed off on the decision?
    Okay. You signed off on the decision.
    Practically, this decision meant that your company would 
not combine all of--would now combine, for example, all of my 
data on Google, my search history, my location from Google 
Maps, information from my emails, from Gmail, as well as my 
personal identity with the record of almost all of the websites 
I visited. That is absolutely staggering.
    According to an email from a DoubleClick executive, that 
was exactly the type of reduction in user privacy that Google's 
founders had previously worried would lead to a backlash. And I 
quote, they were unwavering on the policy due to philosophical 
reasons, which is Larry and Sergey's fundamentally not wanting 
users associated with a cross-site cookie. They were also 
worried about a privacy storm as well as damage to Google's 
brand. So, in 2007, Google's founders feared making this change 
because they knew it would upset their users, but in 2016, 
Google didn't seem to care.
    Mr. Pichai, isn't it true that what changed between 2007 
and 2016 is that Google gained enormous market power. So. While 
Google had to care about user privacy in 2007, it no longer had 
to in 2016? Would you agree that what changed was Google gained 
enormous market power?
    Mr. Pichai. Congresswoman, this is an important issue, if I 
could explain. You know, we today make it very easy for users 
to be in control of their data. We have simplified their 
settings. They can turn ad personalization on or off. We have 
combined most of activity settings into three groupings. We 
remind users to go do a privacy checkup. 1 billion users have 
done so, and 20 million people do it----
    Mrs. Demings. Okay, Mr. Pichai, thank you so much for that. 
I am concerned that Google's bait and switch with DoubleClick 
is part of a broader pattern where Google buys up companies for 
the purposes of surveilling Americans, and because of Google's 
dominance users have no choice but to surrender.
    In 2019, Google made over 80 percent of its total revenue 
through selling of ad placement. Is that correct, Mr. Pichai?
    Mr. Pichai. You know, a majority of the business----
    Mrs. Demings. About 80 percent? Yeah, okay.
    And because Google sells behavioral ads, ads targeted to 
each of us as individuals, the more user data that Google 
collects, the more money Google can make. More user data means 
more money. Is that correct?
    Mr. Pichai. In general, that's not true. For example 
there's common sites, when you type----
    Mrs. Demings. More user data, not the more money Google 
collects?
    Mr. Pichai. Most of the data we need is built into the----
    I'm sorry, please. So you're saying that the more user data 
does not mean the more money that Google can collect?
    Mr. Pichai. Congresswoman, most of the data today we 
collect is to help users and provide personal experiences back. 
Ad data is not relevant at that time at all----
    Mrs. Demings. Okay. Thank you so much, Mr. Pichai.
    Mr. Chairman, I yield back.
    Mr. Cicilline. I thank the gentlelady.
    The chair now recognizes the ranking member of the full 
committee, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Pichai, is Google going to tailor its features to help 
Joe Biden win the 2020 election?
    Mr. Pichai. Congressman, we approach our work--you know, we 
support both campaigns today. We think political ads is an 
important part of free speech in democratic societies, and we 
engage with campaigns, you know, according to law, and we 
approach our work in a nonpartisan way.
    Mr. Jordan. It was a yes or no question. Can you assure 
Americans today you won't tailor your features to help Joe 
Biden in the upcoming election?
    Mr. Pichai. You know, we support work that campaigns do. I 
just want to make sure I am answering that clearly.
    Mr. Jordan. We understand that. We all do all kinds of 
online social media, all kinds of that kind of--that outreach, 
that communication. This is a simple question: Can you today 
assure Americans you will not tailor your features in any way 
to help--specifically help one candidate over another? And what 
I'm concerned about is you helping Joe Biden over President 
Trump.
    Mr. Pichai. We won't do any work, you know, to politically 
tilt anything one way or another. It's against our core values, 
Congressman.
    Mr. Jordan. But you did it in 2016. There's an email in 
2016 that was widely circulated amongst the executives at your 
company that got public where Ms. Eliana Murillo, head of your 
multicultural marketing, talks about the silent donation Google 
made to the Clinton campaign, and you applauded her work. She 
points that out in the email.
    I'm just curious, if you did it in 2016, I want to make--
and, you know, in spite of the fact you did it in 2016 
President Trump won, I just want to make sure you're not going 
to do it again in 2020?
    Mr. Pichai. Congressman, I recall our conversation at that 
time, and I appreciate your concern. We didn't find any 
evidence of such activity, and I took the opportunity after our 
conversation to reinforce to the company--we realize even an 
appearance could be improper, so we have clearly communicated 
to our employees any personal political activity, while it's 
their right, needs to happen on their own time and resources 
and should avoid any use of company time.
    Mr. Jordan. Well, of course, everyone has got their First 
Amendment rights to campaign for who they want. What they can't 
do is configure your features to help one candidate over the 
other. So you might not have found any evidence, but here's 
what she wrote to the email to a number of key executives in 
your company, quote, ``We push to get out the Latino vote with 
our features.'' Second quote, ``We push to get out the Latino 
vote with our features in key states.''
    It seems to me those last three words are the real 
qualifier here. That is electioneering when you're trying to 
increase the Latino vote in key states. And she'd already 
communicated that she was supporting Clinton, that she wanted 
Clinton to win.
    So, when she talks about increasing the Latino vote, which 
she assumes is going to help candidate Clinton, and she's doing 
that in key states--it's one thing if you're going to increase 
the Latino vote around the country. If you're just a good, 
corporate citizen, you're urging people to vote. It's quite 
another when you're focusing on in key states. And you know 
what those key states were? Nevada and Florida, the swing 
states. So, again, I want to make sure this isn't going to 
happen in 2020.
    Mr. Pichai. I can assure you that we complied with laws in 
2016. As a company, any work we do around elections is 
nonpartisan. Users do come to us for understanding where 
polling places are, where to vote, which is the date to vote, 
what the voting hours are. We have committed to providing that 
information, and I can assure you that we'll approach our work 
in a nonpartisan----
    Mr. Jordan. So, Mr. Pichai, here's the question I think's 
on so many Americans' minds. They saw the list that we read 
here earlier on in our opening statements, all the things 
Google has done. Google is siding with the World Health 
Organization over anyone who disagrees with them, even though 
the World Health Organization obviously lied to America, 
obviously shills for China. Google's siding with them; YouTube 
is siding with them.
    We have the history of all the things Google has done and 
the history of what happened in 2016 in the election, where 
they obviously, according to one--your multicultural marketing 
executive tried to help Clinton. And here we are, 97 days 
before the election, and we want to make sure it's not going to 
happen again.
    Can you give us two assurances: one, you're not going to 
try to tailor your features, configure your platform in a way 
to help Joe Biden; and, second, that you're not going to use 
your search engine to silence conservatives? Can you give us 
those two assurances today?
    Mr. Pichai. Congressman, on our search engine, 
conservatives have more access to information than ever 
before----
    Mr. Jordan. And we appreciate that. That wasn't the 
question. Can you assure us today you're not going to try to 
silence conservatives? And can you assure us today you're not 
going to try to configure your features, as Ms. Murillo said 
you did for Clinton in 2016--can you assure us today you're not 
going to do the same thing for Joe Biden in 2020?
    Mr. Pichai. You know, you have my commitment. It's always 
been true, and we'll continue to conduct ourselves in a neutral 
way.
    Mr. Jordan. Appreciate it.
    I yield back.
    Mr. Cicilline. The chair now recognizes the gentlelady from 
Pennsylvania, Ms. Scanlon.
    Ms. Scanlon. Thank you, gentlemen. I'd like to redirect 
your attention to antitrust law rather than fringe conspiracy 
theories.
    Mr. Bezos, our investigations----
    Mr. Jordan. Mr. Chairman, we have the email. There is no 
fringe conspiracy----
    Mr. Cicilline. Excuse me.
    Mr. Raskin. It's not your time.
    Mr. Cicilline. Mr. Jordan, you do not have the time.
    Mr. Jordan. But--but--but----
    Mr. Cicilline. Please be respectful of your colleague.
    Mr. Jordan [continuing]. When someone directly----
    Mr. Cicilline. She controls the time.
    Mr. Jordan [continuing]. Directly----
    Mr. Raskin. Put your mask on. Put your mask on.
    Mr. Jordan. Mr. Raskin----
    Mr. Cicilline. Mr. Jordan----
    Mr. Jordan [continuing]. If you want to talk about masks--
--
    Mr. Cicilline. Mr. Jordan, Ms. Scanlon holds the time.
    Mr. Jordan [continuing]. Why would the Deputy Secretary of 
the Treasury unmask Michael Flynn's name, Mr. Raskin?
    Mr. Cicilline. Ms. Scanlon----
    Mr. Jordan. And what I want to know is----
    Mr. Cicilline. Ms. Scanlon----
    Mr. Jordan. When someone comes after my motives for asking 
questions, I get a chance to respond.
    Mr. Cicilline. The gentlelady is recognized.
    Ms. Scanlon. Thank you, Mr. Chairman.
    Mr. Bezos, our investigation uncovered documents that show 
that Amazon sometimes doesn't play fairly, crossing the line 
from robust competition to predatory pricing to destroy rivals 
rather than outcompete them.
    And let's take the example of Quidsi, which used to own 
diapers.com and provided online baby care products. In 2009, 
your team viewed diapers.com as Amazon's largest and fastest 
growing online competitor for diapers. One of Amazon's top 
executives said that diapers.com keeps the pressure on pricing 
on us. And strong competition from diapers.com meant that 
Amazon was having to work harder and harder so that customers 
didn't pick diapers.com over Amazon. And the customers we're 
talking about were hard-working families, single parents with 
babies and young children.
    Now, because diapers.com was so successful, Amazon saw it 
as a threat. The documents that we've obtained show that Amazon 
employees began strategizing about ways to weaken this company, 
and, in 2010, Amazon hatched a plot to go after diapers.com and 
take it out.
    In an email that I reviewed--and we've got these up on the 
slides--one of your top executives proposed to you a, quote, 
``aggressive plan to win,'' end quote, against diapers.com, a 
plan that sought to undercut their business by temporarily 
slashing Amazon prices. We saw one of your profit-and-loss 
statements, and it appears that, in 1 month alone, Amazon was 
willing to bleed over $200 million in diaper profit losses.
    Mr. Bezos, how much money was Amazon ultimately willing to 
lose on this campaign to undermine diapers.com?
    Mr. Bezos. Thank you for the question.
    I don't know the direct answer to your question. This is 
going back in time, I think, maybe 10 or 11 years or so. You 
could give me, maybe, the dates on those documents.
    Ms. Scanlon. Okay.
    Mr. Bezos. But what I can tell you is that the idea of 
using diapers and products like that to attract new customers 
who have new families is a very traditional idea. We didn't 
invent----
    Ms. Scanlon. Sure. Well, let's delve into this----
    Mr. Bezos [continuing]. That idea. Neither did diapers.com.
    Ms. Scanlon [continuing]. A little further. I'm sorry. You 
know I only have a few minutes here, so I just----
    Mr. Bezos. Of course.
    Ms. Scanlon [continuing]. Want to press on.
    Mr. Bezos. Please.
    Ms. Scanlon. Your own documents make clear that the price 
war against diapers.com worked, and within a few months it was 
struggling, and so then Amazon bought it.
    After buying your leading competitor here, Amazon cut 
promotions, like Amazon.mom, and the steep discounts it used to 
lure customers away from diapers.com and then increased the 
prices of diapers for new moms and dads.
    Mr. Bezos, did you personally sign off on the plan to raise 
prices after Amazon eliminated its competition?
    Mr. Bezos. I don't remember that at all.
    Ms. Scanlon. Okay. Thank you.
    Mr. Bezos. What I remember is that we matched competitor 
prices, and I believe we followed diapers.com--again, this is 
11 years ago, so you're asking a lot of my memory--but I 
believe we followed diapers.com.
    I can also tell you, after we bought diapers.com----
    Ms. Scanlon. I understand that. Okay.
    Mr. Bezos [continuing]. We put more than----
    Ms. Scanlon. Just moving on----
    Mr. Bezos [continuing]. $300 million into trying----
    Ms. Scanlon. Reclaiming my time, sir. I'm----
    Mr. Bezos [continuing]. To make it successful.
    Ms. Scanlon [continuing]. Sorry.
    So you said that Amazon focuses excessively on customers. 
So how would customers, especially single moms, new families, 
how would they benefit when the prices were driven up by the 
fact that you eliminated your main competitor?
    Mr. Bezos. Well, I don't agree--with great respect, I don't 
agree with the premise. At the same time, you should recognize, 
in context, diapers is a very large product category sold in 
many, many places----
    Ms. Scanlon. Right, but this was----
    Mr. Bezos [continuing]. Not just at Amazon and diapers.com.
    Ms. Scanlon [continuing]. The online diaper market.
    Mr. Bezos. It sold at----
    Ms. Scanlon. Now, we do have evidence----
    Mr. Bezos. It sold at drugstores and Costco----
    Ms. Scanlon [continuing]. That these predatory--I'm sorry, 
Mr. Bezos----
    Mr. Bezos [continuing]. And Kroger and Walmart----
    Ms. Scanlon [continuing]. I need to push on here.
    Mr. Bezos. Of course. Sorry.
    Ms. Scanlon. The evidence we've collected suggests that 
predatory practices weren't unique here. In 2013, it was 
reported that you instructed Amazon employees to approach 
discussions with certain business partners, and I quote, ``the 
way a cheetah would pursue a sickly gazelle.''
    Is the gazelle project still in place? And does Amazon 
pursue similar predatory campaigns in other parts of its 
business?
    Mr. Bezos. I cannot comment on that because I don't 
remember it.
    What I can tell you is that we are very, very focused on 
the customer, as you started----
    Ms. Scanlon. Okay. Well, I'm concerned with----
    Mr. Bezos [continuing]. And, of course, that does include--
--
    Ms. Scanlon [continuing]. The customers as well, especially 
those families----
    Mr. Bezos [continuing]. Bargaining very hard with vendors 
and suppliers to get the lowest prices----
    Ms. Scanlon [continuing]. In my district.
    Mr. Bezos [continuting]. So that we can offer those to 
customers.
    Ms. Scanlon. I'm sorry, Mr. Bezos. I'm almost out of time.
    I'm concerned too, because, especially with the current 
pandemic, one of the biggest needs I'm seeing at the food 
drives and the giveaways that we're having to run in my 
district is that families don't have diapers, and we have to 
collect them to give them out. So it certainly is something 
that has a really hard impact on families, and I'm really 
concerned that pricing might have been driven up here by this 
tactic.
    And I yield back.
    Mr. Cicilline. The gentlelady yields back.
    I would just announce that votes have been called, but 
we're going to continue with the hearing, so I invite 
colleagues to vote. You know, it's a rolling vote, so vote 
according to your own schedule.
    I now recognize the gentleman from Colorado, Mr. Neguse, 
for 5 minutes.
    Mr. Neguse. Thank you, Mr. Chairman.
    And I want to thank each of the witnesses today for your 
testimony.
    Mr. Zuckerberg, in 2004, when you had launched Facebook, 
it's fair so say, I think you'd agree with me, that you had 
quite a few competitors. Would you agree with that?
    Mr. Zuckerberg. Congressman, yes.
    Mr. Neguse. Myspace, Friendster, Google's Orkut, Mixi, Psy 
World, Yahoo! 360, AOL's Bebo, they were all competitors?
    Mr. Zuckerberg. Congressman, those were some of the 
competitors at the time, and it's only gotten a lot more 
competitive since.
    Mr. Neguse. Well, let's talk about that. Because, by 2012, 
Mr. Zuckerberg, none of those companies that I just identified 
existed. You're certainly aware of that. They were all 
basically gone. Facebook, in my view, I think, was in a 
monopoly by then.
    I wonder whether you would agree with that. I take it you 
don't?
    Mr. Zuckerberg. Congressman, that's correct, I don't. We 
face a lot of competitors in every part of what we do, from 
connecting with friends privately, to connecting with people in 
communities, to connecting with all your friends at once, to 
connecting with all kinds of user-generated content. And I 
would bet that you or most people here have multiple apps for 
each of those on your phones, multiple----
    Mr. Neguse. Well, Mr. Zuckerberg, let's--why don't we dig 
into this a bit further. So you and I clearly disagree about 
that.
    In 2012--I'm looking at a document that was produced by 
Facebook in response to the subcommittee's investigation. It's 
a presentation prepared for Sheryl Sandberg to deliver to the 
board of directors of a major telecommunications firm, boasting 
that, quote, ``Facebook is now 95 percent of all social media 
in the United States.'' The title of the slide is even, quote, 
``The Industry Consolidates As It Matures.''
    So, as I look at that graph, I, you know, certainly think 
most folks would concede that Facebook was a monopoly as early 
as 2012. But, nonetheless, I understand that we disagree on 
that point.
    Would you agree with me that Facebook, its strategy since 
that time, to essentially protect what I describe as a monopoly 
but obviously what you would describe as market power, that 
Facebook has been engaged in purchasing competition, in some 
cases replicating competition, and in some cases eliminating 
competition? Would that be a fair statement?
    Mr. Zuckerberg. Congressman, the space of people connecting 
with other people is a very large space, and I would agree that 
there were different approaches that we took to addressing 
different parts of that space, but it's all in service of 
building the best services----
    Mr. Neguse. And I----
    Mr. Zuckerberg [continuing]. For people to help connect----
    Mr. Neguse. I appreciate that, Mr. Zuckerberg. I appreciate 
the latter point. It sounds like you are conceding that at 
least some of those strategies were what I identified, and so I 
want to talk a little bit about that.
    In 2014--here's an email. It's from Facebook's current 
chief financial officer, describing the company's acquisition 
strategy as, quote, ``a land grab'' and saying that ``we are 
going to spend 5 to 10 percent of our market cap every couple 
of years to shore up our position.'' And my sense of the facts 
is that that is, in fact, what has occurred.
    Facebook, as you conceded--you conceded earlier that 
Instagram was a competitor of Facebook's. You acquired 
Instagram in 2012. Instagram is now the sixth-largest social 
media platform in the world. Is that right?
    Mr. Zuckerberg. Congressman, I'm not sure what rank it is, 
but it's certainly grown beyond our wildest expectations.
    Mr. Neguse. I can represent to you that the statistics 
demonstrate--the empirical data shows it's the sixth-largest.
    In 2014, Facebook bought its competitor WhatsApp. Is that 
correct?
    Mr. Zuckerberg. Congressman, yes, WhatsApp was also both a 
competitor and complementary. They competed with us in the 
space of mobile messaging, which is a growing and important 
space and is, again, one part of the global space of how people 
connect more broadly.
    Mr. Neguse. Understood. And, at that time, WhatsApp had 
over 400 million monthly users, a clear path towards 1 billion 
monthly active users. And WhatsApp is now the second-largest 
social media platform in the world, with 2 billion users 
worldwide, more than Facebook Messenger. And, of course, your 
company owns WhatsApp.
    Facebook also tried to buy other competitive startups. In 
fact, as Chairman Nadler noted, you did tell one of Facebook's 
senior engineers in 2012 that you can, quote, ``likely just buy 
any competitive startup, but it'll be a while before we can buy 
Google.''
    Do you recall writing that email?
    Mr. Zuckerberg. Congressman, I don't specifically, but it 
sounds like a joke.
    Mr. Neguse. Well, it certainly--I don't take it as a joke, 
you know, as I review the email. It was in regards to having 
just closed the Instagram sale. And the response from this 
individual, this engineer, to you was, quote, ``Well played.''
    Your response was, ``Thanks. One reason people 
underestimate the importance of watching Google is that we can 
likely always just buy any competitive startups, but it'll be a 
while before we can buy Google.''
    And given the purchases that Facebook had made previous to 
this and the attempted purchases--my understanding is that 
Facebook made several overtures to Snapchat, for example, which 
rebuffed those efforts--clearly demonstrates, in my view, that 
that email was not made in jest.
    But here's why I ask these questions, Mr. Zuckerberg. It 
strikes me that, over the course of the last several years, 
Facebook has used its market power to either, you know, 
purchase or replicate the competition. And Facebook, Facebook 
Messenger, WhatsApp, and Instagram are the most now downloaded 
apps of the last decade. Your company, sir, owns them all. And 
we have a word for that; that word is ``monopoly.''
    With that, I would yield back, Mr. Chairman.
    Mr. Cicilline. I thank the gentleman.
    I now recognize the gentlelady from Georgia, Mrs. McBath, 
for 5 minutes.
    Mrs. McBath. Thank you, Mr. Chairman.
    Mr. Bezos, you referred to third-party sellers today as 
``Amazon's partners'' and that your success depends on their 
success.
    But, over the past year, we've heard a completely different 
story. As part of this investigation, we've interviewed many 
small businesses, and they use the words like ``bullying,'' 
``fear,'' and ``panic'' to describe their relationship with 
Amazon.
    And I'm going to share the story of a small-business owner 
who is also a wife and a mother, so you can understand how this 
is actually affecting the lives of everyday people and why this 
truly matters.
    [Video played.]
    Mrs. McBath. So, Mr. Bezos, after Amazon delisted this 
small business without any apparent reason or notice, she told 
us that they sent more than 500 separate communications to 
Amazon, including to you, Mr. Bezos, over the past year, and 
there was not a single meaningful response.
    Do you think this is an acceptable way to treat someone 
that you described as both a partner and a customer?
    Mr. Bezos. No, Congresswoman. And I appreciate you showing 
me that anecdote, and I would like to talk to her. It does not 
at all, to me, seem like the right way to treat her, and I'm 
surprised by that. And it's not the systematic approach that we 
take, I can assure you.
    I don't even understand what's going on in that anecdote, 
because we would love for third-party sellers to sell books----
    Mrs. McBath. Well, respectfully, sir----
    Mr. Bezos [continuing]. On the website. So I don't 
understand it, but I would like to understand it better. And--
--
    Mrs. McBath. That's the point, sir.
    Mr. Bezos [continuing]. With your permission, I would like 
to get in touch with your office.
    Mrs. McBath. I think, though, that you're missing the 
point. This is not just about one business. I'm concerned that 
this is a pattern of behavior. And, basically, this pattern of 
behavior has to change.
    Mr. Bezos, my question is simply: Are you willing to make 
sure, going forward, that, you know--the numerous sellers that 
we've talked to, they have problems just like this. And there 
are more sellers who have told us that they have exhausted all 
of their options before finally reaching out to you directly as 
a last resort, but they're still waiting for your response.
    So what do you have to say to the small businesses who are 
talking to Congress because you simply won't listen to them?
    Mr. Bezos. Well, I'd say that's not acceptable. If we 
aren't listening to you, I'm not happy about that at all.
    And I--but, you know, if you would allow me to disagree a 
little bit with a piece of this, I do not think that's 
systematically what's going on. And the evidence that I would 
suggest would be useful for you to consider in that regard is 
that third-party sellers, in aggregate, are doing extremely 
well on Amazon. They grew from--you know, 20 years ago it was 
zero, and today it's 60 percent----
    Mrs. McBath. Great. Okay.
    Mr. Bezos [continuing]. Of sales.
    Mrs. McBath. Thank you very much.
    Mr. Bezos. Third-party sellers are growing even faster----
    Mrs. McBath. Thank you so much.
    Mr. Bezos [continuing]. Than first-party retail. So----
    Mrs. McBath. Mr. Bezos, you said----
    Mr. Bezos. Thank you.
    Mrs. McBath. Thank you so much.
    You said that sellers have many other attractive options to 
reach customers, but that's not at all what we found in our 
investigation. According to eMarketer, a source Amazon cited in 
submissions to this committee, Amazon has nearly seven times 
the market share of its closest e-commerce competitor. One 
seller told us that, and I quote, ``Amazon continues to be the 
only show in town. No matter how angry sellers get, they have 
nowhere else to go.''
    So are you saying that these people aren't being truthful 
when they say that Amazon is the only game in town?
    Mr. Bezos. Yeah, Congresswoman, with great respect, I do 
disagree with that. I believe that there are a lot of options. 
And some of them are not even listed on that chart. I just 
looked at it briefly, but I didn't see some that I know of, for 
example.
    So I think there are a lot of----
    Mrs. McBath. Okay. Thank you----
    Mr. Bezos [continuing]. Things in this dynamic.
    Mrs. McBath. All right. Thank you for that.
    Mr. Bezos. There are more and more every day.
    Mrs. McBath. Mr. Bezos, my time is short.
    If Amazon didn't have monopoly power over these sellers, do 
you think they would choose to stay in a relationship that is 
characterized by bullying, fear, and panic?
    Mr. Bezos. With all respect, Congresswoman, I do not accept 
the premise of your question. That is not how we operate the 
business.
    Mrs. McBath. Okay. All right.
    Mr. Bezos. And, in fact, we work very hard to----
    Mrs. McBath. Thank you for that.
    Mr. Bezos [continuing]. Provide a fantastic pool for 
sellers----
    Mrs. McBath. Thank you for that.
    Mr. Bezos [continuing]. And that's why they've been 
successful.
    Mrs. McBath. Thank you for that.
    Mr. Bezos, I'm going to close with giving the bookseller 
the opportunity to finally be heard by you.
    [Video played.]
    Mrs. McBath. With that, I yield back the balance of my 
time.
    Mr. Cicilline. I thank the gentlelady.
    We've now concluded our first round.
    I now recognize myself for 5 minutes.
    Mr. Bezos, according to your testimony, the marketplace is 
competitive. But Amazon controls as much as 75 percent of all 
online marketplace sales. And eMarketer, a source you cited to 
us in submissions to this committee, reports that Amazon has 
nearly seven times the market share of its closest competitor.
    Isn't it true that small businesses have no real option but 
to rely on Amazon to connect with customers and make online 
sales?
    Mr. Bezos. No, sir. With great respect, I do have a 
different opinion on that. I believe there are a lot of options 
for small sellers. I believe Amazon is a great one, and we've 
worked very hard. I think we are the best one.
    Mr. Cicilline. Well, Mr. Bezos----
    Mr. Bezos. We have a lot of different programs that help 
sellers. But----
    Mr. Cicilline. Thank you.
    Mr. Bezos [continuing]. We are not the only option.
    Mr. Cicilline. There are 2.2 million active sellers as of 
yesterday. About 37 percent of those sellers rely on Amazon as 
their sole source of income. That is over 800,000 people 
relying on Amazon to feed their families, put their kids 
through school, and keep a roof over their heads.
    Mr. Bezos, you have referred to third-party sellers as both 
your partners and customers. But isn't it true that Amazon 
refers to third-party sellers as ``internal competitors''?
    Mr. Bezos. I think in--it wouldn't surprise me. In some 
ways, we are competing. And they're also competing with each 
other.
    Mr. Cicilline. Well, that's right.
    Mr. Bezos. And the marketplace does allow that.
    Mr. Cicilline. Your own document, Mr. Bezos, Amazon's own 
documents that you produced refer to the very same sellers that 
you've described as Amazon partners as ``internal 
competitors.''
    In fact, we've heard from third-party sellers again and 
again during the course of the investigation that Amazon is the 
only game in town. One small-business owner we interviewed 
described it this way, and I quote: ``We're stuck. We don't 
have a choice but to sell through Amazon.'' Another said, and I 
quote, ``They've never been a great partner, but you have to 
work with them.''
    During this investigation, we have heard so many 
heartbreaking stories of small businesses who sunk significant 
time and resources into building a business and selling on 
Amazon, only to have Amazon poach their best-selling items and 
drive them out of business.
    So I want to talk to you about one company that really 
stood out from the rest. I want you to pay close attention to 
how they described your partnership, Mr. Bezos. We heard from a 
small apparel company that makes and sells what they call 
``useful apparel'' for people who work on their feet and with 
their hands, like construction workers and firefighters.
    This particular business discovered and started selling a 
unique item that had never been a top seller for the brand. 
They were making about $60,000 a year on just this one item. 
One day, they woke up and found that Amazon had started listing 
the exact same product, causing their sales to go to zero 
overnight. Amazon had undercut their price, setting it below 
where the manufacturer would generally allow it to be sold so 
that, even if they wanted to, they couldn't match the price.
    Here's how the apparel company described working with 
Amazon, and I quote: ``Amazon strings you along for a while 
because it feels so good to get that paycheck every week. And 
in the past, for lack of a better term, we called it `Amazon 
heroin' because you just kept going and you had to get your 
next fix, your next check. But, at the end of the day, you find 
out that this person, who was seemingly benefiting you, making 
you feel good, was just ultimately going to be your downfall,'' 
end quote.
    So, Mr. Bezos, this is one of your partners. Why on Earth 
would they compare your company to a drug dealer?
    Mr. Bezos. Sir, I have great respect for you and this 
committee, but I completely disagree with that 
characterization.
    What we have done is create in the store a place--if you go 
back in time, we sold only our own inventory. It was a very 
controversial decision inside the company to invite third-party 
sellers to come into what is really our most valuable retail 
real estate, our product detail pages.
    We did that because we were convinced that it would be 
better for the consumer, it would be better for the customer--
--
    Mr. Cicilline. Well, Mr. Bezos----
    Mr. Bezos [continuing]. To have all of that selection. And 
I think we were right, and I think it's worked----
    Mr. Cicilline. Reclaiming my time----
    Mr. Bezos [continuing]. Out well for the customer and----
    Mr. Cicilline [continuing]. Unfortunately, this is one of--
--
    Mr. Bezos [continuing]. Third-party sellers and for----
    Mr. Cicilline. Reclaiming my time, Mr. Bezos, this is one 
of many small companies that have told us during this year-long 
investigation that they were mistreated, abused, and tossed 
aside by Amazon.
    Now, Mr. Bezos, you say that Amazon is only focused on 
doing what's best for the customer--you just said it again--and 
also third-party sellers.
    But how is that possible, when you compete directly with 
third-party sellers with your own products that undercut the 
competition? Isn't it an inherent conflict of interest for 
Amazon to produce and sell products on its platform that 
compete directly with third-party sellers, particularly when 
you, Amazon, set the rules of the game?
    Mr. Bezos. Thank you. No, I don't believe it is. We have--
the consumer is the one ultimately making the decisions. 
They're making the decisions about what to buy, what price to 
buy it at, who to buy it from. And our--what we try to do is 
make it an easy----
    Mr. Cicilline. That's not the question, Mr. Bezos. The 
question is, is there an inherent conflict of interest? Because 
you are a data company. You know when customers put something 
in their cart, when they take it out. Traditional brick-and-
mortar stores, like a grocery store, where competition occurs, 
don't have that.
    And so I just want to follow up, finally, on an answer to 
the question that you gave to Congresswoman Jayapal. You said 
that you can't guarantee that the policy of not sharing third-
party sellers' data with Amazon's own line hasn't been 
violated; you couldn't be certain.
    Can you please explain that to me? Can you list examples of 
where that policy has been violated?
    Because it's particularly concerning to me, Mr. Bezos, 
that--shouldn't third parties know for sure that data isn't 
being shared with your own line, their competitors? Why should 
a third-party seller list their product on Amazon if they're 
just going to be undercut by Amazon's own product as a result 
of data you take from them?
    Mr. Bezos. Sir, I think what I want you to understand, and 
I think is important to understand, is that we have a policy 
against using individual seller data to compete with our 
private-label products. And----
    Mr. Cicilline. You couldn't assure Ms. Jayapal that that 
policy isn't violated routinely.
    Mr. Bezos. Well, we are investigating that. And I do not 
want to sit here and I do not want to go beyond what I know 
right now. But we are--as a result of that Wall Street Journal 
article, we are looking at that very carefully----
    Mr. Cicilline. Thank you, Mr. Bezos.
    Mr. Bezos [continuing]. And we want to get this back, and 
we will surely share them with you.
    Mr. Cicilline. Thank you. And we look forward to that.
    The evidence we've collected shows that Amazon is only 
interested in exploiting its monopoly power over the e-commerce 
marketplace to further expand and protect this power. This 
investigation makes clear that Amazon's dual role as a platform 
operator and competing seller on that platform is fundamentally 
anticompetitive. And Congress must take action.
    And, with that, I recognize the gentleman from Wisconsin, 
the ranking member of the subcommittee, Mr. Sensenbrenner, for 
5 minutes.
    Mr. Sensenbrenner. Well, Mr. Chairman, I think that the 
history proves that Congress does a poor job in picking winners 
and losers. And I've looked over a lot of the material that has 
been assembled. I've been working with the chairman for over a 
year on this bipartisan investigation. And I have reached the 
conclusion that we do not need to change our antitrust laws. 
They have been working just fine. The question here is the 
question of enforcement of those antitrust laws.
    Now, we've heard a lot about the Facebook acquisition of 
Instagram. That happened in 2012. Obama's FTC signed off on 
that. So, regardless of what you think happened at that time, 
the fact is that this acquisition did pass the smell test of 
the regulators involved. Now, maybe they made a mistake, or 
maybe something else happened. I don't know. But the fact is 
that there is not a problem with the law.
    Now, you know, back about 35 years ago, AT&T was broken up 
because it was determined that one-stop shops were 
monopolistic. And AT&T, because you had to get your long-
distance service from your local phone company, that was 
monopolistic. So the Baby Bells were spun off.
    A whole lot has happened since then. There were mergers and 
acquisitions in the telecom industry. Technology advanced a 
huge amount. And guess what? We're back to exactly where we 
were in 1984. So this goes to show that congressional pressure 
is not the best.
    Now, using the AT&T example, which I think was a big flop 
and counterproductive, let me ask Mr. Bezos, you know, say the 
AT&T example was applied to Amazon and you were required to 
spin stuff off. So you might have no more one-stop shop, but 
you have to go to separate places for books or groceries or 
videos or electronics. How are the consumers helped by that?
    Mr. Bezos. Sir, thank you. They would not be.
    Mr. Sensenbrenner. Right.
    Mr. Bezos. That's very clear.
    Mr. Sensenbrenner. Now, Mr. Pichai, let me ask about 
Google. If you were forced to split up your business lines, 
say, spin off ad tech and YouTube, can you describe what 
happens to consumers there?
    Mr. Pichai. Congressman, today, consumers in most of the 
areas we are dealing with, they see prices free or falling, and 
they get more choice than ever before. So I think it serves 
them well.
    Mr. Sensenbrenner. And you're right there.
    So, you know, I'm not going to be on this committee in the 
next Congress. I am going to put my feet up and become a 
``senior, statesman.''
    But, you know, let me say that we have heard a whole lot of 
complaints about Big Tech. Some of them are political in 
nature, and I share the complaints and the concern of Mr. 
Jordan and others. And others talk about allegedly 
anticompetitive activity.
    It seems to me that it's not for Congress that legislates 
to toss all of our antitrust laws and the precedent that has 
been established through litigation over the last 100-plus 
years, but it's something where we ought to go back to the 
regulators, to the enforcers, have them look at this stuff, and 
have them make a determination on whether or not the law has 
been violated. I think the law is good on that, and we don't 
need to throw it all in the wastebasket.
    But there are some matters of concern that we have heard 
from both sides of the aisle that I think need to be addressed. 
And if it requires an agency like the FTC to say that they've 
made mistakes in the past, so be it. We're all human; we all 
make mistakes. And even government agencies do that.
    I yield back.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the gentlelady from Washington, Ms. 
Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Mr. Zuckerberg, in March of 2012, you suggested by email to 
your management team that moving faster in copying other apps 
could, quote, ``prevent our competitors from getting 
footholds.''
    Sheryl Sandberg responded that, quote, ``it is better to do 
more and move faster, especially if that means you don't have 
competitors build products that take some of our users.''
    Facebook's product management director added that, quote, 
``I would love to be far more aggressive and nimble in copying 
competitors.''
    Has Facebook ever taken steps to prevent competitors from 
getting footholds by copying competitors?
    Mr. Zuckerberg. Congresswoman, I view it as our job to 
understand what people are finding valuable in all of the 
services that they use. And, certainly, if someone----
    Ms. Jayapal. Do you copy your competitors?
    Mr. Zuckerberg. Congresswoman, we've certainly adapted 
features that others have led in, as others have copied and 
adapted features that we've led in.
    Ms. Jayapal. I'm not concerned about others. I'm just 
asking you, Mr. Zuckerberg.
    Since March of 2012, after that email conversation, how 
many competitors did Facebook end up copying?
    Mr. Zuckerberg. Congresswoman, I can't give you a number of 
companies who have----
    Ms. Jayapal. Was it less than five?
    Mr. Zuckerberg. Congresswoman, I don't know. I----
    Ms. Jayapal. Less than 50? Any estimates?
    Your team was making a plan. How did it play out?
    Mr. Zuckerberg. Congresswoman, I'm not sure I agree with 
the premise here. Our job is to make sure that we build the 
best services for people to connect with all the people they 
care about. And a lot of that is done by innovating and by 
building new things that are----
    Ms. Jayapal. Thank you.
    Mr. Zuckerberg [continuing]. Leading the way internally----
    Ms. Jayapal. Thank you, Mr. Zuckerberg. Let me go on.
    Has Facebook ever threatened to clone the products of 
another company while also attempting to acquire that company?
    Mr. Zuckerberg. Congresswoman, not that I would--not that I 
recall.
    Ms. Jayapal. And I'd like to just remind you that you are 
under oath, and there are quotes from Facebook's own documents.
    Prior to acquiring Instagram, Facebook began developing a 
similar product called Facebook Camera, correct?
    Mr. Zuckerberg. Congresswoman, that's correct. I've said 
multiple times that we were competing in the space of building 
mobile cameras with Instagram. That's what they did at the 
time. Their competitive set was companies like what we were 
building with Facebook Camera----
    Ms. Jayapal. Great.
    Mr. Zuckerberg [continuing]. And VSCO Cam and----
    Ms. Jayapal. Thank you, Mr.----
    Mr. Zuckerberg [continuing]. We were certainly competing 
with that.
    Ms. Jayapal. Thank you, Mr. Zuckerberg.
    Did you ever use this very similar Facebook Camera product 
to threaten Instagram's founder, Kevin Systrom?
    Mr. Zuckerberg. Congresswoman, I'm not sure what you would 
mean by ``threaten.'' I think it was public that we were 
building a camera app at the time. That was a well-documented 
thing.
    Ms. Jayapal. Let me tell you that Mr.--in a chat, you told 
Mr. Systrom that Facebook was, quote, ``developing our own 
photo strategy, so how we engage now will also determine how 
much we're partners versus competitors down the line.''
    Instagram's founder seemed to think that was a threat. He 
confided in an investor at the time that he feared you would 
go--that you would go into, quote, ``destroy mode'' if he 
didn't sell Instagram to you.
    So let's just recap. Facebook cloned a popular product, 
approached the company you identified as a competitive threat, 
and told them that if they didn't let you buy them up, there 
would be consequences.
    Were there any other companies that you used this same 
tactic with while attempting to buy them?
    Mr. Zuckerberg. Congresswoman, I want to respectfully 
disagree with the characterization. I think it was clear that 
this was a space that we were going to compete in, one way or 
another. I don't view those conversations as a threat in any 
way. I was trying to figure out----
    Ms. Jayapal. I'm just using the documents and the testimony 
that the committee has collected from others.
    Did you warn Evan Spiegel, the founder of Snapchat, that 
Facebook was in the process of cloning the features of his 
company while also attempting to buy Snapchat?
    Mr. Zuckerberg. Congresswoman, I don't remember those 
specific conversations.
    But that was also an area where it was very clear that we 
were going to be building something. People want to be able to 
communicate privately. They want to be able to communicate with 
all of their friends at once. And we're going to make sure that 
we build the best products in all of the spaces that we can 
around helping people stay connected with the people they care 
about.
    Ms. Jayapal. I appreciate that, Mr. Zuckerberg. I think the 
question, again, here is, when the dominant platform threatens 
its potential rivals, that should not be a normal business 
practice.
    Facebook is a case study, in my opinion, in monopoly power, 
because your company harvests and monetizes our data, and then 
your company uses that data to spy on competitors and to copy, 
acquire, and kill rivals. You've used Facebook's power to 
threaten smaller competitors and to ensure that you always get 
your way. These tactics reinforce Facebook's dominance, which 
you then use in increasingly destructive ways.
    So Facebook's very model makes it impossible for new 
companies to flourish separately. And that harms our democracy, 
it harms mom-and-pop businesses, and it harms consumers.
    Mr. Chairman, I yield back.
    Mr. Neguse [presiding]. The gentlewoman yields back.
    The gentleman from Colorado, Mr. Buck, is recognized for 5 
minutes.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Bezos, thank you for being here today. I'm concerned 
that you've used Amazon's dominant market position to unfairly 
harm competition. We've heard from a number of companies that 
Amazon uses proprietary data from third-party companies to 
launch its own private-label products, meets with startups to 
discuss investing in the product and then uses the proprietary 
data from these meetings to create its own private-label 
products, and allows the sale of counterfeit items through its 
web platform.
    During this subcommittee's field hearing in Boulder this 
January, PopSockets' CEO and inventor, David Barnett, detailed 
how Amazon allowed counterfeit products to appear on Amazon's 
marketplace ahead of PopSockets' products. Mr. Barnett told 
CNBC that PopSockets found at least 1,000 counterfeit products 
for sale on Amazon's marketplace, which Amazon allegedly failed 
to remedy until PopSockets agreed to a nearly $2 million 
marketing deal with Amazon.
    We've also seen troubling reports in The Wall Street 
Journal detailing Amazon's use of third-party sellers' 
proprietary data to develop and market its own competitive 
private-label products.
    The Wall Street Journal also reported last week that 
Amazon's venture capital fund used meetings with unsuspecting 
startup companies to gain access to secret proprietary product 
information and financial details. Amazon then reportedly used 
that information to launch competing products, often with 
disastrous results for the original startup company.
    There are many examples of this behavior, but one 
allegation in the Journal's reporting sticks out in particular. 
In 2011, Amazon contacted Vocalife, LLC's inventor about the 
possibility of investing in the speech-detection technology. 
Vocalife's founder accepted the meeting, thinking this was the 
company's big break.
    After displaying Vocalife's microphone technology and 
providing proprietary information, including engineering data, 
to Amazon employees, the relationship came to an abrupt halt. 
Amazon employees allegedly stopped responding to emails before 
the technology eventually found its way into the Amazon Echo 
device.
    These allegations are serious, especially because the size 
and scope of these practices couldn't happen without Amazon's 
monopolistic control of the marketplace.
    I'm also concerned that, given Amazon's allowance of 
counterfeit goods on its marketplace, especially counterfeit 
goods from China, that Amazon's marketplace may be knowingly or 
unknowingly furthering China's use of forced and slave labor 
conditions.
    This is especially important following recent reports that 
at least 80 global companies that sell on the Amazon 
marketplace, including Nike, Starbucks, and Samsung, have ties 
to Chinese factories that use enslaved Uighur Muslims.
    Following these concerning reports, Senator Hawley 
introduced an important bill last week requiring American 
businesses to certify that their supply chain does not rely on 
forced labor. I will be introducing the House companion bill 
later this afternoon.
    While I do not expect you to have intimate knowledge of the 
legislation, I do want to ask all four of our witnesses a 
simple yes-or-no question.
    Will you certify here today that your company does not use 
and will never use slave labor to manufacture your products or 
allow products to be sold on your platform that are 
manufactured using slave labor?
    Mr. Cook, you were kind enough to visit with me on the 
phone. I think we briefly discussed this issue. If you----
    Mr. Cook. Yes.
    Mr. Buck [continuing]. Can, give a yes-or-no answer. And I 
understand you haven't read the details of the bill. But would 
you agree to this idea?
    Mr. Cook. I would love to engage on the legislation with 
you, Congressman. But let me be clear: Forced labor is 
abhorrent, and we would not tolerate it in Apple. And so I 
would love to get with your office and engage on the 
legislation.
    Mr. Buck. Thank you.
    Mr. Pichai.
    Mr. Pichai. Congressman, I share your concern in this area. 
I find it abhorrent as well. Happy to engage with your office 
and discuss this further.
    Mr. Buck. So I really don't want to even engage with my 
office half the time. Will you guys agree that slave labor is 
not something that you will tolerate in manufacturing your 
products or in products that are sold on your platforms?
    Mr. Pichai. I agree, Congressman.
    Mr. Buck. And Mr. Cook?
    Mr. Cook. We wouldn't tolerate it. We would terminate a 
supplier relationship if it were found.
    Mr. Buck. Mr. Zuckerberg?
    Mr. Zuckerberg. I agree, we wouldn't tolerate this, and if 
we found anything like this, we would also terminate any 
relationship.
    Mr. Buck. And Mr. Bezos?
    Mr. Bezos. Yes, I agree completely.
    Mr. Buck. Great. Thank you very much, gentlemen.
    And I yield back.
    Mr. Cicilline [presiding]. I thank the gentleman.
    I now recognize the gentleman from Maryland, Mr. Raskin, 
for 5 minutes.
    Mr. Raskin. Thank you, Mr. Chairman.
    I want to thank Mr. Buck for that excellent line of 
questioning and for the upcoming legislation. I look forward to 
joining that.
    You know, in the 19th century, we had the robber barons. In 
the 21st century, we've got the cyber barons. And we want to 
make sure that the extraordinary power and wealth that you've 
been able to amass is not used against the interests of 
democracy and human rights around the world and not against the 
interests of a free market at home.
    So, Mr. Bezos, let me turn to you. I'm interested in the 
role that you play as a gatekeeper. A lot of consumers want to 
know when the HBO Max app will be available on your Fire 
device. And I understand that negotiations are ongoing but that 
your company is not only asking for financial terms but also 
for content from Warner Media. Is that right? And is that a 
fair way to proceed?
    In other words, is it fair to use your gatekeeper-status 
role in the streaming device market to promote your position as 
a competitor in the video streaming market with respect to 
content?
    Mr. Bezos. I'm not familiar with the details of those 
negotiations. As you said, they're underway right now. I 
predict that the companies will eventually come to an 
agreement. And I think this is kind of--two large companies 
negotiate an agreement; this is kind of normal case of simple 
commerce----
    Mr. Raskin. Right. But here's why I pursue it: Precisely 
because it is a large company, and, in a way, they stand in for 
hundreds of thousands of much smaller companies, who are even 
in a more disadvantageous position with respect to negotiating 
with you.
    I guess, the general proposition, then, you can speak to, 
if you don't know the details of this, which is: Is it okay to 
negotiate not just for financial terms in having someone be 
part of your Fire unit but also to try to extract in that 
negotiation leverage with respect to getting content from them?
    Mr. Bezos. Well, again, I'm not familiar with the details. 
What I would say is I think----
    Mr. Raskin. I'm not asking about that one. In general. In 
general.
    Mr. Bezos. In general, I think that when two companies are 
negotiating, you are negotiating not just the amount of money 
that's going to change hands but also what you're going to get 
in exchange for the amount of money. That is a very fundamental 
way that business works----
    Mr. Raskin. Do you see, at least to outsiders, that would 
look like a structural conflict of interest? Like, you're using 
your control over access to people's living rooms essentially, 
you're using that in order to obtain leverage in terms of 
getting creative content that you want. And are you essentially 
converting power in one domain into power in another domain 
where it doesn't belong?
    Mr. Bezos. I think what I should do is offer to get you 
information. I'll get it to your office for you. Because I'm 
not familiar enough with this, and I could imagine that there 
would be scenarios, if we're just talking in the abstract, 
where it would be inappropriate, and I could imagine scenarios 
where it would be very normal business----
    Mr. Raskin. Okay.
    Mr. Bezos [continuing]. And very appropriate.
    Mr. Raskin. Fair enough.
    I want to talk about an emerging market, smart homes. And I 
want to start with the hub of the smart home, smart speakers. 
Does Amazon price the Echo device below cost?
    Mr. Bezos. Not its list price, but it's often on promotion, 
and sometimes when it's on promotion it may be below cost, yes.
    Mr. Raskin. Well, several other companies did tell us, in 
fact, that Amazon is pricing Echo devices way below cost, 
making it nearly impossible for them to compete, and 
aggressively discounting Alexa-enabled speakers as a strategy 
to own the smart home.
    Like many markets we've heard about today, smart speakers 
with voice assistants, like Alexa, along with the myriad of 
smart-home appliances that Alexa can interact with, make up the 
next ecosystem or platform for tech companies to lock in 
customers.
    Would you say the smart-home market, for which the Echo, 
Ring security system, and other smart devices operate, is a 
winners-take-all market, yes or no?
    Mr. Bezos. No, I wouldn't, especially if we're able to 
succeed at what we want, which is, we would like--our vision 
for this is that smart-home speakers should answer to different 
wake words. So, you know----
    Mr. Raskin. So, when considering the acquisition of----
    Mr. Bezos [continuing]. On a case-by-case basis. And I 
think in that--just if I could, because I think it's important. 
If we could achieve that, then I think you would get really 
good behavior on the part of----
    Mr. Raskin. Okay.
    Mr. Bezos [continuing]. You know, competitive voice agents 
helping you.
    Mr. Raskin. When you were looking at acquiring Ring, you 
wrote to your executive team, quote, ``We're buying market 
position, not technology. And that market position and momentum 
is very valuable.''
    So, if smart homes are not a market with lock-in effects, 
why would a leading market position and momentum be so very 
valuable?
    Mr. Bezos. Sir, market position is valuable in almost any 
business, and it's one of the primary things that one would 
look at in an acquisition.
    There are multiple reasons that we might buy a company. 
Sometimes we're trying to buy some technology or some IP. 
Sometimes it's a talent acquisition. But the most common case 
is market position, that the company has traction with 
customers, they've built a service, maybe they were the first 
mover. There could be any number of reasons why they have that 
market position. But that's a very common reason to acquire a 
company.
    Mr. Raskin. Well, once a company becomes dominant in a 
market, it can favor its own products and services. Alexa-
enabled smart speakers make up over 60 percent of the smart-
speaker market.
    Mr. Bezos, when I ask Alexa to play my favorite song, Prime 
Music is the default music player. Is that right?
    Mr. Bezos. If you're--I think that's true if you're a Prime 
member, yes.
    Mr. Raskin. And a New York Times report found that, when 
users say, ``Alexa, buy batteries,'' Alexa responds, ``Would 
you like to buy double A AmazonBasics batteries?''
    So has Alexa ever been trained to favor Amazon products 
when users shop by voice?
    Mr. Cicilline. The time of the gentleman has expired, but 
the witness may answer the question.
    Mr. Bezos. I don't know if it's been trained in that way. 
I'm sure there are cases where we do promote our own products, 
which is, of course, a common practice in business. You know, 
so it wouldn't surprise me if Alexa sometimes does promote our 
own products.
    Mr. Raskin. Thank you, and I yield back.
    Mr. Cicilline. The chair recognizes the gentleman from 
Florida, Mr. Gaetz, for 5 minutes.
    Mr. Gaetz. Mr. Pichai, during our prior discussion earlier 
today, you said that Google doesn't work with the Chinese 
military. That answer was deceptive, because Google works with 
many of the entities that work with the Chinese military in 
common collaboration.
    And just one example would be Tsinghua University, where 
Jeff Dean, who is the head of Google AI, served on the Computer 
Science Advisory Committee for the university, and then the 
university takes nearly $15 million from China's Central 
Military Commission.
    So you can see how, even if you don't literally show up at 
the offices of the Chinese military, if you're all showing up 
at the same place, working together on AI, that would lead to 
my concern.
    But I want to talk about search, because that's an area 
where I know Google has real market dominance.
    On December 11, you testified to the Judiciary Committee, 
and in response to a question from my colleague Zoe Lofgren 
about Search, you said, ``We don't manually intervene on any 
particular search result.''
    But leaked memos obtained by The Daily Caller show that 
that isn't true. In fact, those memos were altered December 3, 
just a week before your testimony, and they describe a 
``deceptive news blacklist'' and a process for developing that 
blacklist, approved by Ben Gomes, who leads Search with your 
company, and also something called a fringe ranking, which 
seems to beg the question, you know, who gets to decide what's 
fringe?
    And, in your answer, you know, you said to Ms. Lofgren that 
there is no manual intervention of search. That was your 
testimony. But now I'm going to cite specifically from this 
memo from The Daily Caller. It says--or that, I'm sorry, that 
The Daily Caller obtained from your company.
    It says, ``The beginning of the workflow starts when a 
website is placed on a watchlist.'' It continues, ``This 
watchlist is maintained and stored by Ares, with access 
restricted to policy and enforcement specialists.'' It sort of 
does beg the question who these enforcement specialists are.
    ``Access to the listing can also be shared on a need-to-
know basis to enforce or enrich the policy violations. The 
investigation of the watchlist is done in the tool Athena, the 
Ares manual review tool.''
    So you said to Congresswoman Lofgren that there was no 
manual review tool, and then your documents indicate that there 
is a manual review tool. So help us understand the 
inconsistency.
    Mr. Pichai. Congressman, there are two parts to this.
    In general, you know, we algorithmically approach our 
search results. We have robust policies to do so. And we test 
it both with user feedback and we use raters to validate. Last 
year alone, we ran over 300,000 experiments and launched around 
3,000 improvements to Search.
    And we don't manually tune. The question last time was in 
the context of, is there someone behind the curtain manually 
tuning an individual search result? We don't. We generally 
approach it algorithmically.
    We, however, in order to comply with the law in every 
country we operate in--for example, there may be an actor or a 
website identified as interfering in elections, and we then 
have to put that site on a list so that that doesn't appear in 
our search results against queries. So other examples would be 
violent extremism----
    Mr. Gaetz. And is that done manually, Mr. Pichai? That 
process you described, is that done manually?
    Mr. Pichai. And we could get reports from law enforcement 
agencies. You know, we are complying with--or it's a known--
DMCA-based copyright violation
    Mr. Gaetz. There is either a manual component or there is 
not a manual component. Which is it?
    Mr. Pichai. For creating those lists, that process can 
involve manual portions, too.
    Mr. Gaetz. Okay. Great. Well, that is sort of the concern 
that I have. You've now said something different today than you 
said to Ms. Lofgren, because you've confessed that there is a 
manual component to the way in which you blacklist content. And 
it seems to be no coincidence that sites like Gateway Pundit, 
The Western Journal, American Spectator, Daily Caller, and 
Breitbart receive ire or negative treatment as a consequence of 
your manual tooling.
    And it also seems noteworthy that whistleblowers at your 
own company have spoken out. You said that one of the reasons 
you maintain this manual tool is to stop election interference. 
I believe it is, in fact, your company that is engaging in 
election interference. And it's not just my view. Mike Wacker 
came out and was a whistleblower, indicating that the manual 
blacklist targets that Google specifically goes after are those 
who support President Trump, who hold a conservative viewpoint. 
And he left your company in 2019 because he was speaking out 
against these ``outrage mobs.''
    So can you see how, when you empower individuals, some of 
the same individuals that Project Veritas has exposed as 
labeling people as terrorists who say ``Make America Great 
Again'' or who support the President, that, in fact, can be the 
very election interference that we're concerned about and that 
you're using your market dominance in search to accomplish that 
election interference?
    Mr. Pichai. Congressman, with respect, I strongly disagree 
with that characterization. We don't approach this work with 
any political viewpoint. We do that to comply with law, known 
copyright violations, in very narrow circumstances. And we have 
to do that to comply with the law. And, in many cases, those 
requests can come from law enforcement agencies----
    Mr. Gaetz. Your own employees are saying----
    Mr. Cicilline. The time of the gentleman----
    Mr. Gaetz [continuing]. You're doing it for a different 
reason.
    Mr. Cicilline. The time of the gentleman has expired.
    Mr. Gaetz. Your own employees are saying it's political 
bias.
    I yield back.
    Mr. Cicilline. Thank you, Mr.----
    Mr. Gaetz. Oh, I'm sorry. May I be recognized for a 
unanimous consent request?
    Mr. Cicilline. Yes.
    Mr. Gaetz. Mr. Chairman, just, given the productivity of 
our discussion, I'd request that we be permitted a third round 
of questioning.
    Mr. Cicilline. Without objection.
    I now recognize the chairman of the full committee, Mr. 
Nadler.
    Chairman Nadler. Yeah. You know, the documents prove--the 
news and journalism industry in this country are in economic 
free fall. Over 200 counties in America no longer have a local 
newspaper, and tens of thousands of journalists have been laid 
off in recent years.
    The reason journalism is in free fall is that Google and 
Facebook now capture the vast majority of digital ad revenue. 
Although news publishers produce valuable content, it is Google 
and Facebook that increasingly profit off their content. 
Publishers have told us that Google and Facebook maintain their 
dominance in these markets in part through anticompetitive 
conduct as well as conflict of interest.
    Mr. Zuckerberg, in 2015, Facebook reported high and quickly 
growing rates of video viewership on its platform. Based on 
these metrics, news publishers fired hundreds of journalists, 
choosing instead to boost their video divisions.
    In 2018, it was discovered that Facebook had inflated these 
metrics and had known about the inaccuracies several years 
before Facebook publicly disclosed this.
    Mr. Zuckerberg, did you know that these metrics were 
inflated before they were publicly released?
    Mr. Zuckerberg. Congressman, no, I did not. And we regret 
that mistake and have put in place a number of other measures 
since then to make sure that we----
    Chairman Nadler. And do you realize the harm that this 
caused journalists across the country?
    Mr. Zuckerberg. Congressman, I certainly know how important 
it is that the metrics that we report are accurate, and we've 
put in place additional measures to make sure we can audit 
those.
    Chairman Nadler. And what do you have to say to the 
journalists who lost their jobs because of Facebook's 
deception?
    Mr. Zuckerberg. Well, Congressman, I disagree with that 
characterization and also your description of what----
    Chairman Nadler. Okay. Reclaiming my time.
    Google, meanwhile, maintains its dominance in part through 
aggregating data from across its products and services.
    Mr. Pichai, I understand that Google collects user data on 
users' browsing activity through its Chrome browser. Does 
Google use that data for its own purposes, either in 
advertising or to develop and refine its algorithms?
    Mr. Pichai. Mr. Chairman, we do use data to improve our 
products and services for our users. Anytime we do it, we 
believe in giving users choice, control, and transparency; we 
make it very clear. And we give them simplified settings to 
choose how would they like their data to be used.
    Chairman Nadler. So you do use the data that you get from 
these companies for your purposes.
    Mr. Pichai. My understanding was whether we use data in 
general to improve our products and services. And, you know, we 
do use data to show ads, but we give users a choice; they can 
turn ads personalization on or off. And----
    Chairman Nadler. No, this--obviously, the use of this data 
from all these companies gives you a tremendous advantage over 
them and over any competitor.
    Does the ability to make money in any way affect Google's 
algorithm in terms of what news appears in a typical user's 
search results?
    Mr. Pichai. The way we rank our search results, you know, 
we don't take into account a commercial relationship that we 
have.
    Chairman Nadler. Okay. But Facebook and Google have gravely 
threatened journalism in the United States. Reporters have been 
fired. Local newspapers have been shut down. And now we hear 
that Google and Facebook are making money over what news they 
let the American people see. This is a very dangerous 
situation.
    And, unfortunately, my time has expired and I have to yield 
back.
    Mr. Cicilline. I thank the gentleman for yielding.
    I now recognize the gentleman from Florida, Mr. Steube, for 
5 minutes.
    Mr. Steube. Thank you, Mr. Chairman. I'm just going to pick 
up where I left off.
    Mr. Pichai, there are rioting groups that are going 
unchecked with the posting of what I would contend is very 
violent video. Yet, yesterday, I was sent a YouTube video about 
doctors discussing hydroxychloroquine and discussing the not-
dangers of children returning to school, and when I clicked on 
the link, it was taken down.
    And then I was sent a different link on YouTube, and it was 
taken down. I just checked again, just to make sure, and it 
says that this video has been removed for violating YouTube's 
community guidelines.
    How can doctors giving their opinion on a drug that they 
think is effective for the treatment of COVID-19 and doctors 
who think it's appropriate for children to return back to 
school violate YouTube's community guidelines, when all of 
these videos of violence are all posted on YouTube?
    Mr. Pichai. Congressman, we believe in freedom of 
expression. And there is a lot of debate on YouTube about 
effective ways to deal with COVID. We allow robust debate.
    But in the area, during a pandemic, we look to local health 
authorities--so, for example, in the U.S., it would be CDC--for 
guidelines around medical misinformation in a narrow way which 
could cause harm in the real world.
    And so, for example, if there are aspects of a video and if 
it explicitly states something could be a proven cure, and that 
doesn't meet CDC guidelines, you know, we would remove that 
video----
    Mr. Steube. But it's free expression of speech. And you 
have these doctors who are giving their opinion as doctors. And 
I don't understand why YouTube and, therefore, Google thinks 
it's appropriate to silence physicians and their opinion of 
what can help and cure people with COVID-19.
    I'm going to switch quickly to Mr. Zuckerberg.
    I think at this point it's fairly obvious that technology 
platforms have been stifling conservative news and opinions. 
You employ a panel of content moderators. Can you explain how 
Facebook chooses who these moderators are?
    Mr. Zuckerberg. Thanks, Congressman. We do hire a lot of 
people around the world to work on safety and security. Our 
team is more than 30,000 or 35,000 people working on that now. 
We certainly try to do this in a way that is neutral to all 
viewpoints. We want to be a platform for all ideas. I don't 
think you build a social product with the goal of giving people 
a voice if you don't believe that people being able to express 
a wide variety of things is ultimately valuable for the world. 
And we try to make sure that our policies and our operations 
ultimately reflect and carry that out.
    Mr. Steube. Is there an ideological diversity amongst the 
content moderators?
    Mr. Zuckerberg. Congressman, I don't think we choose to 
hire them on the basis of an ideology. They're hired all over 
the world. There is certainly a bunch in the U.S. There's 
diversity in where they're hired, but certainly we don't want 
to have any bias in what we do, and we wouldn't tolerate it if 
we discovered that.
    Mr. Steube. So you don't specifically hire, say, 
conservative moderators and Democrat or liberal moderators so 
that there's a balance in your content moderators?
    Mr. Zuckerberg. Congressman, in terms of the 30,000 to 
35,000 people or more at this point who are doing safety and 
security review, that is correct. In terms of the people 
setting the policies, I think it is valuable to have people 
with a diversity of viewpoints involved so we can make sure 
that we have the different viewpoints represented in the policy 
development process.
    And we also consult with a number of outside groups 
whenever we develop new policies to make sure that we're taking 
into account all perspectives.
    Mr. Steube. What are some of those outside groups that 
would be conservative leaning?
    Mr. Zuckerberg. Congressman, I need to get back to you with 
a list of specific groups, but it would depend on what the 
topic is that we're talking about.
    Mr. Steube. Yeah. Can you just think of one? I mean, you 
said that you reach out to outside groups. Can you think of one 
conservative outside group that you reach out to and use as a 
content moderator?
    Mr. Zuckerberg. Oh, Congressman, I'm talking about 
different external stakeholders and groups that are inputs to 
our policy development process. And I'm not involved in those 
conversations directly. So I would have to get back to you with 
specifics on that. But I am quite confident that we speak with 
people across the ideological spectrum when we're developing 
our policies.
    Mr. Steube. I would very much appreciate a followup on 
that.
    Real quickly, can you briefly explain the approval process 
for third-party fact-checkers, and how many fact-checkers does 
Facebook employ?
    Mr. Zuckerberg. Yes, thanks. We work with about 70 fact-
checking partners around the world, and the goal of the program 
is to limit the distribution of viral hoaxes, so things that 
are clearly false, from getting a lot of distribution. But we 
don't ourselves want to be in the business of determining what 
is true and what is false. That feels like an inappropriate 
role for us to play.
    We rely on an organization called the Poynter Institute, 
and I think it's called the independent fact-checking 
organization that has a set of guidelines of what makes an 
independent fact checker, and they certify those fact-checkers. 
And then any organization that gets certification from that 
group is qualified to be a fact-checking partner within 
Facebook.
    Mr. Cicilline. Thank you. The gentleman's time has expired.
    I'm going to recognize Mr. Johnson for 5 minutes, and then 
we are going to take a short break of the committee.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Bezos, Amazon has a significant problem with 
counterfeit products being sold on its platform. Counterfeit 
products not only rip off the owners of legitimate businesses, 
they also can be dangerous. Counterfeit medicine, baby food, 
automobile tires, and other products can kill. Amazon has said 
its fixing its counterfeit problem, but counterfeiting seems to 
be getting worse, not better.
    Amazon is a trillion-dollar company, but Amazon customers 
are not guaranteed that the products purchased on your platform 
are authentic. Amazon acts like it's not responsible for 
counterfeits being sold by third-party sellers on its platform, 
and we've heard that Amazon puts the burden and cost on brand 
owners to police Amazon's site, even though Amazon makes money 
when a counterfeit good is sold on its site.
    More than half of Amazon's sales come from third-party 
seller accounts. Why isn't Amazon more aggressive in ensuring 
that counterfeit goods are not sold on its platform, and why 
isn't Amazon responsible for keeping all counterfeit products 
off of its platform?
    Mr. Bezos. Thank you. This is an incredibly important issue 
and one that we work very hard on. Counterfeits are a scourge. 
They are a problem that is not--does not help us earn trust 
with customers. It's bad for customers. It's bad for honest 
third-party sellers.
    We do a lot to prevent counterfeiting. We have a team of 
more than a thousand people that does this. We invest hundreds 
of millions of dollars in systems that do this. We have 
something called Project Zero, which helps brands serialize 
individual products, which really helps with counterfeiting. We 
have other programs as well----
    Mr. Johnson. I'm glad that you have those features in 
place, but why isn't Amazon responsible for keeping all 
counterfeit products off of its platform?
    Mr. Bezos. We certainly work to do so, Congressman, and we 
do so not just for our own retail products but for third-party 
products as well. We do work closely with brands----
    Mr. Johnson. Thank you. We've heard from numerous third-
party sellers and brand owners that Amazon has used knockoffs 
as leverage to pressure sellers to do what Amazon wants. For 
example, the founder of Popsockets testified in January that 
Amazon itself was selling knockoffs of its product.
    After reporting the problem, it was only after his company 
committed to spending $2 million on advertisements that Amazon 
appears to have stopped diverting sales to these knockoffs. 
What is your explanation for that business practice?
    Mr. Bezos. That's unacceptable. If that is--if those are 
the facts and if someone somewhere inside Amazon said, you 
know, ``Buy X dollars in ads, and then we'll help you with your 
counterfeit problem,'' that is unacceptable. And I will look 
into that, and we'll get back to your office with that.
    What I can tell you is that we have a counterfeit crimes 
unit. We attempt to prosecute counterfeiters. I would encourage 
this body to pass stricter penalties for counterfeiters and to 
increase law enforcement resources to go after counterfeiters 
because they are bad actors.
    Mr. Johnson. But your company still makes money off of 
counterfeit goods being sold on your platform. Isn't that 
correct?
    Mr. Bezos. If it does, in my view, sir, it would only be in 
the short term. I would much rather lose a sale than lose a 
customer. We make money when the customer comes back.
    Mr. Johnson. All right. Fair enough, sir.
    Making companies pay extra to avoid having their products 
disappear in rankings seems to be so unfair, especially to 
small businesses. The American Dream is threatened when that 
happens. Don't you think so?
    Mr. Bezos. Sir, I'm not exactly sure what you're referring 
to. If you're talking about what we were just talking about a 
second ago, I agree completely.
    Mr. Johnson. No, I'm talking about a totally different 
situation now, where a company that is selling on your platform 
but is not paying anything extra gets buried in the rankings, 
but companies that pay extra are able to get their products 
pushed up and they avoid getting pushed down. Is that an 
acceptable practice?
    Mr. Bezos. Sir, I think what you're referring to is the 
fact that we offer an advertising service basically for third-
party sellers to drive additional promotion to their products. 
That is a voluntary program. Some sellers use it. Some don't. 
And it's been very effective at helping people promote their 
products.
    Mr. Johnson. With that, I yield back. Thank you.
    Mr. Cicilline. The gentleman yields back.
    The committee will stand in a brief recess.
    [Recess.]
    Mr. Cicilline. The committee will come to order.
    I recognize the gentlelady from Florida, Mrs. Demings, for 
5 minutes. I'm sorry?
    I recognize the gentleman from North Dakota, Mr. Armstrong, 
for 5 minutes.
    Mr. Armstrong. Thank you, Mr. Chairman.
    Mr. Bezos, earlier, my colleague brought up what I think is 
an important issue, and they were discussing Amazon's stated 
policy against using third-party seller information to inform 
business decisions regarding Amazon's private label brands. Ms. 
Jayapal specifically noted that a possible loophole allows 
Amazon to review nonpublic aggregate data to inform private 
brands even in instances where there are only a few third-party 
sellers.
    I just want to drill down on that just a little more. Where 
exactly does Amazon draw the line?
    Mr. Bezos. I'm sorry. Aggregate data would be more than one 
seller. And the--of course you have to remember that the person 
seeing the report would have no way of knowing how many sellers 
are inside that group or what the, you know, what the breakdown 
would be between those sellers. And I would remind you that 
it's not that different from perhaps a bestseller list or a 
product ranking, which we do make public for all.
    Mr. Armstrong. And I just want to be clear, does Amazon 
allow the use of aggregate data to inform private label Amazon 
brands when there are only three sellers for a product?
    Mr. Bezos. Yes, sir.
    Mr. Armstrong. Okay. Does Amazon look at aggregate data 
when there are only two sellers of a product?
    Mr. Bezos. Yes, sir.
    Mr. Armstrong. And am I correct in my understanding that 
Amazon is conducting an internal investigation on the use of 
third-party data?
    Mr. Bezos. Yes. We're basically trying to understand some 
of the anecdotes that we saw in the Wall Street Journal 
article.
    Mr. Armstrong. Will you commit to informing this committee 
on the outcome of that investigation, including on the exact 
circumstances of when Amazon is allowed to view and/or use 
aggregate data?
    Mr. Bezos. Yes. Yes, we will do that.
    Mr. Armstrong. And now I want to move, just really quick, 
music can be used to drive revenue. And obviously there is a 
reason it's important, and I want to talk about Twitch for a 
second. News reports have indicated that Twitch users are 
receiving notice and takedown requests pursuant to the Digital 
Millennium Copyright Act. My understanding is that Twitch 
allows users to stream music but does not license the music. Is 
that correct?
    Mr. Bezos. I'm going to have to ask that I could get back 
to your office with an answer to that question. I don't know.
    Mr. Armstrong. Okay. So that would be great. And then--so 
my--I just have two more questions related to that. If Twitch 
is responding to DMCA notice and takedown requirements, should 
we--or should, one, Twitch consider proactively licensing music 
instead of retroactively adhering to those notices?
    So these are the questions we're interested in. I'm 
primarily concerned about small, up-and-coming musicians, 
different people that aren't necessarily labels, to make it 
easy for them to at least get cease-and-desist notices out as 
well and as we continue to move forward there.
    Mr. Bezos. Yes, Congressman. That is an important issue, 
and I understand it, and we will get--I will get back to your 
office on that.
    Mr. Armstrong. All right. Earlier this year, Google 
announced plans to retire third-party cookies that websites 
attached to users' browsers, and this allows users to be 
tracked across the internet. A consequence of that change is 
that it will put other digital advertising market participants 
at a disadvantage because they can no longer track users.
    And at the very, very danger of being pro-cookie, because 
I'm not when I use my computer as well, but--and I understand 
that there are legitimate privacy concerns with third-party 
cookies, but I do want to focus on the competition aspect.
    Did this asset--action also place Google at a disadvantage, 
or does Google have alternative means of collecting that user 
data to inform its digital advertising activities, Mr. Pichai?
    Mr. Pichai. Congressman, as you rightly pointed out, this 
is an area where we have focused on user privacy, and users 
clearly don't want to be tracked with third-party cookies. In 
fact, other browser vendors, including from Apple and Mozilla 
Foundation have also implemented these changes.
    We are doing it thoughtfully, giving time for the industry 
to adapt because we know publishers depend on revenue in this 
area. But it's an important change, and I think we have to be 
focused on privacy to drive the change forward.
    Mr. Armstrong. But you have other ways of collecting that 
information, correct?
    Mr. Pichai. On our first-party services, you know, we don't 
rely on cookies, and obviously when people come and type into 
search, to give an example----
    Mr. Armstrong. I'm not asking if you rely on cookies. I'm 
asking you, you have other ways of collecting it through Gmail 
or consumer facing platforms, right?
    Mr. Pichai. We don't use data for Gmail for ads, 
Congressman. But to the extent on the services where we provide 
ads and if users have consented to ads personalization, yes, we 
do have data.
    Mr. Armstrong. Thank you. I yield back.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the gentlelady from Florida, Mrs. Demings, 
for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Mr. Zuckerberg, during discussions of changing Facebook's 
platform policy in 2012, you said that, and I quote, ``in any 
model, I'm assuming we enforce our policies against competitors 
much more strongly.'' It sounds like Facebook weaponizes its 
policies to target competitors. Why would Facebook enforce its 
policies against competitors more strongly?
    Mr. Zuckerberg. Congresswoman, when we were a much smaller 
company, we saw that----
    Mrs. Demings. This is 2012 now. This was in 2012, so, 
please, go right ahead.
    Mr. Zuckerberg. Sure. We've had policies in the past that 
have prevented our competitors, which at the time we were 
primarily worried about larger competitors, from using our 
platforms to grow and compete with us. So we had some of those 
policies. We continually reviewed them over time and since then 
we've----
    Mrs. Demings. Okay. Mr. Zuckerberg, in 2013, a senior 
Facebook employee identified MessageMe as a fast-growing app on 
Facebook and said that we will restrict their access. Was this 
another example of enforcing Facebook's policies against 
competitors much more strongly, against MessageMe?
    Mr. Zuckerberg. Congresswoman, I'm not familiar with that 
specific example, but we did have that policy. We evaluated it 
since then and changed our policies.
    Mrs. Demings. Okay. Let's move to another one and see if 
you remember this one. In 2014, other Facebook product managers 
openly discuss removing Pinterest's access to Facebook's 
platform tools.
    As one employee said, ``I am 100 percent in favor of the 
idea of moving it from Pinterest, but I am not recommending 
removing it from Netflix going forward.'' Why would Facebook 
product managers want to restrict Pinterest's access to 
Facebook but not Netflix?
    Mr. Zuckerberg. Congresswoman, I'm not familiar with that 
exchange. I don't think I was on that.
    Mrs. Demings. Why do you think--you wouldn't have to be on 
that, but why do you think they made that decision or would 
make a decision like that?
    Mr. Zuckerberg. Well, Congresswoman, as I said, we used to 
have a policy that restricted competitors from using our 
platform, and Pinterest is a social competitor with us. It's 
one of the many competitors that allow people to share----
    Mrs. Demings. Okay. All right. Mr. Zuckerberg, these 
examples and supporting documents strongly suggest that 
Facebook does weaponize its policy--platform policies, 
enforcing them selectively to undermine competitors. But let's 
move on.
    Mr. Cook, I am concerned that Apple's policies are also 
picking winners and losers in the app economy and that Apple 
rules mean Apple apps always win. Mr. Cook, in 2019, Apple 
removed from the Apple Store certain apps that helped parents 
control their children's devices. Do you remember what 
justification Apple cited?
    Mr. Cook. Yes, Congresswoman, I do. It was that the use of 
technology called MDM, mobile device management, placed kids' 
data at risk, and so we were worried about the safety of kids.
    Mrs. Demings. Okay. All right. So you were concerned 
about--that the app basically undermined kids' privacy. But 
another app that used the same tool was AppSure, an app owned 
by the Saudi Arabian Government. Do you recall what Apple's 
position was towards this app?
    Mr. Cook. I'm not familiar with that app.
    Mrs. Demings. Okay. Apple allowed this Saudi app to remain. 
So there are two types of apps. They use the same tool. Apple 
kicks one out and said that that was help--one that was helping 
parents, but keeps the one owned by a powerful government. If 
that is correct, Mr. Cook, that app that supposedly did the 
same thing, why do you--why would you keep the one owned by a 
powerful government?
    Mr. Cook. I'd like to look into this and get back with your 
office. I know----
    Mrs. Demings. Because it sounds like you applied different 
rules to the same apps.
    Mr. Cook. We apply the rules to all developers evenly. What 
we were worried about----
    Mrs. Demings. Did the fact that Apple had its own--Mr. 
Cook, let me just ask you this. Did the fact that Apple had its 
own parental control apps that were competing with these third-
party apps contribute to Apple's decision to kick them off the 
Apple store? Mr. Cook, what do you think about that?
    Mr. Cook. It did not. There's over 30 parental controls on 
the App Store today. So there's plenty of competition in this 
area. And I would point out that this is not an area where 
Apple gets any revenue at all. We do this because----
    Mrs. Demings. Mr. Cook, I didn't ask you anything about 
revenue. I didn't--that was not my question. But I'm out of 
time, and thank you so much, Mr. Chair. I yield back.
    Mr. Cicilline. I thank the gentlelady for yielding back.
    I now recognize the ranking member of the full committee, 
Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman. I would yield to the 
gentleman from Florida, Mr. Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    Mr. Zuckerberg, just as Mr. Pichai gave prior testimony to 
Congress saying there wasn't editorial manipulation on their 
platform, you have previously given testimony to the Congress 
saying that there is not editorial manipulation that 
disadvantages conservatives.
    And just like in the case of Google, there have been 
whistleblowers from Facebook that not only have offered 
evidence indicating your testimony was not truthful, but there 
is even video that suggests that content moderators that you 
employ are out there disadvantaging conservative content.
    I'm wondering if you are familiar with the experiences of 
Zach McElroy and Ryan Hartwig, two people who participated in 
Facebook content review, and what is your response to the very 
damning video evidence and the testimony from them that the 
culture that you lead within Facebook is one that disadvantages 
conservatives and leads to content manipulation?
    Mr. Zuckerberg. So, Congressman, I'm somewhat familiar with 
the concerns that they have raised, and as I've said, we aim to 
be a platform for all ideas. We got into this because we want 
to give everyone a voice. I certainly do not want our platforms 
to be run in a way that has any ideological bias, and I want 
people to be able to discuss a range of issues.
    When people raise concerns like that, we do look into them 
to make sure that everyone in our operation is behaving in 
upholding the standards that we would like. And if the behavior 
that they cited is true, then that would be unacceptable in our 
operation.
    Mr. Gaetz. And in following the release of those videos in 
that evidence from Project Veritas, will you then describe the 
investigation that Facebook undertook to root out these very 
corrosive effects on your platform?
    Mr. Zuckerberg. Congressman, I'd have to get back to you 
with more details on that, but I know that we have ongoing 
training in what we do, and we certainly will look into any 
complaints that come up. And we want to make sure that in how 
we run the content review teams, that it's done in a way that 
reflects the values of the company around giving everyone a 
voice and being a platform for all ideas.
    Mr. Gaetz. I'm concerned that the content review does 
reflect the values of the company, but those values don't, in 
fact, give everyone a voice. They prejudice against certain 
content. And while I appreciate training as a prophylactic 
endeavor to try to guide future content, it seems disingenuous 
for you to suggest that these videos come out that are very 
damning that show the people that you trust with content 
moderation admitting on video that they disadvantage 
conservatives, that they label people who support the President 
as a way to push down their content and limit the reach of that 
content.
    For you to then come to us many months later after that was 
all over the news and the internet and say, well, you know, 
you'll get back to us and you do a little training, it seems to 
suggest that you don't take these allegations and this evidence 
very seriously.
    And so I'll ask the question perhaps in a different way, 
would you revise your prior--you know, in your prior testimony 
to Energy and Commerce, you said that does not happen. It 
cannot happen. Would you at least be willing to acknowledge, 
based on the irrefutable evidence before us that you don't seem 
to have investigated that it is possible that at Facebook your 
employees do have the power to disadvantage conservative 
viewpoints and that they, in fact, have used that power in ways 
that we need to root out?
    Mr. Zuckerberg. Congressman, my testimony in the past and 
today is about what our principles are as a company and what we 
try to do. Of course, when you have tens of thousands of 
employees, people make mistakes, people have some of their own 
goals some of the time, and it's our job in running the company 
to make sure that we minimize errors and that we make sure that 
the company's operations reflect the principles that we intend 
to run it on.
    Mr. Gaetz. And when you fire people as a consequence of 
their politics, do you think that impacts the culture and 
perhaps empowers some of the content moderators to also treat 
people worse as a consequence of their politics?
    Mr. Zuckerberg. Congressman, I'm not sure what you're 
referring to, but I'm not aware of any case where we have fired 
someone because of their politics, and I would say that would 
be an inappropriate thing for us to do.
    Mr. Gaetz. Why did you fire Palmer Luckey?
    Mr. Zuckerberg. Congressman, I'm not sure it's appropriate 
to get into a specific personnel issue publicly, but I can 
assure you it was not----
    Mr. Gaetz. I mean, I could just tell you that Palmer 
Luckey's NDA with you--I only have 10 seconds, but Palmer 
Luckey's NDA with you doesn't allow him to talk to anyone 
except government officials. I'm a government official. I've 
seen the messages where you have specifically directed Mr. 
Luckey to make statements regarding his politics for the 
benefit of your company.
    So I think both in the case of these content moderators and 
in the case of the testimony you just gave regarding Mr. Luckey 
and firing people over their politics, there is serious 
question as to whether or not you're giving truthful testimony 
here or whether it's lying before Congress.
    I see my time is expired, and I'll yield back.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the gentlelady from Pennsylvania, Ms. 
Scanlon.
    Ms. Scanlon. Thank you, Mr. Chairman.
    Mr. Pichai, I wanted to focus a little bit on Google's 
acquisition of YouTube and some of the consequences of that 
move for consumer privacy and competition. Now, Google 
purchased YouTube in 2006 after identifying it as a potential 
rival that could eventually draw business away from Google, and 
it's my understanding Google paid $1.65 billion for that 
acquisition, nearly 30 times its original bid of $50 million.
    So could you tell us why Google was willing to pay so much 
more beyond the initial proposed bid, and was this the result 
of any analysis on the harm Google would suffer if a competitor 
had purchased YouTube?
    Mr. Pichai. Congresswoman, we acquired YouTube in 2006, and 
this was well before my time there as CEO, and I wasn't 
directly involved, but, you know, what I do recall at the time 
is that we saw it as a new emerging area, and we are--our 
mission is to help users with information. We saw an 
opportunity and it wasn't clear. YouTube only had 67 people.
    Ms. Scanlon. Okay. Was Mr. Page in charge of that decision?
    Mr. Pichai. Congresswoman----
    Ms. Scanlon. You don't know, okay.
    Mr. Pichai [continuing]. I wasn't directly involved, but I 
am pretty sure our senior leadership team at that time 
definitely looked into it.
    Ms. Scanlon. Okay. I would encourage the subcommittee to 
take the steps necessary to have us hear from whoever it was in 
charge of that.
    Moving on, Google is now by far the top online site where 
Americans watch videos, including children's videos. And as I'm 
sure you're aware, Federal law prevents companies from 
collecting data on children under 13. However, just last year, 
the Federal Trade Commission found that Google had spent years 
knowingly collecting data on children under 13 on YouTube and 
offering advertisers the ability to target those children 
directly.
    Mr. Pichai, did YouTube use the data it illegally acquired 
to improve its ability to target ads to children?
    Mr. Pichai. We are--you know, we are--this is an area, you 
know, we take it very seriously. I'm a parent too. We have 
invested tremendously. We have a dedicated product for kids in 
YouTube Kids on the main YouTube platform. We make sure we have 
clear policies. We enforce them rigorously.
    Just in Q4 in 2019, we flagged and removed almost close to 
1 million videos potentially for concerns around child safety. 
So it is an area we are investing rigorously, and we'll 
continue to do so.
    Ms. Scanlon. Okay. Well, I'm more concerned about the fact 
that you're investing rigorously in luring in advertisers like 
toy makers Mattel and Hasbro by telling them that YouTube is 
the number one website regularly visited by kids. So that 
sounds like you're targeting the kids and then targeting 
advertisers to bring them on board. Is that correct?
    Mr. Pichai. Today, in the main site of YouTube, we don't 
allow anyone under 13 to create accounts. There are scenarios 
in which there could be family viewing, and today there are 
creators who create content oriented towards families, and as 
part of that, there are advertisers which are interested in 
connecting with those users. But everything we do here we 
obviously comply with all the applicable regulations and it's--
--
    Ms. Scanlon. Okay. Well, let's look at some of the content 
that is specifically for children. COPPA makes it illegal to 
target those kids, but we've got an issue where content 
creators are in a very difficult position now. So, if a show 
like Sesame Street doesn't want to show ads for junk food on 
YouTube, does YouTube allow it to make that choice?
    Mr. Pichai. Today, we do--you know, we have choices both 
for creators in terms of, you know, tools and preferences, and 
we have extensive tools for advertisers. And above all, for 
users we give the choice, they can either use YouTube as a 
subscription service without seeing those types of ads, or, you 
know, they can use it for free with ads.
    So we give choice, and, you know, for us it is of utmost 
importance that YouTube is a place where people come to learn, 
and, you know, we find increasingly small and medium businesses 
use YouTube to thrive especially even during COVID particularly 
many----
    Ms. Scanlon. Okay. Let's go back to content that's designed 
for children. So, you know, if there's an organization like 
Sesame Street that wants to provide child-centered content but 
they don't want that content to be sullied, shall we say, with 
junk food ads or something, my understanding is that you say 
that the content creators can do that.
    But we've got a recent report from The Wall Street Journal 
that says YouTube hasn't been honoring those requests, and it's 
been making it difficult for independent auditing companies 
like OpenSlate to independently audit that and then report back 
to those content creators about whether or not YouTube is 
honoring those. Is that correct?
    Mr. Pichai. I'm not familiar with the particular report, 
but I'm happy to understand it better and, you know, have my 
office follow up with your staff, Congresswoman.
    Ms. Scanlon. I would appreciate that. And my time is 
expired. I yield back.
    Mr. Neguse [presiding]. The gentlewoman yields back.
    The chair will now recognize himself for 5 minutes.
    Mr. Bezos, thank you for being here today. In your opening 
statement, you--I reviewed your written testimony--you 
indicated, and I'll just quote, that Amazon accounts for less 
than 1 percent of the $25 trillion global retail market and 
less than 4 percent of retail in the U.S., end quote.
    When you refer to retail--I take it based on the empirical 
studies I reviewed--you're referring to a broad definition of 
retail that includes restaurants, bars, gas stations, it's a 
fairly all-encompassing view of retail. I wonder if you know 
what percentage of Amazon's sales are represented in the terms 
of online retail sales, the e-commerce market stream?
    Mr. Bezos. The figures I've seen for--you know, I don't--
with all respect, I don't accept that e-commerce is a different 
market. But as a different channel, what I've seen is sort of 
30 to 40 percent is the outside studies that I've seen were 
Amazon's share of that e-commerce channel.
    Mr. Neguse. And that's consistent with the data that I have 
seen.
    Mr. Bezos. Okay.
    Mr. Neguse. The latest figure I saw was 40 percent. And so, 
in terms of how we define it, whether it's a stream or a 
channel, nonetheless, I do think that factually it's important. 
It's an important distinction that I want to make sure we clear 
here.
    Obviously, I suspect you understand more than most that the 
early stages of a startup where entrepreneurs are undertaking 
risks to bring up their products and services to market. Over 
the course of our investigation, we've heard directly from 
startups who rely on Amazon services, and that includes 
obviously Representative Jayapal's questions, Representative 
Buck, my colleague from Colorado, with respect to concerns 
about the way in which Amazon uses confidential information.
    But we've also heard that, not just with respect to the 
marketplace but Amazon's cloud computing arm, AWS, the notion 
that that computing arm essentially identifies startups' best 
technologies and rolls out replica products and services. So, 
Mr. Bezos, does Amazon use confidential information that 
companies share via AWS to build competing services?
    Mr. Bezos. No, sir, not that I'm aware of. AWS does often--
you know, they do keep expanding their services. AWS started, 
you know, 15 years ago. We invented this entire category.
    Mr. Neguse. Let me just clarify that, Mr. Bezos. I 
appreciate that, sorry. Apologies for interrupting. But last 
week one of Amazon's former engineers posted online that he and 
his team, quote, ``proactively identified growing businesses on 
AWS,'' that they built competing products, and that they 
targeted those products to the businesses' customers, and 
there's been public reporting on that strategy. So I guess I 
wonder if you can comment on that and how you would account for 
those statements.
    Mr. Bezos. Well, I think there may be categories--I know 
some--databases of different kinds and so on where we see that 
it's an important product for customers, and we make our own 
product offering in that arena. But it doesn't mean we stop 
servicing the other companies that are also making those 
products. We have competitors using AWS, and we work very hard 
to make them successful. Netflix is one example, Hulu is 
another, and so on.
    Mr. Neguse. I think the concern, Mr. Bezos, with respect, 
is that the pattern emerges across the different components in 
Amazon, whether it's the marketplace or whether it's the cloud 
services I mentioned.
    In addition, there was an article, I'm sure you're aware, 
in The Wall Street Journal regarding the Alexa Fund, that 
according to news reports Amazon's venture capital fund, the 
Alexa Fund, had invested in a number of different companies. I 
believe you're familiar with the Alexa Fund investing, for 
example, in DefinedCrowd Corp.? Does that ring a bell?
    Mr. Bezos. No, sir, I'm afraid it doesn't.
    Mr. Neguse. Okay. Well, I'll represent to you, according to 
The Wall Street Journal, and I'll just quote from them, ``When 
Amazon, Incorporated's venture-capital fund invested in 
DefinedCrowd Corp., it gained access to the technology 
startup's finances and other confidential information. Nearly 4 
years later, in April, Amazon's cloud-computing unit launched 
an artificial intelligence product that does almost exactly 
what DefinedCrowd does, said DefinedCrowd founder and chief 
executive Daniela Braga. Does that refresh your recollection? 
Are you aware of those allegations?
    Mr. Bezos. I read that article, but I didn't remember that 
piece of it. I apologize for that. I don't know the specifics 
of that situation, and I would be happy to get back to your 
office with more information about that.
    Mr. Neguse. Well, I would appreciate it. I certainly would 
welcome that, and to the extent that you all can follow up with 
the subcommittee, with respect to this particular article and 
the different episodes that are referenced both in terms of 
DefinedCrowd Corp. There's also another company called Nucleus 
that you may be familiar with.
    The reason why I ask these questions, the reasons why it 
matters, Mr. Bezos, to me is that we are very concerned about 
this innovation kill zone that seems to be emerging. I 
represent Boulder and Fort Collins, two of the fastest growing 
and most innovative tech hubs in the country.
    And entrepreneurs and founders shared their stories with 
this committee during one of our field hearings, actually a 
field hearing that we held at the University of Colorado Law 
School just earlier this year. And they are extremely dependent 
on big technology firms, including in terms of investment in 
capital, yet they live in constant fear that the platforms 
could steal their core technologies or ideas making it 
impossible to compete because of those existing advantages.
    So I see my time has expired, but we will certainly be 
following up with respect to the episodes that I referenced. 
With that, I would yield back. The gentleman's time is expired.
    And the gentlewoman from Georgia, Mrs. McBath, is 
recognized for 5 minutes.
    Mrs. McBath. Thank you, Mr. Chair.
    Mr. Cook, Facebook acquired WhatsApp in 2014, and at that 
time, Sheryl Sandberg told the board that the deal was critical 
for countering the App Store power of Apple and Google who 
choke off Facebook's access to mobile devices. Was Sheryl 
Sandberg correct? Does Apple have the power to exclude apps 
from the App Store?
    Mr. Cook. If you look at the history of this, 
Congresswoman, we've increased the number of apps from 500 to 
1.7 million. So there's a very wide gate for the App Store, and 
there's fierce competition for developers, and we want every 
app we can on the platform.
    Mrs. McBath. Okay. So, but, Mr. Cook, then what you're 
saying is that Apple can exclude apps from the App Store; in 
fact, it has. In 2018, Apple introduced an app called Screen 
Time, which helps people limit the amount of time they or their 
kids spend on their iPhones. Is that correct?
    Mr. Cook. It sounds right.
    Mrs. McBath. Okay. But before Screen Time existed, there 
were other apps in the App Store that gave parents control over 
the kids' phone usage, apps like OurPact and Kidslox, and 
parents depended on them.
    Soon after you introduced Screen Time, however, you removed 
these competing apps from the App Store. One mother wrote to 
Apple saying, and I quote her, ``I am deeply disappointed that 
you have decided to remove this app and others like it, thereby 
reducing consumer access to much-needed services to keep 
children safe and protect their mental health and well-being.''
    Mr. Cook, why did Apple remove competing apps right after 
you released Screen Time?
    Mr. Cook. We were concerned, Congresswoman, about the 
privacy and security of kids. The technology that was being 
used at that time was called MDM, and it had the ability to 
sort of take over the kid's screen and a third party could see 
it, and so we were worried about their safety.
    Mrs. McBath. Okay. Thank you. I appreciate that.
    Mr. Cook. Today we have----
    Mrs. McBath. I appreciate that, but the timing of the 
removal seems very coincidental. If Apple wasn't attempting to 
harm competitors in order to help its own app, why did Phil 
Schiller, who runs the App Store promote the Screen Time app to 
customers who complained about the removal of rival parental 
control apps?
    Mr. Cook. Congresswoman, I can't see this email. I am 
sorry. My eyes are not good enough to read it. But I see Screen 
Time as just an alternative, that there are over 30 parental 
control apps that are in the App Store today, and so there is 
vibrant competition for parental controls out there.
    Mrs. McBath. Okay. Well, Mr. Cook, the fact is that Apple 
sidelined Screen Time's competition by keeping them out of the 
App Store. And while Apple claims these competitors weren't 
meeting Apple's privacy standards, these app creators say that 
you admitted them back in 6 months later without requiring 
significant privacy changes.
    And, of course, 6 months is truly an eternity for small 
businesses to be shut down, even worse if all the while a 
larger competitor is actually taking away customers. And, you 
know, this is not the first time something like this seems to 
have happened, Mr. Cook. Let me give you another example, you 
know, of the harm that's been caused to your competitors.
    In 2010, Apple introduced an online bookstore called the 
iBookStore where it offered e-books, and the only major 
publisher that didn't agree to join iBookStore was Random 
House. Random House wanted to offer its own e-books through its 
own apps and submitted their apps to be added to the App Store.
    Amidst continued negotiations between Apple and Random 
House, senior VP Eddy Cue said, and I'm quoting him when he 
said, it prevented an app from Random House from going live in 
the App Store. Cue himself cited this app rejection as a factor 
in finally getting Random House to give in and join iBookStore.
    Mr. Cook, is it fair for Apple to use its power over the 
App Store to pressure a business to join Apple's own app?
    Mr. Cook. I can't see the email and so I don't know the 
context of it, but there are many reasons why an app might not 
initially go through the App Store gate, because it may not 
work properly. There may be other issues with it. So it's very 
difficult to see.
    What I would say though on a macro basis, the gate to the 
App Store is very wide. We have 1.7 million apps in it. It has 
become an economic miracle with over $138 billion of commerce 
just in the United States.
    Mrs. McBath. Well, Mr. Cook, I really, really appreciate 
that sentiment, but, you know, I want to say to you that Apple 
enjoys enormous power to control which apps can reach 
consumers. Even some of the largest companies in the country 
fear your power.
    Our evidence suggests that your company has used its power 
to harm your rivals and boost your own business. This is 
fundamentally unfair and harms small businesses that rely on 
you to reach customers and stifles the innovation that is the 
life blood of our economy. Ultimately, it reduces the 
competition and choices that are made available to consumers, 
and that is a great concern to all of us.
    And I yield back.
    Mr. Cicilline [presiding]. The gentlelady yields back.
    That concludes that round. In light of the request of Mr. 
Gaetz for a third round and because many of my colleagues would 
like to get more fulsome answers on a number of issues, we'll 
proceed to a final round, and my expectation is we will 
conclude within the hour. And I'll recognize myself for 5 
minutes.
    Mr. Zuckerberg, we've seen the dominance of several of the 
companies appearing before us today, that it's not just harmful 
to our economy and competition, but it's harmful to the 
founding principles of our democracy. Facebook and Google are 
designed to keep users on their platforms whatever the cost. 
Because disinformation, propaganda, and hateful speech are good 
for engagement, they're good for business.
    But over 100 years ago, the Supreme Court Justice Oliver 
Wendell Holmes, Jr. wrote, ``The most stringent protection of 
free speech would not protect a man in falsely shouting fire in 
a theater and causing panic.''
    My first question is, Mr. Zuckerberg, do you agree with 
that principle, that there are limits to harmful and false 
speech and that are particularly important when it comes to the 
health and safety of the public?
    Mr. Zuckerberg. Congressman, I certainly do, and I actually 
think that our policies go further than just limiting those 
types of things.
    Mr. Cicilline. Well, Mr. Zuckerberg, you have 1 billion 
users and almost 50,000 employees, and so you agree you have a 
responsibility to remove harmful lies from your platform, 
correct?
    Mr. Zuckerberg. Congressman, I think we have a 
responsibility to limit the spread of content that's going to 
be harmful for people. And also if--I'd like to add that I do 
not believe that we have any incentive to have this content on 
our service. People don't like it----
    Mr. Cicilline. Mr. Zuckerberg, with all due respect, except 
that it is often the most engaging. It's the most--it brings 
the most likes or it brings the most activity which, of course, 
produces great profit. So you do have an incentive. The more 
engagement there is, the more money you make on advertising.
    So let me ask you a question. Let me give you some specific 
examples that will illustrate my concerns. These are some of 
the top ten most shared articles on Facebook in 2020: ``Trump 
Suggests `Injection' of Disinfectant to Beat Coronavirus and 
Clean the Lungs,'' ``Coronavirus Hype Biggest Political Hoax in 
History,'' ``U.S. Hospitals Getting Paid More to Label Cause of 
Death As Coronavirus.''
    During the greatest public health crisis of our lifetime, 
don't you agree that these articles viewed by millions on your 
platform will cost lives?
    Mr. Zuckerberg. Congressman, with respect, we certainly 
have policies that prohibit false information about COVID that 
would lead to imminent harm, and we've been quite aggressive 
about taking that down as some of the questioning from the 
other side of the aisle has shown so far.
    Mr. Cicilline. Well, Mr. Zuckerberg----
    Mr. Zuckerberg. I am proud of our efforts here. We've----
    Mr. Cicilline. With all due respect, the problem is 
Facebook is profiting off of and amplifying disinformation that 
harms others because it's profitable. This isn't a speech 
issue. It's about Facebook's business model that prioritizes 
engagement in order to keep people on Facebook's platform to 
serve up more advertisements.
    So I'll ask it very specifically, what are you doing right 
now to protect people from demonstrably false claims related to 
this deadly pandemic?
    Mr. Zuckerberg. Congressman, I'll certainly answer that, 
but I have to disagree with the assertion that you're making 
that this content is somehow helpful for our business. It is 
not what people want to see, and we rank our--what we show in 
News feed is based on what is going to be the most meaningful 
to people and is going to create long-term satisfaction, not 
what's just going to get engagement or clicks today. That is a 
common misperception about the company.
    Mr. Cicilline. Sir, if that's true--if that's true, Mr. 
Zuckerberg, how do you explain that on Monday, the second most 
popular post on Facebook was a Breitbart video claiming that 
you don't need a mask and hydroxychloroquine is a cure for 
COVID, and in the first 5 hours after being posted on Facebook, 
it racked up 20 million views and over 100,000 comments before 
Facebook acted to remove it?
    Mr. Zuckerberg. Well, Congressman, a lot of people shared 
that, and we did take it down because it violates our policies. 
We work with the CDC to----
    Mr. Cicilline. After 20 million people saw it over the 
period of 5 hours. I mean, doesn't that suggest, Mr. 
Zuckerberg, that your platform is so big that, even with the 
right policies in place, you can't contain deadly content?
    Mr. Zuckerberg. Congressman, I don't think so. I think we 
have, on COVID misinformation in particular, a relatively good 
track record of fighting and taking down lots of false content, 
as well as putting up authoritative information. We have built 
a COVID information center----
    Mr. Cicilline. Well, I understand that.
    Mr. Zuckerberg [continuing]. With authoritative information 
from health officials that we have put----
    Mr. Cicilline. Thank you, Mr. Zuckerberg. One more 
question.
    Mr. Zuckerberg [continuing]. And shown more than 2 billion 
people.
    Mr. Cicilline. I appreciate that, Mr. Zuckerberg.
    When a television station runs a false political 
advertisement, they're held liable for that. Why should 
Facebook or any other platform be different? While you may not 
be a publisher, you're responsible maybe not for the first 
posting, but you then take that posting and you apply a set of 
algorithms that decide how you will disseminate that, which is 
a business decision, not a First Amendment decision. And it's 
hard to understand why Facebook shouldn't be responsible for 
those business decisions.
    Mr. Zuckerberg. Congressman, in terms of political ads, 
we've modeled a lot of our policies off of the FCC guidelines 
on broadcasters and their requirements to run political ads 
equally from all different sides----
    Mr. Cicilline. I think these examples unfortunately, Mr. 
Zuckerberg, are just the tip of the iceberg. It's not just 
about COVID. Facebook hosts or enables countless of pages in 
ads that are dedicated to conspiracy theories and calls to 
violence, including content that led to the white supremacist 
rally in Charlottesville in 2017.
    And Facebook gets away with it because you're the only game 
in town. There's no competition forcing you to police your own 
platform. Allowing this misinformation to spread can lead to 
violence, and, frankly, I believe it strikes at the very heart 
of the American democracy.
    And, with that, I now recognize the gentleman from Florida, 
Mr. Gaetz, for 5 minutes.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Mr. Pichai, in 2016, there was an internal Google meeting. 
You attended that meeting along with Sergey Brin. A video of 
that meeting was leaked to Breitbart. And at the meeting, top 
Google executives, including Kent Walker, lamented Trump's 
victory, they compared Trump voters to extremists, and it was 
discussed that there was an intent to make the Trump win a blip 
in the populous movement in American history.
    Now, I know you've testified today in response to my 
questions and Mr. Jordan's questions that you don't intend this 
time to engage in electioneering on behalf of the former Vice 
President. But given the video evidence of senior members of 
your team in your presence saying that they had the intent to 
make the Trump victory a blip, why should we believe that 
testimony today?
    Mr. Pichai. Congressman, we do not have a view on--we 
respect the democratic process. We are deeply committed to it. 
As a company, we take pride in the information we provide to 
help people participate in free elections, and we are deeply 
committed to it, as I said to Congressman Jordan as well.
    Mr. Gaetz. Do you remember that meeting in 2016?
    Mr. Pichai. Congressman, yes, I do. Yes, I do. It was in 
the context of, you know, to the election across both sides, 
there was a lot of opinions. And as you know, elections are 
kind of a polarizing moment generally in the country, and there 
was a lot of rhetoric about certain issues which were affecting 
our employees and----
    Mr. Gaetz. Oh, I understand rhetoric. I guess the question 
is, when the senior members of your team in your presence said 
that they did have the intent to change the outcome in a 
subsequent election and then, since that moment in time, where 
we've seen all of these conservative websites and conservative 
viewpoints censored, you can understand why people would be 
concerned.
    So, after your employees and top executives said in your 
presence that they intended to make the Trump victory a blip, 
what action did you take as the CEO to protect and preserve the 
neutrality of your platform?
    Mr. Pichai. Congressman, no one had a view on, you know, 
ever interfering with elections or so on. But what I can tell 
you is we have made it very clear--about 2 years ago, we 
announced new community guidelines for within Google clearly 
making it clear that, you know, employees can--obviously are 
free to have their political views.
    But none of that should ever--they shouldn't bring that as 
they work on any of our products, and if we found any evidence 
that people are using a political agenda to manipulate any of 
our content platforms, we will take strong enforcement action.
    Mr. Gaetz. Well, unfortunately, we have sort of a string of 
events here. We have the 2016 meeting, where people 
demonstrated their intent to make changes to hurt the 
President. Then we have your testimony today that's a little 
different than your testimony from December where you say 
people can manipulate blacklists.
    And then you have the outcome, where sites like Breitbart 
and Gateway Pundit and others see that disparate treatment. So 
it really doesn't take Sherlock Holmes here to connect the dots 
and see what Google is doing.
    I'm going to move on with my final 90 seconds. Mr. Bezos, I 
am deeply moved by your personal story. I am not here accusing 
you as someone who would ever traffic in hate, but it seems you 
have empowered people who do. And I'm particularly talking 
about the Southern Poverty Law Center.
    The Southern Poverty Law Center, which you allow to dictate 
who can receive donations on your AmazonSmile platform, have 
said the Catholic Family News, Catholic Family Ministries, the 
Federation for American Immigration Reform, the American Family 
Association, the Family Research Council, the Jewish Defense 
League, and even Dr. Ben Carson are extremists and should be 
treated differently.
    Dr. Carson is on the Cabinet and is one of the most 
renowned minds in America. I'm just wondering why you would 
place your confidence in a group that seems to be so out of 
step and seems to take mainstream Christian doctrine and label 
it as hate?
    Mr. Bezos. Sir, it's a good question. We have--for those of 
you that don't know what AmazonSmile is, it's a program that 
allows customers to designate a certain fraction of their 
purchases to go to charity that we then pay for, and they can 
select from any one of millions of charities. And we use the 
Southern Poverty Law Center data to say which charities are 
extremist organizations. We also use the U.S. Foreign Asset 
Office to do the same thing, so those two together----
    Mr. Gaetz. But why? Since they're calling Catholics and 
these Jewish groups hateful groups, why would you trust them?
    Mr. Bezos. Sir, I'm going to acknowledge this is an 
imperfect system.
    Mr. Gaetz. No doubt.
    Mr. Bezos. And I would love suggestions on better--or 
better or additional sources for how to----
    Mr. Gaetz. My suggestion would be a divorce from the SPLC, 
and I see that I'm out of time and I yield back.
    Mr. Cicilline. The gentleman yields back.
    I now recognize the chair--sorry. I recognize the gentleman 
from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Facebook is dominant, not just in the social media market 
but also in its digital surveillance capabilities. In 2012, 
Facebook had several tools that allowed it to conduct digital 
surveillance, including trackers, Facebook's Like button, 
Facebook login, and a series of application programming 
interfaces, or APIs.
    Mr. Zuckerberg, these tools provide Facebook with insights 
into its competitors' websites and apps. Isn't that correct? 
Yes or no.
    Mr. Zuckerberg. Congressman, I'm--I think broadly the 
answer to what you're saying is, yes.
    Mr. Johnson. All right.
    Mr. Zuckerberg. We--every other company here do market 
research to understand what people are finding valuable and----
    Mr. Johnson. Okay. So you're going beyond the scope of my 
question. I appreciate that answer though.
    Mr. Zuckerberg, a few days before Facebook acquired 
Instagram, a Facebook vice president emailed you suggesting 
ways to improve Facebook's, quote, ``competitive research,'' 
end quote. By building a custom model Facebook could improve 
its understanding of its competitors and, quote,``make more 
bold decisions on whether they are friends or foes'', end 
quote.
    Mr. Zuckerberg, how does Facebook improve its competitive 
research to distinguish friends from foe?
    Mr. Zuckerberg. Congressman, I'm not sure exactly what he 
was referring to in that email there, but he is one of the 
people involved in running our analytics organization, and I 
think it's natural that he would, as part of his 
responsibility, be focused on market research and understanding 
more there.
    Mr. Johnson. And, certainly, isn't it true that Facebook, 
after that conversation, purchased the web analytics company 
Onavo in 2013 to give Facebook more capability to monitor its 
competitors?
    Mr. Zuckerberg. Congressman, I think you have the timing 
correct. We purchased Onavo as part of our broader market 
research capacity.
    Mr. Johnson. And that would give you the capability to 
monitor your competitors, correct?
    Mr. Zuckerberg. Congressman, it gave aggregate analytics as 
to what people were using and what people were finding 
valuable, sort of like the type of product you would get from 
Nielsen or Comscore, or some of the other third-party companies 
that provide similar data.
    Mr. Johnson. Well, Mr. Zuckerberg, that acquisition gave 
you nonpublic real-time data about engagement, usage, and how 
much time people spend on apps. And when it became public that 
Facebook was using Onavo to conduct digital surveillance, your 
company got kicked out of Apple's App Store. Isn't that true?
    Mr. Zuckerberg. Congressman, I'm not sure I'd characterize 
it in that way. I think this is part of the problem----
    Mr. Johnson. Well, Onavo did get kicked out of the App 
Store. Isn't that true?
    Mr. Zuckerberg. Congressman, I believe we took the app out 
after Apple changed their policies about protecting VPN apps.
    Mr. Johnson. And it was because of the use of these 
surveillance tools?
    Mr. Zuckerberg. Congressman, I'm not sure that the policy 
was worded that way or that that's exactly the right 
characterization of it, but----
    Mr. Johnson. Okay, well, let me ask you this question. Let 
me ask you this question. After Onavo was booted out of the App 
Store, you turned to other surveillance tools, such as Facebook 
Research app, correct?
    Mr. Zuckerberg. Congressman, in general, yes, we do a broad 
variety of----
    Mr. Johnson. And, also, isn't it true, Mr. Zuckerberg, that 
Facebook paid teenagers to sell their privacy by installing 
Facebook Research app?
    Mr. Zuckerberg. Congressman, I'm not familiar with that, 
but I think it's a general practice to be able to--that 
companies used to have different surveys and give--understand 
data from how people are using different products and what 
their preferences are.
    Mr. Johnson. Facebook Research app got thrown out of the 
App Store too. Isn't that true?
    Mr. Zuckerberg. Congressman, I'm not familiar with that.
    Mr. Johnson. Okay. Well, over nearly a decade, Mr. 
Zuckerberg, you led a sustained effort to surveil smaller 
competitors to benefit the Facebook--to benefit Facebook. These 
were steps taken to abuse data, to harm competitors, and to 
shield Facebook from competition. You tried one thing and then 
you got caught, made some apologies, then you did it all over 
again. Isn't it true?
    Mr. Zuckerberg. Congressman, I respectfully disagree with 
that characterization. I think every company engages in 
research to understand what their customers are enjoying so 
they can learn and make their products better. And that's what 
we were trying to do. That is what our analytics team was 
doing. And I think, in general, that allowed us to make our 
services better for people to be able to connect in a whole lot 
of different ways, which is our goal.
    Mr. Johnson. Did you use that capability to purchase 
WhatsApp?
    Mr. Zuckerberg. Congressman, it was one of the signals that 
we had about WhatsApp's trajectory, but we didn't need it. 
Without a doubt, it was pretty clear that WhatsApp was a great 
product. I already had a relationship with Jan Koum, the 
founder, and----
    Mr. Johnson. And it was a competitor.
    Mr. Cicilline. The gentleman's time has expired.
    I now recognize the gentleman from Florida, Mr. Steube.
    Mr. Steube. Thank you, Mr. Chairman.
    I have a question for all four, a yes-or-no answer. Do you 
believe that the Chinese Government steals technology from U.S. 
companies?
    We'll start with Mr. Cook.
    Mr. Cook. I don't know of specific cases where we have been 
stolen from by the government.
    Mr. Steube. So you don't believe that the Chinese 
Government is stealing technology from U.S. companies? Or 
you're just saying not from yours?
    Mr. Cook. I'm saying I know of no case, ours, where it 
occurred, which is--I can only speak to firsthand knowledge.
    Mr. Steube. Mr. Pichai, do you believe that the Chinese 
Government steals technology from United States companies?
    Mr. Pichai. Congressman, I have no firsthand knowledge of 
any information stolen from Google in this regard.
    Mr. Steub. Mr. Zuckerberg.
    Mr. Zuckerberg. Congressman, I think it's well-documented 
that the Chinese Government steals technology from American 
companies.
    Mr. Steube. Yeah. Thank you.
    Mr. Bezos.
    You're on mute.
    Mr. Cicilline. Mr. Bezos, I believe you're on mute.
    Mr. Bezos. I'm sorry. I was saying I have heard many 
reports of that, and I haven't seen it personally, but I've 
heard many reports of it.
    Mr. Steube. So, of all the different products that Amazon 
carries, you haven't seen that in any of the companies that 
sell products on Amazon or your company yourself?
    Mr. Bezos. Well, certainly, there are knock-off products, 
if that's what you mean, and there are counterfeit products and 
all of that. But the Chinese--if the answer is the Chinese 
Government is stealing technology, that's the thing I have read 
reports of but don't have personal experience with.
    Mr. Steube. It's no secret that Europe increasingly seems 
to have an agenda of attacking large, successful U.S. tech 
companies. Yet Europe's approach to regulation in general, and 
antitrust in particular, seems to have been much less 
successful than America's approach.
    America is a remarkable nursery for innovation and 
entrepreneurship and pursuit of the American Dream. As you all 
know from direct experience, this is a country where it's 
possible to start a company from a garage or a dorm room and 
experience tremendous success.
    Do you have any recommendations on how Congress can better 
protect U.S. firms and U.S. companies from aggression and 
government intervention abroad, not just in Europe but in China 
as well?
    Anybody that would like to chime in. I'll open it up to any 
of you.
    None of you have any recommendations on how Congress can 
better protect U.S. companies like yourself?
    All right. Well, I'll yield the remainder of my time to Mr. 
Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    Mr. Zuckerberg, what is a digital land grab?
    Mr. Zuckerberg. Congressman, I'm not sure what you're 
referring to.
    Mr. Gaetz. Well, in the emails that your company produced 
to the committee, there's one from David Wehner in 2014 where 
he's describing, under the mergers and acquisitions advice 
within the company, that you need to engage in a land grab. And 
he says, ``I hate the word `land grab,' but I think that's the 
best convincing argument, and we should own that.''
    And it goes on to describe a strategy wherein Facebook 
would spend 5 to 10 percent of its market cap each year to 
shore up its market position.
    Does that refresh your recollection?
    Mr. Zuckerberg. Yes, Congressman. Thanks for the 
opportunity to address this and, frankly, to correct the 
record, because I believe that what he was referring to was a 
question that was incoming from investors about whether we 
would continue to acquire different companies. I don't think 
that was--that wasn't referring to an internal strategy; it was 
referring to an external question that we were facing about how 
investors should expect us to act going forward.
    And I think he was discussing the fact that, as mobile 
phones were growing in popularity, there were a lot of new ways 
that people could connect and communicate that were part of 
this overall broader space and market around human connection 
and helping people stay connected and share their experiences 
that were----
    Mr. Gaetz. Okay, but, Mr. Zuckerberg, it seems to be both 
internal and external, because then in an email from you in 
2012, we see a similar sentiment expressed. You write, ``We can 
likely always just buy any competitive startups.''
    So is your desire to limit competition by purchasing your 
competitors consistent with the message to your investors that 
the way you'll run your company is through digital land grabs?
    Mr. Zuckerberg. Congressman, I'm not sure I agree with the 
characterization of how we communicated with investors, but----
    Mr. Gaetz. Your words, Mr. Zuckerberg.
    Mr. Zuckerberg. But I think the broader point is that there 
were a lot of new ways that people can connect that were 
created by smartphones, and we----
    Mr. Gaetz. But this is about your merger and acquisition 
strategy. You went on to say, ``One thing about startups is you 
can often acquire them.''
    So, I mean, I'm not interested in how people connect. I'm 
interested in how you acquire businesses to limit competition.
    Mr. Cicilline. The gentleman's time has expired, but the 
witness may answer the question.
    Mr. Zuckerberg. Congressman, in order to serve people 
better and help people connect in all the ways that we want, we 
innovated and built a lot of new use cases internally and we 
acquired others.
    And that, I think, has been a very successful strategy at 
serving people well. And a lot of the companies that we've been 
able to acquire have gone on to reach and help connect many 
more people than they would've been able to on their own. You 
know----
    Mr. Gaetz. You've grabbed a lot of land, I would say.
    I yield back, Mr. Chairman.
    Mr. Cicilline. Thank you.
    The gentleman yields back.
    I now recognize the chair of the full committee, Mr. 
Nadler, for 5 minutes.
    Chairman Nadler. Thank you, Mr. Chairman.
    Mr. Cook, we've heard from businesses that Apple is 
canvassing the App Store to determine whether it can extract 
commissions from apps that have changed their business models 
in response to the pandemic. Businesses that relied on in-
person interactions have moved online, and Apple is looking for 
its cut.
    My staff has heard from some of the affected businesses. 
They say you're calling them up, demanding your 30 percent. 
Isn't this pandemic profiteering?
    Mr. Cook. We would never do that, Mr. Chairman. The 
pandemic is a tragedy, and it's hurting Americans and many 
people from all around the world, and we would never take 
advantage of that.
    I believe the cases that you're talking about are cases 
where something has moved to a digital service, which 
technically does need to go through our commission model. But 
in both of the cases that I'm aware of, we are working with the 
developers.
    To sort of zoom out and to give you some historical context 
on this, when we entered the app store market, the cost of 
distributing software was 50 to 70 percent. And so we took the 
rate in half, to 30 percent, and we've held it in that same 
level over time or lowered it.
    It's now responsible for 2 million jobs across America. And 
84 percent of the apps on the store are distributed for free, 
where 100 percent of the proceeds go to the developer. Only 
that 16 percent is subject to a commission of either 15 or 30 
percent.
    Chairman Nadler. And school is about to start around the 
country, and millions of parents and students will attend 
school online. They will rely on apps to talk to teachers, 
tutors, and virtual learning tools.
    Are these online learning tools next on Apple's--are they 
on Apple's list to monetize?
    Mr. Cook. They're not, Mr. Chairman. We would--we will--
we're very proud of what we've done in education. We are 
serving that market in a significant way, including tons of 
donations. And we will work with the people that happen to move 
from a physical to a virtual world because of the pandemic.
    Chairman Nadler. And----
    Mr. Cook. We've done a lot to address COVID, in general, as 
a company. We've sourced and donated 30 million masks, turning 
our supply chain into something that would be great for 
America. We've designed a face shield and donated 10 million of 
those. We're donating significant----
    Chairman Nadler. Okay.
    Mr. Cook [continuing]. Amounts of money across the U.S.
    Chairman Nadler. Thank you. Thank you.
    Now----
    Mr. Cook. Thank you.
    Chairman Nadler [continuing]. We've heard that Apple is now 
trying to extract commissions from various apps that previously 
didn't pay you anything. You approved, we're told, the email 
app HEY and then, days later, threatened to kick it out of the 
App Store unless it built a way to give you a cut of revenue.
    The COO of Basecamp, maker of the HEY app, testified before 
our committee earlier this year. He was concerned about Apple's 
monopoly over software distribution on iOS devices. And he 
seems to have been right. Apple says services like HEY have 
always been required to cut Apple in, but you previously didn't 
interpret your rules that way--you didn't enforce your rules 
this way.
    So would you comment on this, please?
    Mr. Cook. Mr. Chairman, I would. HEY is in the store today, 
and we're happy that they're there. I believe that they have--a 
version of their product is for free, and so they're not paying 
anything on that.
    I would also say, the 30 percent--I hope you give me a time 
to explain this--or 15 percent is for lots of different 
services, from programming languages, to compilers, to 150,000 
APIs. It has been an economic miracle to allow the person in 
their basement to start a company, a global company, and serve 
175 countries in the world. It is amazing. Likely the highest 
job creator in the last decade.
    Chairman Nadler. I see.
    And you haven't changed the rules in such a way as to make 
apps pay when they weren't paying before?
    Mr. Cook. I know of no case where we've done that. I'm sure 
we've made errors before. We get 100,000 different apps 
submitted a week, and we've got 1.7 million on the store. But 
across that period of time, we've never raised commissions, 
from the first day the App Store went into effect back in 2008. 
We've only lowered them.
    Chairman Nadler. Well, thank you.
    I see my time has expired. I yield back.
    Mr. Cicilline. The gentleman yields back.
    Mr. Cook. Thank you for the question.
    Mr. Cicilline. I now recognize the gentleman from North 
Dakota, Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    Mr. Pichai, in 2015, Google announced that it would not 
allow third parties to buy YouTube ads via AdX. That means that 
ad buys on YouTube are conducted only through Google demand-
side products.
    Google justified this change by citing privacy and user 
experience. My understanding is that Google cited a concern 
that third-party digital ad participants would develop user 
profiles based on this viewing. It is also my understanding 
that, even under the GDPR, you allow users to provide consent 
which would authorize this type of activity.
    It seems that this policy, regardless of the privacy 
concerns, reduced competition for demand-side platforms on 
YouTube. Do you agree?
    Mr. Pichai. Congressman, we are always looking to improve 
the YouTube experience. Part of being able to integrate the 
space while in YouTube, we've been able to innovate with 
something called TrueView ads. So, for users, we give them 
skippable ads. If they find the ads not to be relevant, they 
can skip past those ads.
    And, you know, monetizing YouTube well is what allows--
today, we have many, literally hundreds of thousands of 
creators earning a livelihood. And many of them are small and 
medium businesses. So we want to support that well, and so we 
are focused on that. Allowing this type of integration is what 
allows us to create that user experience.
    Mr. Armstrong. But after Google stopped allowing third 
parties to buy YouTube ads via AdX, Google limited the 
interoperability of third-party analytics on YouTube. You now 
require the use of ads on Data Hub.
    Again, the justification is based on user privacy. Other ad 
market participants may not have access to that data, but it 
doesn't disappear, does it?
    Mr. Pichai. Congressman, this is consistent with how today 
many services, be it Facebook or Snapchat or Pinterest, you 
work with their ad tools to buy ads on their properties. I 
think we are trying----
    Mr. Armstrong. Well, I understand that, but the excuse is 
privacy. But the data doesn't disappear; you just have greater 
control over it, right?
    Mr. Pichai. Congressman, it's a service we provide to our 
users. We obviously want to make sure we protect the privacy of 
users there.
    We do monetize with ads. We give users a choice of either 
consuming it as a subscription service or using it with ads. 
And we've been very focused on making YouTube a great platform 
for creators, and I think the model is working well. It's 
really helped many small and medium businesses to invest on the 
platform and grow their businesses.
    Mr. Armstrong. So, regardless if the intent was to lessen 
competition or not, the action resulted in smaller competitors 
unable to participate in placing ads on YouTube. Isn't that 
correct?
    Mr. Pichai. Congressman, we see robust choice for, you 
know, advertisers. You know, there are several alternatives. 
There is, obviously, Facebook's suite of products. There is 
Amazon with their ads marketplace. There is companies like 
Snapchat, Pinterest, Twitter that are new competitors who have 
emerged. And this is why we have seen advertising costs decline 
by 40 percent in the last 10 years. And so we see dynamism in 
the marketplace. We are focused on----
    Mr. Armstrong. Yeah, but here is my issue. And there are 
policies that actually protect user privacy: Apple's encryption 
policy. Microsoft just came out on facial recognition policy. 
My concern is that your--the position is that, when we're using 
privacy, we're trying to use privacy and we're using privacy as 
a shield, but what we're really doing and what your company is 
really doing is using it as a cudgel to beat down the 
competition.
    And when we're talking about privacy, it's a great word 
that people care about, but not when it's utilized to control 
more of the marketplace and squeeze out smaller competitors.
    And, with that, I'd yield the remainder of my time to Mr. 
Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    Mr. Bezos, we were cut short in our last discussion. I just 
wanted to give you the chance to clear this up. You don't 
believe Dr. Ben Carson is an extremist, do you?
    Mr. Bezos. No, sir, I don't.
    Mr. Gaetz. So help me understand why you would partner with 
a group that labels him as someone worthy of an extremist 
watchlist.
    Mr. Bezos. Well, I want you to hopefully appreciate, when 
we're trying to make it possible for people to donate to any 
number of--from millions of different charities, and we need to 
have some source of data to use. And while I accept what you're 
saying, that the Southern Poverty Law Center and the U.S. 
Foreign Assets Office are not perfect--and I would like a 
better source if we could get it--that is what we use today. 
But I would happily engage with you----
    Mr. Gaetz. Well, that's breaking news. It's great to hear 
that you do recognize the infirmities in the Southern Poverty 
Law Center.
    And I guess Mr. Zuckerberg and Mr. Pichai's companies use 
them as well.
    Mr. Zuckerberg, do you believe that Dr. Ben Carson is an 
extremist?
    Mr. Zuckerberg. No, Congressman.
    Mr. Gaetz. And so why would you trust the people who think 
he is?
    Mr. Zuckerberg. Congressman, I'm not aware of where we work 
with the organization that you're saying----
    Mr. Gaetz. Oh, the Southern Poverty Law Center?
    Mr. Cicilline. The gentleman's time has expired.
    Mr. Gaetz. Okay. That's all.
    Mr. Cicilline. And I recognize the gentleman from Maryland, 
Mr. Raskin, for 5 minutes.
    Mr. Raskin. Thank you, Mr. Chairman.
    I read Richard Hofstadter's ``The Paranoid Style in 
American Politics,'' so I suppose it's futile to try to cure 
the obsessive persecution complex and victimology of some of 
our colleagues. But they should check out the top-performing 
Facebook link posts by the United States pages today or 
yesterday or any day for the last week, and 7 or 8 out of the 
10 each day are right-wing sites: Ben Shapiro, FOX News, Dan 
Bongino, Ben Shapiro, FOX News, Blue Lives Matter, and so on.
    So, if Facebook is out there trying to repress conservative 
speech, they're doing a terrible job at it. And so I don't 
understand just the endless whining about how Facebook or 
Twitter, or Facebook and Twitter, are somehow discriminating 
against conservatives.
    The removal of Donald Trump and Donald Trump, Jr., from 
Twitter, their tweets, was all about their spreading 
disinformation, false statements about COVID-19. That was an 
absolute public health measure which I hope all of us would 
endorse. We don't want anybody, including the President of the 
United States, spreading false information about COVID-19.
    So I think they essentially destroy their own case when 
they pick that as their cause for going after all of you.
    And I don't understand, for the life of me, the line of 
questioning about electioneering taking place by some of your 
companies. If you're opposed to electioneering by corporations, 
as I am, and you're opposed to Citizens United, then you've got 
no problem.
    Citizens United is what gave corporations the power to go 
out and spend money. And if you don't like the way that some 
companies are spending money, then, you know, either start your 
own company or tell them what's wrong with it. But the idea 
that electioneering is something you're opposed to just strikes 
me as completely inconsistent with the history and the facts.
    So I want to go to Mr. Cook, if we could, but, first, a 
quick question: Are any of your companies benefit corporations, 
and is that something you've considered doing? Is there any 
one--any one of you that have thought about becoming a B corp, 
or a benefit corporation?
    Okay. I take it the answer's ``no'' there.
    Mr. Cook, I'm hung up on this whole 30 percent question 
that several members have talked to you about. And you said 
sometimes it's 15 percent, sometimes it's 30 percent. Can you 
explain when it's 15 and when it's 30 and why it's 15 sometimes 
and why it's 30?
    Mr. Cook. Sure. Thank you for the question, Congressman.
    In eighty-four percent of the time, it's zero. Sixteen 
percent of the time, it's 15 or 30. In the case of--it's 15 if 
it's in the second year of a subscription.
    Mr. Raskin. Okay. So you just graduate from--your first 
year, you're taking no toll, essentially. The second year, it's 
15. And then it's 30 after that. Is that right?
    Mr. Cook. No, no. If it's a subscription product, it's 30 
percent in the first year, and then it drops to 15 in the 
second year and every year thereafter.
    Mr. Raskin. I gotcha. Okay.
    Well, what troubles me is just what one businesswoman told 
me when I was looking at this, which is, she said, I pay around 
25 percent of my income to Uncle Sam, to the government, and 
then I pay 30 percent of my income to Apple. And so I get half 
of it, and it's very hard to make ends meet.
    And I just wonder--you know, look, all of you are in 
business and all of you are tremendously successful at what you 
do, and obviously this model has worked for you. But the 
question is, does this model actually squeeze out the next 
generation of entrepreneurs? And is it an unjust arrangement 
because you're, you know, the 10,000-pound gorilla and they're 
just trying to get started?
    Mr. Cook. No, I don't think so. And, in fact, keep in mind, 
we've gone from 500 apps to 1.7 million. And so there's a lot 
of apps on the store, and a lot of people are making a very 
good living from it----
    Mr. Raskin. And you've said that--forgive me for 
interrupting, but you've said that several times. But that, to 
me, might just underscore the monopoly nature of your business, 
that everybody's got to go through you. There's really no 
alternative.
    And so, I mean, I don't blame you for taking them all, but 
that doesn't mean that the terms that are being dictated are, 
in fact, fair terms. So how would you defend, substantively, 
that bargain?
    Mr. Cook. That whether you look at it from a customer point 
of view or a developer point of view, there are enormous 
choices out there. If you're a developer, you can write for 
Android, you can write for Windows, you can write for Xbox or 
PlayStation. If you're a customer and you don't like the setup, 
the curated experience of the App Store, you can buy a Samsung, 
you can buy----
    Mr. Raskin. Okay. I appreciate that. Forgive me for cutting 
you off. I've got one more final question for Mr. Zuckerberg.
    You spend a lot of your time speaking to our conservative 
colleagues who have this persecution complex that you're 
somehow going after them. Will you have time to meet with this 
broad coalition of civil rights groups that are engaged in a 
boycott because of what they think is the proliferation of hate 
speech and Holocaust revisionism and other affiliated topics on 
Facebook?
    Mr. Zuckerberg. Congressman, yes. I already have taken the 
time to meet with them. I think that the topics that they're 
pushing on are important. On a lot of the goals, we agree. 
These are issues around fighting hate that we have focused on 
for years. And we are committed to continuing to improve the 
way that our company works and just continually getting better 
on these issues.
    Mr. Raskin. I appreciate that, and I will tell them of your 
answer.
    Thank you.
    Mr. Cicilline. Thank you, Mr. Zuckerberg.
    I now recognize the gentleman from Ohio, Mr. Jordan, for 5 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Cook, is the cancel culture mob dangerous?
    Mr. Cook. It's something I'm not all the way up to speed 
on. But if you're talking about where somebody with a different 
point of view talks and they're canceled, I don't think that's 
good. I think it's good for people to hear different points of 
view and decide for themselves.
    Mr. Jordan. Yeah, I agree with that.
    And I want to just reference a letter. Bari Weiss, who 
resigned as an editor at The New York Times, she wrote a letter 
explaining why she resigned. And I'll just read three sentences 
for--for all of you, actually.
    She says, first of all, ``My own forays into Wrongthink 
have made me the subject of constant bullying by my colleagues 
who disagree with my views.''
    She then says later in the letter, ``Everyone lives in fear 
of the digital thunderdome. The online venom is excused so long 
as it is directed at the proper targets.'' And those targets 
aren't just conservative. In fact, Ms. Weiss is actually 
center-left. She's not conservative. The targets are anyone who 
disagrees with the mob.
    Are the rest of you concerned about the cancel culture mob 
and what it's up to?
    Mr. Pichai.
    Mr. Pichai. Congressman, I'm sorry. I had momentary 
difficulty hearing.
    But, you know, I can--we've built platforms which allow for 
freedom of expression. And we take pride in the fact that, 
across our platforms, including YouTube, there are more diverse 
voices than ever before. It is something we have committed----
    Mr. Jordan. That's fine. That's fine. I'm just saying, are 
you--I'm concerned about it. And, again, I'm concerned about it 
not just because conservatives get attacked. I'm concerned when 
anyone gets attacked for expressing a viewpoint. I thought we 
had a First Amendment, and yet they constantly get attacked.
    How about you, Mr. Zuckerberg?
    Mr. Zuckerberg. Yes, Congressman, I believe strongly in 
free expression. Giving people a voice is an important part of 
what our services do. And I am very worried about some of the 
forces of illiberalism that I see in this country that are 
pushing against free expression. I think that this is one of 
the fundamental democratic traditions that we have in our 
country, and it's how we make progress over the long term on a 
number of issues. And our company is committed to doing what we 
can to----
    Mr. Jordan. Mr. Bezos.
    Mr. Zuckerberg [continuing]. Protect people's voice.
    Mr. Jordan. Thank you, Mr. Zuckerberg.
    Mr. Bezos.
    Mr. Bezos. Yes, sir, I am concerned in general about that. 
And what I find, and I find a little discouraging, is that it 
appears to me that social media is a nuance-destruction 
machine, and I don't think that's helpful for a democracy.
    Mr. Jordan. Do you agree with the term she used, Ms. Weiss, 
she used, ``digital thunderdome''?
    Mr. Bezos. I see that, yes.
    Mr. Jordan. Yeah, I see it too.
    And I think--I guess my point is, you are four pretty 
important guys leading four of the most important companies on 
the planet, and it would sure be helpful if you spoke out 
against this.
    I mean, Mr. Cook, there was a 1984 Super Bowl ad in black 
and white, had this Big Brother-type figure as the narrator 
saying over the screen to a bunch of these workers--looks like 
it was straight out of the Soviet Union--saying to a bunch of 
these workers, as they're sort of marching along, he says--one 
of the lines that the narrator uses is, ``Our unification of 
thoughts is more powerful a weapon than any fleet or army on 
the Earth.'' And then the ad ends with this lady running in in 
color and smashing the screen, busting the groupthink, busting 
the mobthink.
    Do you remember that ad, Mr. Cook? What company had that 
ad?
    Mr. Cook. I remember it very well. It was Apple versus IBM 
at the time.
    Mr. Jordan. Yeah, but the point was mobthink, cancel 
culture, groupthink is not what this country's about. And we 
are seeing it play out every single--just take the sports 
world, for goodness' sake. In the last few weeks, Drew Brees 
had to bow to the mob simply because he suggested you should 
stand for the anthem. There was a football coach at Oklahoma 
State who wore the, quote, ``wrong'' T-shirt fishing with his 
boys, and he got in all kinds of trouble. James Harden wears a 
mask saying back the police, help the police, support the 
police; he gets attacked.
    Why don't we just let the First Amendment work? That's all 
we're asking.
    And you are four individuals who have so much influence. It 
would sure help if you're out there--if you're out there 
criticizing what the cancel culture mob is doing to this 
country. And people see it every single day. And I hope you'll 
do it. I hope you'll--you all said you disagree with it. I hope 
you'll really speak out against it and be fair with all 
viewpoints.
    I yield back.
    Mr. Cicilline. The gentleman yields back.
    I recognize the gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Mr. Pichai, I direct my questions to you. Many of us feel a 
deep urgency to protect independent journalism, and I wanted to 
talk a little bit about ad revenue and independent journalism.
    Google makes most of its revenue through selling 
advertising. And Google's advertising exchange is a, quote, 
``real-time marketplace to buy and sell display advertising 
space,'' correct?
    Mr. Pichai. Yes, Congresswoman, that's correct.
    Ms. Jayapal. And over 2 million websites, including online 
newspapers, use that exchange, correct?
    Mr. Pichai. We are very proud to support publishers, and I 
don't have the exact numbers, but, yes, that seems----
    Ms. Jayapal. Okay. Well, that's an estimate put forth by 
tech expert Dina Srinivasan. And your own website for Google 
Display Network says you have access to over 2 million sites.
    What is Google's share of the ad exchange market?
    Mr. Pichai. Congressman, I'm not exactly familiar. I've 
seen various reports, but, you know----
    Ms. Jayapal. Okay.
    Mr. Pichai [continuing]. We are a popular choice.
    Ms. Jayapal. Great. Let me put it up for you. If you look 
at the screen, you will see that 50 to 60 percent--Google has 
50 to 60 percent, according to the online platforms and digital 
advertising CMA market study that was just released.
    And, in order to buy and sell on these exchanges, websites 
and advertisers go through a middleman, like Google's DV360 and 
Google Ads. If you look at the slide, Mr. Pichai, you can see 
that the share of this buy-side market that Google has is 50 to 
90 percent, according to the same study.
    And I just want to simplify how these exchanges work. So, 
say, in Seattle, Dee's Electronics, a mom-and-pop business, 
wants to buy online ad space in The Seattle Times. Dee's 
Electronics would need to go to a middleman, like Google Ads, 
which would then bid for ad space on an ad exchange.
    And the problem is that Google controls all of these 
entities. So it's running the marketplace, it's acting on the 
buy side, and it's acting on the sell side at the same time, 
which is a major conflict of interest. It allows you to set 
rates very low as a buyer of ad space from newspapers, 
depriving them of their ad revenue, and then also to sell high 
to small businesses who are very dependent on advertising on 
your platform.
    It sounds a bit like a stock market, except, unlike a stock 
market, there's no regulation on your ad exchange market. If 
there were regulation, it would actually prohibit insider 
trading, which means that the broker can't use the data in the 
broker division to buy and sell for their own interest. 
Instead, brokers have to serve the clients, their clients.
    Does Google have a similar obligation to serve its clients, 
the businesses that are selling and buying ad space?
    Mr. Pichai. Congresswoman, if I could explain this for a 
minute. We paid over $14 billion to publishers. We are deeply 
committed to journalism. In this area, on average, we pay out 
69 percent of the revenue when publishers use Google's buy and 
sell side tools. And, you know, out of--it's a low-margin 
business for us. We do it because we want to help support 
publishers----
    Ms. Jayapal. Right.
    Mr. Pichai [continuing]. In this area.
    Ms. Jayapal. No, I understand that, Mr. Pichai. What I'm 
trying to get at is, when any company controls the buy and the 
sell side--I worked on Wall Street a very long time ago. There 
are reasons that insider trading is regulated. And this ad 
exchange is essentially the same thing. And without 
accountability, it isn't meaningful to just care about the 
newspapers. We're seeing them die all over, and ad revenue is a 
big reason.
    Let me put up a graph here that shows that Google's ad 
revenue is increasingly coming from ads on Google-owned sites 
and less so from other websites. Can you explain that trend?
    Mr. Pichai. I can't quite see whether this is net revenue 
or gross revenue. Obviously, when it comes to non-Google 
properties, we share the majority of revenue back to 
publishers, whereas, on our own properties, we obviously--you 
know, we have the inventory.
    But I would need to understand more. I just quickly looked 
at it. I'm not sure I fully grasp the----
    Ms. Jayapal. Okay. We can send it to you and make sure you 
have it.
    You know, Google has not made its search traffic volumes 
public in years, so there's no way for us to know exactly 
what's happening here. And there's no way for businesses to 
verify whether they've been treated fairly or left behind in 
favor of Google-owned companies.
    Is Google steering advertising revenue to Google Search?
    Mr. Pichai. Congresswoman, users come to Google Search. It 
is that traffic and--you know, that's where our source of 
revenue comes from.
    So we are focused on providing users the information they 
are looking for. We work hard to earn that trust. We know 
competition for information is just a click away----
    Ms. Jayapal. Thank you, Mr. Pichai.
    I just want to make the point that independent journalism 
is incredibly necessary to our democracy, and we want to do 
what we can to protect it.
    I want to just ask one last question of Mr. Zuckerberg.
    Over 1,100 companies and organizations pulled their 
advertising business from Facebook as part of the Stop Hate for 
Profit campaign to protest the spread of hate speech and 
disinformation. But you had a staff meeting earlier this month 
where you told employees, ``We're not going to change our 
policies or approach because of a threat to any percent of our 
revenue. My guess is all these advertisers will be back on the 
platform soon enough.''
    Mr. Zuckerberg, are you so big that you don't care how 
you're impacted by a major boycott of 1,100 advertisers?
    Mr. Zuckerberg. No, Congresswoman. Of course we care. But 
we're also not going to set our content policies because of 
advertisers. I think that that would be the wrong thing for us 
to do.
    We've cared about issues like fighting hate speech for a 
long time, and we've invested billions of dollars--and I've 
talked about today how we have tens of thousands of content 
reviewers. We've built AI systems that proactively identify the 
majority--we're now at 89 percent of the hate speech that we 
remove before anyone even reports it to us.
    We're going to continue getting better at that. And I think 
that those investments over time and the results that we put up 
will be recognized by people, since I do believe that they are 
industry-leading.
    And I think that our advertising also is, for a lot of 
small businesses, the most effective or among the most 
effective ways that they can find and reach new customers----
    Ms. Jayapal. Thank you--thank you, Mr. Zuckerberg.
    My time has expired, but I would just say that, I know 
you've commissioned your own civil rights audit. I don't think 
that you've implemented all those recommendations yet. I hope 
you will move quickly to implement those. This is a critical 
time, as we watched the body of John Lewis leave us here in the 
Capitol, that we focus on civil rights.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cicilline. Before I call on the next witness, I want to 
recognize Mr. Pichai, who I think wants to make a correction 
for the hearing.
    Mr. Pichai. The only correction--thanks, Mr. Chairman.
    There was a question earlier about information with respect 
to China. I just wanted to acknowledge on record that I recall 
in 2009 we had a well-publicized cyber attack originating 
there, which did exfiltrate some code from there. I just wanted 
to correct that.
    Mr. Cicilline. Thank you, Mr. Pichai. The record will so 
reflect.
    I recognize the gentlelady from Pennsylvania for 5 minutes.
    Ms. Scanlon. Thank you, Mr. Chairman.
    In March 2020, Amazon announced that it was going to start 
delaying shipments of nonessential products in order to better 
serve customers and meet need while helping to ensure the 
safety of their warehouse workers. In practice, however, it 
appears that this policy was applied selectively, as Amazon 
appeared to continue to designate its own products as essential 
even as it delayed competing products from third-party sellers.
    So the essential items were supposed to include household 
staples, medical supplies, high-demand products, and that many 
factors were considered when determining eligibility to be 
essential. But we've had several employees report that Amazon 
continued to ship nonessential items like hammocks, fish tanks, 
pool floaties, et cetera.
    Mr. Bezos, were Amazon devices like Fire TV, Echo speakers, 
and Ring doorbell designated as essential during the pandemic?
    Mr. Bezos. I don't know the answer to that question. What I 
can tell you is that we had--there was no playbook for this. We 
moved very quickly. Demand went through the roof. It was like 
having a holiday selling season, but in March. And we had to 
make a lot of decisions very rapidly.
    Ms. Scanlon. Okay.
    Mr. Bezos. Our goal was to limit it to essential supplies, 
but I'm sure we did not do that perfectly.
    Ms. Scanlon. Okay.
    I know the Ring doorbell has two competing products, 
including Arlo and--Eufy maybe? Do you know if they were 
designated as essential?
    Mr. Bezos. I do not.
    Ms. Scanlon. Okay.
    Are you able to testify to Congress today whether Amazon's 
profit was a factor in giving an ``essential'' classification 
distinction?
    Mr. Bezos. No, not to my knowledge. We were working to 
achieve two objectives. One was to get essential products to 
customers, and the second was to keep our frontline employees 
safe. And we did a tremendous amount of work in both 
categories, and that's what we were focused on. We were not 
focused on profitability at that time.
    Ms. Scanlon. Pushing out the elusive Clorox Wipe, I guess.
    But, at any rate, moving along, let's talk about the fees 
that Amazon charges sellers. According to a recent report, 
seller fees netted Amazon almost $60 billion in 2019, nearly 
double the $35 billion in revenue from AWS, Amazon's massive 
cloud-computing division.
    Five years ago, Amazon took an average of 19 percent of 
each sale made by a third party on its site. Today, Amazon 
keeps an average of 30 percent. Doesn't Amazon's ability to 
hike those fees so steeply suggest that Amazon enjoys market 
power over those sellers?
    Mr. Bezos. No, Congresswoman, I don't believe so. I think 
what you're seeing there, when you see that go from 19 to 30 
percent, is that more and more sellers are taking advantage of 
the incremental services that we offer.
    And a big piece of that is Fulfillment by Amazon, which is 
probably the greatest invention that we ever created for 
sellers. And it's working for sellers. That's why, today, 60 
percent of sales are going through third-party sellers, up from 
zero 20 years ago.
    Ms. Scanlon. Right. But I think a little more concerning is 
the 11-percent hike.
    Since 2014, Amazon's revenue from seller fees has grown 
almost twice as fast as its overall sales. So seller fees now 
account for 21 percent of Amazon's total revenue.
    Mr. Bezos, aren't seller fees now effectively subsidizing 
Amazon's retail division?
    Mr. Bezos. Congresswoman, no, I don't believe so. I think 
what you're seeing there, when you see these fees going up, 
what's really happening is that sellers are choosing to use 
more of our services that we make available.
    There are, you know, previously, perhaps, they were 
shipping their own products from their own fulfillment centers. 
So they would've had costs doing that. If you're operating your 
own fulfillment center and buying transportation services to 
the customer through the postal service or through UPS or 
whoever it would be, you----
    Ms. Scanlon. Okay. So let's talk a little bit about the 
fulfillment centers.
    Mr. Bezos [continuing]. Have those fees anyway. But now 
you're doing that with Fulfillment by Amazon.
    Ms. Scanlon. Right.
    Mr. Bezos. Yes, please. Go ahead. Sorry.
    Ms. Scanlon. Okay. So we've got Fulfillment by Amazon. And, 
a year ago, we asked whether a merchant who was enrolled in 
Fulfillment by Amazon, also known as FBA, is a factor in 
whether they can be awarded the Buy Box. And, at that time, 
Amazon said no.
    But the evidence is indicating and your own documents are 
showing that being enrolled in that program is a major factor, 
and it effectively forces sellers to pay for fulfillment 
services from Amazon if they want to make sales.
    Mr. Bezos, has Amazon's big Buy Box algorithm ever favored 
third-party sellers who buy fulfillment services from Amazon 
over other sellers?
    Mr. Bezos. I think, effectively, the Buy Box--maybe 
directly or indirectly--I'm not sure if it's direct, but, 
indirectly, I think the Buy Box does favor products that can be 
shipped with Prime. So especially if you're a Prime member, the 
Buy Box is trying to pick the offer--if we have multiple offers 
from multiple sellers for the same item, a customer wants to 
buy that item, the Buy Box is trying to pick the offer that we 
predict the customer would most like. That includes price, 
delivery speed, and if you're a Prime member, it includes 
whether the item is eligible for Prime.
    And so, I think at least indirectly----
    Ms. Scanlon. Thank you, Mr. Bezos. I think my time has 
expired.
    Mr. Cicilline. The gentlelady's time has expired.
    Before I recognize our last two colleagues, I think Mr. 
Zuckerberg would like to clarify something for the record as 
well.
    Mr. Zuckerberg. Chairman, thank you.
    In response to Congressman Johnson's question before, I 
said that I wasn't familiar with the Facebook research app, 
when I wasn't familiar with that name for it. But I just want 
to be clear that I do recall that we used an app for research, 
and it has since been discontinued. And I would be happy to 
follow up with his staff on any more details that he would like 
on that.
    Mr. Cicilline. Thank you, Mr. Zuckerberg.
    Mr. Zuckerberg. Thank you.
    Mr. Cicilline. The record shall so reflect.
    I recognize the gentleman from Colorado, Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chairman.
    Good afternoon, Mr. Cook. I wanted to direct a few 
questions to you and wanted to talk a little bit about the App 
Store and app development.
    So, just taking a step back, my understanding from your 
testimony today is that, essentially, Apple has to operate by 
the same rules that the app developers operate by, in terms of 
being able to access the App Store. Is that correct?
    Mr. Cook. We have 60 apps on the App Store. They go through 
the same rules that the 1.7 million do.
    Mr. Neguse. Okay. So here's, kind of, why I ask that 
question. My understanding is the App Store review guidelines 
tell app developers not to submit copycat apps. Is that 
correct?
    Mr. Cook. I'm not totally familiar, but I believe that's 
the case, because we were getting a number of apps that were 
essentially the same thing, like sort of a cookie cutter.
    Mr. Neguse. And I can represent to you, Mr. Cook, we've 
reviewed--our subcommittee staff has obviously reviewed the 
guidelines, and they--precisely. They say that app developers 
should have original ideas, that copycat ideas aren't fair, and 
Apple's customers don't want those.
    On the other hand, the app developer agreement, which you 
require every developer to agree to, does give Apple the right 
to copy other apps.
    And so I guess the question is, why one rule for the 
developers that compete with you and the opposite rule for 
Apple?
    Mr. Cook. Congressman, I'm not familiar with that, but I 
could follow up with your office on it.
    Mr. Neguse. Well, I would appreciate if you could follow up 
with our office. My understanding, again, is that the app 
developer agreement explicitly says that Apple can use any 
information that an app developer provides to Apple for any 
purpose.
    And so, obviously, you have complaints from any number of, 
you know, app developers who have testified before our 
committee--and I, as I said, represent the State of Colorado. 
We heard from a company called Tile, which said that Apple had 
access to confidential information about the apps distributed 
by the App Store. And, given that, juxtaposed against this 
language in the exclusive agreement, you can understand why we 
would have concerns about anticompetitive conduct.
    Mr. Cook. Yeah, Congressman, we run the App Store to help 
developers, not hurt them. We respect innovation. It's what our 
company is built on. We would never steal somebody's IP.
    But I will follow up with your office on more detail on 
this.
    Mr. Neguse. Well, and I appreciate that, Mr. Cook. Because 
I think, to the extent that Apple were willing to commit--and I 
intend to ask Mr. Pichai a similar line of questioning, because 
I believe this is consistent across multiple different 
platforms. To the extent Apple was willing to commit within the 
developer agreement to say that, while you have access to that 
data, that you are not going to use that data and are not 
permitted to use that data to replicate your own app, a copycat 
app, if you will, that would certainly, in my view, be a 
reflection of a step away from any type of anticompetitive 
conduct. And it sounds like you'll follow up, and we can learn 
more with respect to that issue.
    Mr. Pichai, similarly, there was an article just today, or, 
excuse me, yesterday, from The Verge. The title is, ``Google 
reportedly keeps tabs on usage of rival Android apps to develop 
competitors.''
    And I'll quote from the article. ``Google said that the 
data doesn't give information about how people behave while 
they're using individual apps, but it wouldn't say whether it 
had been used to develop competing apps.''
    So I guess, first, I take it you would confirm that Google 
does have access to confidential information or, ultimately, 
competitively sensitive information about apps on the Android 
devices?
    Mr. Pichai. Congressman, if I could clarify this, today we 
have an API, which is available for other developers as long as 
users consent. This gives us system health metrics. This is how 
we can launch digital well-being features on Android. This is 
how we understand which apps are using battery and we can give 
a dashboard which shows, you know, maybe for crashing or 
quality control or for battery usage or for digital well-being.
    So, at a high level, this data is available through a 
public API, and other developers can avail as long as the users 
give consent to it.
    Mr. Neguse. So, Mr. Pichai, I just want to clarify. Again, 
I'll quote from this article. The article refers to this data 
as ``sensitive data about other apps, including how often 
they're opened and for how long they're used.''
    I'm not asking how you use that information. I'm just 
asking whether or not, in fact, what the article alleges is 
correct, that you do have access to that data.
    Mr. Pichai. Yeah, with user consent, and the APIs exist. 
Yes, we do.
    Mr. Neguse. And does Google----
    Mr. Pichai. And it's critical for us to have access to that 
so that we can maintain the--you know, this is how we 
understand and we can, you know, improve resource usage of 
applications----
    Mr. Neguse. Understood.
    Mr. Pichai [continuing]. Just like----
    Mr. Neguse. My time's limited. Sorry. I just want to get to 
this core question: Given that Google does have access to that 
data, does Google use that data to develop competing apps?
    And if your answer is no, will Google commit to making the 
necessary changes within its Android developer app agreements 
to ensure that developers have that sense of clarity that, in 
fact, the data will not be used for Google to be able to 
develop a competing application?
    Mr. Pichai. Congressman, like other businesses today, we do 
look at trends. And, you know, in fact, in Play Store, we do 
publish the number of installs of application, and we give 
ranges. And so there's a wide variety of ways by which we try 
to understand what's happening in the market. But I appreciate 
your concern about making sure there's clarity in this area, 
and we'll continue to invest and give more clarity.
    Mr. Neguse. Yeah, just I must, I guess--I want to just 
follow up very quickly, Mr. Chairman, if you're willing.
    So I guess I'm wondering if you can just answer that 
fundamental question: Does Google use that information to 
develop competing apps?
    I understand the purposes you've described in terms of how 
you use the information. I'm just asking if one of those, in 
fact, is to develop competing apps.
    Mr. Cicilline. The gentleman's time has expired, but the 
witness may answer the question.
    Mr. Pichai. Congressman, because we try to understand 
what's going on in market and we are aware of, you know, 
popularity of apps, you know, I don't want to--I want to be 
accurate in my answer.
    But, in general, the primary use for that data is to 
improve the health of Android. But, you know, any data we get, 
we have user consent for it, and we make it available through 
an API to other developers as well.
    Mr. Cicilline. The gentleman's time has expired.
    I now recognize the gentlelady from Georgia, Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman.
    And, gentlemen, thank you so much for spending so much of 
your time with us today. We really appreciate it.
    And many of you have mentioned John Lewis today and his 
fight for equality and that I know that all my colleagues and I 
will carry on.
    Very quickly, can each of you simply commit to improving 
racial and gender equity at your companies, including Black 
leadership and women in your senior ranks? Just a yes-or-no 
answer, please.
    Mr. Zuckerberg?
    Mr. Zuckerberg. Yes.
    Mrs. McBath. Mr. Cook?
    Mr. Cook. Yes. I am very personally committed.
    Mrs. McBath. Thank you.
    Mr. Bezos?
    Mr. Bezos. Absolutely, yes.
    Mrs. McBath. Thank you.
    Mr. Pichai?
    Mr. Pichai. Yes. And we've made public commitments to this 
regard.
    Mrs. McBath. Thank you so much.
    Mr. Zuckerberg, in 2004, there were dozens of social media 
companies. Facebook distinguished itself from the competitors 
by focusing specifically on privacy. You had a short, clear 
privacy policy; it was just 950 words. It made a promise to 
users, and I quote, ``We do not and will not use cookies to 
collect private information from any user.''
    And you said ``will not.'' That's a commitment about the 
future. And that was 2004. Mr. Zuckerberg, today, does Facebook 
use cookies to collect private information on users?
    Mr. Zuckerberg. Congresswoman, my understanding to that is, 
no, we're not using cookies to collect private information 
about people who use our services, and I believe we've upheld 
that commitment.
    Mrs. McBath. Okay. Thank you.
    So, Mr. Zuckerberg, do you think that your company would be 
as successful if it had started with today's cookies policy in 
place?
    Mr. Zuckerberg. Congresswoman, I'm not sure exactly what 
you're referring to, but, in general, cookies are not a big 
part of how we're collecting information. We've primarily used 
them to make sure that someone can stay logged in on the web. 
We use them, to some degree, for security to make sure that you 
don't have someone trying to log in under a lot of different 
accounts for one computer or something like that.
    Mrs. McBath. So, Mr. Zuckerberg, once again, you do not use 
cookies.
    Mr. Zuckerberg. Congresswoman, just to make sure----
    Mrs. McBath. Yes or no?
    Mr. Zuckerberg [continuing]. I'm clear--we do use cookies. 
We do use cookies.
    Mrs. McBath. Okay.
    Mr. Zuckerberg. Yes, we do use cookies.
    Mrs. McBath. Okay. So, Mr. Zuckerberg, the bottom line here 
is that you broke a commitment to your users. And who can say 
if you may or may not do that again in the future? The reality 
is that Facebook's market power grew and Facebook sacrificed 
its user policy.
    Mr. Bezos, my colleagues have touched on counterfeit goods, 
and I share their concerns very deeply. I'm also concerned 
about stolen goods. Mr. Bezos, are stolen goods sold on Amazon?
    Mr. Bezos. Congresswoman, not to my knowledge, although, 
you know, there are more than a million sellers, and so I'm 
sure that there have been stolen goods----
    Mrs. McBath. Really, Mr. Bezos?
    Mr. Bezos [continuing]. Sold on Amazon.
    Mrs. McBath. Really, Mr. Bezos?
    Mr. Bezos. I'm sorry?
    Mrs. McBath. There's not? You don't believe that there is? 
That surprises me.
    Mr. Bezos. No, I just said, with over a million sellers, 
I'm sure that it has happened. But, certainly, I don't think 
it's a large part of what we're selling.
    Mrs. McBath. Okay. So, Mr. Bezos, basically, then, you're 
saying ``yes.''
    Mr. Bezos. I guess so.
    Mrs. McBath. Okay.
    So I want to ask you about information that you require 
from sellers to prevent the sale of stolen goods. Do you 
require a real name and address, yes or no?
    Mr. Bezos. For sellers?
    Mrs. McBath. Once again, do you require a real name and 
address from sellers?
    Mr. Bezos. I believe we do. But let me get back to your 
office with a--I'd rather give you the accurate answer, but I 
think we do.
    Mrs. McBath. All right. And I am aware that you are. So, 
yes, you do require a name and address.
    Do you require a phone number, yes or no?
    Mr. Bezos. I don't know if it's required. I think we often 
have it. But I don't know.
    Mrs. McBath. So, briefly, then, how do you verify that each 
of these pieces of information is accurate?
    Mr. Bezos. I don't know the answer to your question.
    Mrs. McBath. So you don't know how many people work on 
seller verification before the seller is allowed to sell on 
Amazon?
    Mr. Bezos. No, Congresswoman, I don't.
    Mrs. McBath. Okay. Then I'm going to ask you, sir, will you 
commit to reporting all sales of stolen and counterfeit goods 
to law enforcement and to victims to track large-scale 
offenders engaged in organized retail crime?
    Mr. Bezos. To the degree that we're aware of it, we will 
certainly pursue it. In fact, I would encourage----
    Mrs. McBath. Sir, can you just make a blanket commitment--
can you just make a blanket commitment, whether you're aware of 
it or not?
    Mr. Bezos. A blanket commitment to what? Sorry, 
Congresswoman. I'm trying to be helpful.
    Mrs. McBath. Reporting all sales of stolen and counterfeit 
goods to law enforcement and to victims to track large-scale 
offenders engaged in organized retail crime.
    Mr. Bezos. I see no reason why, if we're aware of stolen 
goods, we wouldn't report it. We would want the correct law 
enforcement authorities to be involved.
    Mrs. McBath. Okay. Thank you so much.
    I yield back my time.
    Mr. Cicilline. I thank the gentlelady for yielding back.
    I want to thank the witnesses for their testimony today and 
my colleagues on both sides of the aisle.
    I also want to acknowledge the extraordinary work of our 
team, led by Slade Bond, Lina Khan, Amanda Lewis, Phil 
Berenbroick, Anna Lenhart, and Joe Van Wye, who have done an 
extraordinary job throughout this investigation and in 
preparation for our hearing today.
    Today, we had the opportunity to hear from the 
decisionmakers at four of the most powerful companies in the 
world. This hearing has made one fact clear to me: These 
companies, as they exist today, have monopoly power. Some need 
to be broken up. All need to be properly regulated and held 
accountable.
    We need to ensure the antitrust laws first written more 
than a century ago work in the digital age. When these laws 
were written, the monopolists were men named Rockefeller and 
Carnegie. Their control of the marketplace allowed them to do 
whatever it took to crush independent businesses and expand 
their own power.
    Well, the names have changed, but the story is the same. 
Today, the men are named Zuckerberg, Cook, Pichai, and Bezos. 
Once again, their control of the marketplace allows them to do 
whatever it takes to crush independent business and expand 
their own power. This must end.
    This subcommittee will next publish a report on the 
findings of our investigation. We will propose solutions to the 
problems before us.
    As the great American Supreme Court Justice Louis Brandeis 
once said, ``We must make our choice. We may have democracy, or 
we may have wealth concentrated in the hands of a few, but we 
can't have both.''
    This concludes today's hearing.
    Thank you again to our witnesses for attending.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Mr. Cicilline. And, without objection, this hearing is 
adjourned.
    [Whereupon, at 6:33 p.m., the subcommittee was adjourned.]
      

                                APPENDIX

=======================================================================  
_______________________________________________________________________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 






</pre></body></html>
